                                                                                       September 30, 2008
PREFACE

        We are providing this interagency report for your information and use. This
review was conducted as a cooperative effort by the Offices of Inspector General (OIGs)
of the Departments of Agriculture, Commerce, Defense, Energy, Homeland Security,
State, and the Treasury; the Central Intelligence Agency; and the United States Postal
Service.

        Public Law 106-65, “National Defense Authorization Act for FY 2000,” requires
that the Inspectors General of the Departments of Commerce, Defense, Energy, and
State, in consultation with the Directors of Central Intelligence and the Federal Bureau of
Investigation, 1 conduct an annual review, not later than March 30th of each year
beginning in the year 2000 and ending in the year 2007, on the adequacy of export
control policies and procedures in the U.S. Government.

       This report satisfies our eighth and final statutory reporting requirement under the
“National Defense Authorization Act for FY 2000,” as amended. The report focuses on
whether management effectively addressed recommendations from previous reports
required by the Act. 2 This report discusses issues that affect more than one agency and
includes separate appendixes containing the agency-specific reports. The report is in
three volumes:

           •    Volume I contains the findings, recommendations, and reports from the
                Departments of Commerce, Defense, Energy, State, the Treasury, and the
                United States Postal Service OIGs.

           •    Volume II, marked For Official Use Only, contains the report that the
                Department of Homeland Security OIG issued, and a detailed followup report
                on recommendations made in previous years by the OIGs.

           •    Volume III, classified as Secret, contains the agency-specific report issued by
                the Central Intelligence Agency OIG, as well as an appendix to the
                Department of Commerce OIG’s report.

       There are no interagency recommendations in this year’s report; therefore,
management comments are not required. However, we requested management comments
on agency-specific draft reports from the appropriate officials and, when provided, we
considered them in preparing this report. Management comments provided in response to
individual agency reports are included in those reports.

       This interagency report is required by Congress and will support Congress and the
Administration in shaping future Federal licensing policies and procedures for U.S.
exports to countries and entities of concern.




1
    The Federal Bureau of Investigation does not play an active role in the licensing process for export-
    controlled technology and therefore did not participate in this interagency review.
2
    The Commerce OIG also conducted a separate review of U.S. dual-use export controls for India.
                         Offices of Inspector General of the
       Departments of Agriculture, Commerce, Defense, Energy, Homeland
    Security, State, and the Treasury; the Central Intelligence Agency; and the
                            United States Postal Service
Report No. D-2008-095                                                             September 30, 2008

                  Interagency Review of Prior Inspector General
                 Recommendations Related to U.S. Export Controls

                                       Executive Summary

Background
The United States controls the export of dual-use commodities 1 and munitions 2 for
national security and foreign policy purposes under the authority of several laws,
primarily the Export Administration Act of 1979 3 and the Arms Export Control Act of
1976. Commodities are subject to the licensing requirements contained in the Export
Administration Regulations for dual-use commodities or the International Traffic in
Arms Regulations for munitions.

From 2000 through 2006, 9 Offices of Inspector General (OIGs) 4 participated in issuing
9 interagency reports and 40 agency-specific reports on U.S. export controls. The OIGs
made 273 recommendations in these 49 reports to improve Federal export control
policies and procedures. This report provides the status of Federal managers’
implementation of those recommendations.

Objective
The main objective of the 2007 review was to determine whether management effectively
addressed recommendations in previous reports required by the National Defense
Authorization Act. 5


1
    Dual-use commodities can be used for commercial or military purposes.
2
    Munitions can be military weapons, ammunition, and equipment.
3
    The Export Administration Act expired in August 1994. However, the President, under the authority of
    the International Emergency Economic Powers Act (section 1702, title 50, United States Code),
    continued the provisions of the Export Administration Act through Executive Order 13222,
    “Continuation of Export Control Regulations,” August 17, 2001. On August 3, 2006, the President
    issued a notice, “Continuation of Emergency Regarding Export Control Regulations,” extending
    Executive Order 13222.
4
    The Department of Agriculture OIG made two recommendations in March 2005. These
    recommendations were implemented by the Department of Agriculture. Therefore, the Department of
    Agriculture OIG determined that a followup review and report were not needed.
5
    The Department of Commerce OIG also conducted a separate review of U.S. dual-use export controls for
    India.
Review Results
To satisfy the final National Defense Authorization Act reporting requirement, the
Inspectors General of the Departments of Commerce, Defense, Energy, Homeland
Security, State, and the Treasury; the Central Intelligence Agency; and the United States
Postal Service followed up to determine whether management effectively addressed
export control recommendations made pursuant to the National Defense Authorization
Act.

This interagency review determined that 234 of the recommendations (85.6 percent)
made to Federal managers from 2000 through 2006 were implemented (closed). 6
However, Federal managers needed to take additional actions to implement the
39 remaining (open) recommendations. These 39 recommendations remained open from
1 to 7 years. The following chart summarizes the status of recommendations made by the
interagency OIGs from 2000 to 2006 to control exports.

                     Status of Recommendations Related to U.S. Export Controls
                                    (From 2000 through 2006)
                                                                       Number of
                                                     Number        Recommendations*
                                                                            of
             Office of Inspector General                                  Reports         Closed          Open          Total
    Interagency                                                           9                 6               1             7
    Department of Agriculture                                                  1            2               0             2
    Department of Commerce                                                     7          131**            19           150
    Department of Defense                                                      7           29              10            39
    Department of Energy                                                       7           14               3            17
    Department of Homeland Security                                            3            5               2             7
    Department of State                                                        7           28               1            29
    Department of the Treasury                                                 3           15               2***         17
    Central Intelligence Agency                                                4            1               1             2
    United States Postal Service                                               1            3               0             3
    Total                                                                 9 40            234              39           273
    *The numbers shown for closed and open recommendations are as of the date of publication of the report for each agency. For
    further detail on the closed or open status, refer to the agency-specific report recommendations in Volume II of this report.
    **Some recommendations were closed although the recommendations were not implemented.
    ***These recommendations were made to Treasury bureaus that have been transferred to the Department of Homeland
    Security.




The results of followup work performed and the status of recommendations as
determined by the OIGs at Commerce, Defense, Energy, Homeland Security, State, the
Treasury, the Central Intelligence Agency, and the United States Postal Service follow.

The Commerce OIG’s review of U.S.-India export control activities identified the
following concerns that warranted management’s attention:

        •    Dual-use export control policies and practices for India were not fully transparent.

6
    The interagency review focused on the implementation of recommendations as of December 31, 2006.

                                                                     ii
   •   Bureau of Industry and Security’s end-use check program in India needed to be
       improved.

   •   Bureau of Industry and Security needed to enhance its efforts to ensure
       compliance with license conditions.

With regard to prior Commerce OIG recommendations made from 2000 to 2006 related
to export controls, Commerce OIG found that the Bureau of Industry and Security has
taken action to address 87 percent of the recommendations. However, several key
recommendations from its reports on Export Control Automated Support System
modernization efforts (February 2002), deemed export controls (March 2004), chemical
and biological export licensing (March 2005), and China export controls (March 2006)
remained open. In addition, one recommendation from the March 2002 interagency
report on federal automated export licensing systems was still open. All
recommendations from Commerce OIG’s March 2000 and 2001 reports were closed.

Given the current interest in the Committee on Foreign Investment in the United States
both within and outside of the U.S. government, Commerce OIG followed up on its
March 2000 report findings and recommendations related to selected aspects of the
Committee on Foreign Investment in the United States’ monitoring of foreign investment
for national security reasons. While questions still remain about the effectiveness of the
overall Committee on Foreign Investment in the United States process, Commerce OIG
noted that considerable improvements have been made with regard to Committee
activities within Commerce.

It should also be noted that based on its follow-up work, Commerce OIG reopened its
recommendation related to the Bureau of Industry and Security working with the U.S.
Postal Service to increase interagency cooperation and coordination in identifying
potential violations of dual-use export control laws.

The Defense OIG found that Department of Defense (DoD) organizations implemented
29 of 39 (74.3 percent) of the recommendations made in 7 reports issued from FY 2000
through FY 2006. However, those organizations needed to fully implement the
10 remaining recommendations. One recommendation remained unimplemented for
7 years.

The Defense OIG made the 39 recommendations to strengthen controls over and reduce
the risk of the inappropriate export of goods, services, and technologies such as
chemicals, toxins, explosives, electronics, sensors, and lasers. Until the recommended
controls are implemented, DoD continues to accept avoidable risks of inappropriately
exporting sensitive goods, services, and technology that could threaten our national
security.

The Energy OIG reported that of 17 prior recommendations, 14 were closed as of the end
of 2006. The open recommendations concerned the dissemination of export control
guidance across the Energy complex and access to and training on Commerce’s Export
Control Automated Support System.

The Department of Homeland Security OIG determined that five of the seven
recommendations addressed in three reports issued from 2000 through 2006 were closed.
For the two open recommendations, one is related to immigrant applications for approval,
and the other is related to Customs and Border Protection staffing.

                                            iii
The Department of State OIG found that the Bureau of Political-Military Affairs,
Directorate of Defense Trade Controls, had implemented 28 of the 29 recommendations
contained in OIG reports on export controls issued from 2000 to 2006. The OIG’s
recommendation from its 2006 report that the Bureau of Political-Military Affairs,
Directorate of Defense Trade Controls should establish performance measures that detail
benchmarks and timeframes for reducing and eliminating the number of unfavorable
post-license end-use checks remains unresolved. Nevertheless, the Bureau of Political-
Military Affairs, Directorate of Defense Trade Controls stated that over the next year it
would consider whether such measures, along with time-lines and benchmarks, would be
of value in its compliance and licensing functions. As a result, this recommendation will
remain unresolved until the Bureau of Political-Military Affairs, Directorate of Defense
Trade Controls makes its final determination.

The Treasury Department OIG determined that the 3 recommendations directed to
current Treasury Departmental offices were implemented and are now closed.

The Central Intelligence Agency OIG reported that in response to prior export audit
recommendations, the Central Intelligence Agency’s Office of Transnational Issues
Military Security Group (the Military Security Group) is developing a working
relationship with the Department of State’s Directorate of Defense Trade Controls (the
Directorate) concerning the conventional weapons export market. According to a
Directorate representative, meetings between the Military Security Group and the
Directorate have been positive and the Directorate is satisfied with the developing
relationship with the Military Security Group. The Central Intelligence Agency OIG is
aware that the Military Security Group and the Directorate are drafting a new
memorandum of understanding, but the Central Intelligence Agency OIG’s 2006 audit
recommendation will remain open until the new memorandum of understanding is signed
by both parties.

The United States Postal Service OIG concluded that the Postal Service has taken actions
to address the three recommendations made in 2003. However, the Postal Service OIG
encouraged the Postal Service to continue to work with Customs and Border Protection
to expand and implement a nationwide outbound mail inspection program to search
outbound mail and ensure compliance with export administration regulations.
Followup on Previous Interagency Reviews
As required by the National Defense Authorization Act for FY 2001, Appendix I
(Volume II) provides details on recommendations from previous years’ agency-specific
and interagency reports.

Recommendations and Management Comments
There are no interagency recommendations in this year’s report; therefore, management
comments are not required. The participating OIGs made recommendations specific to
their own agencies. Recommendations, management comments, and OIG responses are
included in the separate reports that each office issued. They may be found in
Appendix B-1 and B-2 (Commerce), Appendix C (Defense), Appendix D (Energy),
Appendix E (State), Appendix F (Treasury), Appendix G (United States Postal Service),
and Appendix H (Homeland Security). Appendixes B, C, D, E, F, and G are in Volume I,
and Appendix H is in Volume II. A status report on recommendations from previous
interagency reviews is in Volume II. Appendixes J and K, in Volume III, contain the

                                           iv
classified results of work completed by the Central Intelligence Agency and the
Department of Commerce.




                                           v
Table of Contents

Executive Summary                                                                     i

Background                                                                           1

Responsibilities of Federal Entities Related to U.S. Export Controls                 2

Objective                                                                            5

Implementation of Recommendations for Controls Over Exports                          5

Appendixes
          A. Scope and Methodology                                                    6
               Interagency Scope                                                      6
               Interagency Methodology                                                6
          B. Department of Commerce Reports
                U.S. Dual-Use Controls for India Should Be Closely Monitored        B-1
                Survey of Selected Aspects of the CFIUS [Committee on Foreign
                Investment in the United States] Process                            B-2
          C. Department of Defense Report                               (Volume I) C-1
          D. Department of Energy Report                                (Volume I) D-1
          E. Department of State Report                                 (Volume I) E-1
          F. Department of the Treasury Report                           (Volume I) F-1
          G. The United States Postal Service Report                    (Volume I) G-1
          H. Department of Homeland Security Report (FOUO 1 )          (Volume II) H-1
          I. Followup on Prior Interagency Reviews (FOUO)               (Volume II) I-1
          J. Central Intelligence Agency Report (SECRET//NOFORN 2 ) (Volume III) J-1
          K. Department of Commerce Appendix (SECRET//NOFORN) (Volume III) K-1




1
    FOUO – For Official Use Only
2
    NOFORN – No Foreign National
Background
           The United States controls the export of dual-use commodities 1 and munitions 2
           for national security and foreign policy purposes under the authority of several
           laws, primarily the Export Administration Act of 1979 3 and the Arms Export
           Control Act of 1976. Commodities are subject to the licensing requirements
           contained in the Export Administration Regulations for dual-use commodities or
           the International Traffic in Arms Regulations for munitions.

           Public Law 106-65, “National Defense Authorization Act for FY 2000,” requires
           that the Inspectors General of the Departments of Commerce, Defense, Energy,
           and State, in consultation with the Directors of Central Intelligence and the
           Federal Bureau of Investigation, conduct an annual review of the adequacy of
           export control policies and procedures in the U.S. Government. In addition, the
           Public Law requires the annual review be conducted not later than March 30th of
           each year beginning in the year 2000 and ending in the year 2007. An
           amendment to the National Defense Authorization Act for FY 2001 requires the
           Inspectors General to report on the status of recommendations made in prior
           annual reports.

           To comply with the first-year requirement of the Act, the OIGs conducted
           agency-specific and interagency reviews of compliance with license requirements
           for releasing export-controlled technology to foreign nationals in the United
           States. Also, the OIGs reviewed Government actions to protect against the illicit
           transfer of U.S. technology through select intelligence, counterintelligence, and
           foreign investment reporting and enforcement activities. We issued two
           interagency reports to fulfill the first-year requirement of the Act: Report No. D-
           2000-109, “Interagency Review of the Export Licensing Process for Foreign
           National Visitors,” issued on March 24, 2000, and Report No. 00-OIR-05, “(U)
           Measures to Protect Against the Illicit Transfer of Sensitive Technology,” issued
           on March 27, 2000.
           To meet the second-year requirement of the Act, the OIGs conducted an
           interagency review to assess policies and procedures for developing, maintaining,
           and revising the Commerce Control List and the U.S. Munitions List. The
           interagency report, D-2001-092, “Interagency Review of the Commerce Control
           List and the U.S. Munitions List,” was issued in March 2001.

           To achieve the third-year requirement of the Act, the OIGs conducted an
           interagency review of the Federal automation programs that support the export
           licensing and enforcement process. That interagency report, D-2002-074,


1
    Dual-use commodities can be used for commercial or military purposes.
2
    Munitions can be military weapons, ammunition, and equipment.
3
    Although the act expired on August 21, 2001, the President extended existing export regulations under
    Executive Order 13222, dated August 17, 2001, invoking emergency authority under the International
    Emergency Economic Powers Act.

                                                      1
     “Interagency Review of Federal Automated Export Licensing Systems,” was
     issued in March 2002.

     To accomplish the fourth-year requirement of the Act, the OIGs conducted an
     interagency review of U.S. Government actions to enforce export controls and
     prevent or detect the illegal transfer of militarily sensitive technology to countries
     and entities of concern. That interagency report, D-2003-069, “Interagency
     Review of Federal Export Enforcement Efforts,” was issued in April 2003.

     To complete the fifth-year requirement of the Act, the OIGs conducted an
     interagency review on the release of export-controlled technology to:

        •   foreign nationals at U.S. academic institutions,

        •   Federal contractors and other private companies, and

        •   research facilities.

     That interagency report, D-2004-062, “Interagency Review of Foreign National
     Access to Export-Controlled Technology in the United States,” was issued in
     April 2004.

     To attain the sixth-year requirement of the Act, the OIGs conducted an
     interagency review to assess whether the current export licensing process could
     help deter the proliferation of chemical and biological commodities. An
     interagency report, D-2005-043, “Interagency Review of the Export Licensing
     Process for Chemical and Biological Commodities,” was issued on June 10, 2005.

     For the seventh-year requirement of the Act, the OIGs conducted an interagency
     review of controls over exports to China. An interagency report, D-2007-050,
     “Interagency Review of U.S. Export Controls For China,” was issued on January
     31, 2007.

     For the eighth and final year’s requirement of the Act, the OIGs followed up on
     Federal managers’ implementation of the recommendations made from FY 2000
     through FY 2006.


Responsibilities of Federal Entities Related to U.S. Export
  Controls
     Agriculture. The Public Health Security and Bioterrorism Preparedness and
     Response Act of 2002, Title II, Subtitle B, was enacted to enhance controls over
     dangerous biological agents or toxins. The Act requires that the Secretary of
     Agriculture, through regulations, establish and maintain a list of each biological
     agent and each toxin that is determined to have the potential to pose a severe
     threat to animal or plant health, or to animal or plant products. It also requires
     that the Secretary establish procedures to protect animal and plant health and
     animal and plant products in the event of a transfer of biological agents.

                                           2
The Animal and Plant Health Inspection Service (APHIS) was delegated authority
to administer the regulations for the U.S. Department of Agriculture. The Public
Health Security and Bioterrorism Preparedness and Response Act of 2002 did not
address exports.

Commerce. The Department of Commerce’s Bureau of Industry and Security
(BIS) administers the Export Administration Regulations by developing export
control policies and regulations, issuing export licenses, and enforcing the laws
and regulations for dual-use exports. After BIS conducts its initial review, a
license application is referred to the Defense, Energy, and State departments,
unless those agencies have delegated their decision-making authority to the
Department of Commerce.

If the application involves an item controlled for reasons relating to the protection
of encryption technologies, Commerce also refers it to the Justice Department. In
addition, prior to 2008 BIS referred all export license applications to the Central
Intelligence Agency’s Center for Weapons Intelligence, Nonproliferation, and
Arms Control (WINPAC) for an end-user review.

Defense. Although the Departments of Commerce and State are responsible for
issuing export licenses, the Department of Defense reviews license applications
and recommends approval, approval with conditions, or denial of licenses
involving dual-use and munitions commodities or technology. The Defense
Technology Security Administration (DTSA) serves as the Department’s focal
point for processing license applications and advises the Under Secretary of
Defense for Policy on issues related to the transfer of sensitive technology and the
export of dual-use items and munitions. DTSA also assists in developing export
control policies and procedures that are necessary to protect U.S. national security
interests.

Energy. The Energy Department’s Office of International Regimes and
Agreements reviews license applications and recommends approval, approval
with conditions, or denial of licenses. Energy reviews licenses involving nuclear,
chemical, biological, and missile dual-use and munitions commodities or
technology referred to it by the Commerce and State Departments. Also,
Energy’s Office of Foreign Visits and Assignments establishes Energy policies
for the review and processing of visits and assignments by foreign nationals to
Energy.

Homeland Security. As an enforcement arm at U.S. ports for the State and
Commerce Departments, the Department of Homeland Security’s Customs and
Border Protection (CBP) is responsible for ensuring that licensable exports are
processed in accordance with applicable laws and regulations. CBP uses the
Immigration and Customs Enforcement Exodus Command Center as a liaison
with the State and Commerce Departments to answer questions that may arise as
to whether a shipment is licensable. CBP officers are directed to send any such
questions to the Exodus Command Center for resolution.

State. Under the Arms Export Control Act, the State Department’s Bureau of
Political-Military Affairs, Directorate of Defense Trade Controls (PM/DDTC)


                                      3
administers the International Traffic in Arms Regulations (ITAR). The Bureau of
Political-Military Affairs administers the ITAR by:

   •   developing export control policies,

   •   registering companies and academic institutions to export munitions,

   •   issuing licenses and compliance provisions, and

   •   maintaining the U.S. Munitions List.

Also, the State Department reviews munitions export licenses and approves,
conditionally approves, or disapproves an applicant’s license, including those
related to the release of export-controlled technology to foreign nationals in the
United States.

Treasury. The Office of Foreign Assets Control (OFAC) administers and
enforces economic and trade sanctions against targeted foreign countries,
terrorism sponsoring organizations and international narcotics traffickers, based
on U.S. foreign policy and national security goals. OFAC regulations require
exporters, importers, and others under U.S. jurisdiction to obtain OFAC licenses
prior to engaging in any type of commercial transactions with targeted countries
or nationals.

Central Intelligence Agency. During fiscal year 2006, the Central Intelligence
Agency (CIA) provided intelligence support to the Department of Commerce on
dual-use license applications and to the Department of State on munitions license
applications. CIA analysts reviewed comprehensive intelligence records to
provide information to these agencies that will assist them with making decisions
to approve or deny licenses.

In 2006, the Department of Commerce’s BIS submitted license applications to the
Directorate of Intelligence’s WINPAC for review. In addition, to providing
intelligence support to BIS, WINPAC analysts and experts were also actively
involved in export licensing advisory and oversight groups. As of 1 October
2007, WINPAC scaled back its level of export license application support to the
Department of Commerce due to budget constraints. WINPAC personnel will
continue to support the export licensing advisory and oversight groups, but will
review export license applications only when requested by a member of the
dispute resolution committees.

United States Postal Service. Although Export Administration Regulations
grant Postal Service officials the authority to inspect items declared for export,
the Postal Service is prohibited by law from opening mail that is sealed against
inspection without a warrant, unless exigent circumstances exist (for example,
where the screening of the mail has disclosed the presence of materials that pose a
physical threat to persons or property).

As a result, the Postal Service works with the Bureau of Customs and Border
Protection (CBP) to coordinate enforcement activities concerning outbound mail
and ensure compliance with export control laws and regulations. CBP personnel

                                      4
           are authorized to open and inspect mail and are co-located at postal facilities
           nationwide.


Objective
           The main objective of the 2007 review was to determine whether management
           effectively addressed recommendations in previous reports required by the
           National Defense Authorization Act. 4


Implementation of Recommendations for Controls Over
  Exports
           The interagency review identified agency-specific areas lacking adequate controls
           because prior recommendations were not implemented. However, this year’s
           interagency report contains no findings or recommendations. Therefore,
           management comments are not required.

           The participating OIGs made specific recommendations for their own agencies.
           Those recommendations, management comments, and OIG responses are
           included in the separate reports that each office issued. See Appendixes B
           through H, as well as J and K.




4
    The Department of Commerce OIG also conducted a separate review of U.S. dual-use export controls for
    India.




                                                     5
Appendix A. Scope and Methodology

      Interagency Scope

           This interagency review assessed the effectiveness of the U.S. Government’s
           export control policies and practices for preventing the unauthorized transfer of
           sensitive U.S. technology to countries and entities of concern. Specifically, we
           examined whether our prior recommendations—made from 2000 through 2006—
           were implemented by management to improve export control policies and
           procedures.

           From 2000 through 2006, 9 OIGs issued 49 reports and made
           271 recommendations to improve Federal export control policies and procedures.
           This report provides the status of Federal managers’ implementation of those
           recommendations.

           The participating review teams, from 2000 through 2006, represented the
           Inspectors General of the Departments of Agriculture, Commerce, Defense,
           Energy, Homeland Security, State, and the Treasury; the Central Intelligence
           Agency; and the United States Postal Service.


      Interagency Methodology

           The nine OIG teams ∗ participated in an interagency working group and held
           monthly meetings while conducting agency-specific reviews. Those reviews
           focused on following up on recommendations made in previous OIG reports on
           controls over exports.

           This report summarizes the work completed by eight interagency OIG working
           group teams. The seven unclassified OIG reports are contained in Volume I, a
           For Official Use Only report is in Volume II, and a SECRET//NOFORN report
           and appendixes from the Central Intelligence Agency OIG and the Commerce
           OIG reports, respectively, are in Volume III. The interagency review was
           performed between June 2006 and July 2007.

∗
    The Department of Agriculture OIG made two recommendations in March 2005. These
    recommendations were implemented by the Department of Agriculture. Therefore, it was not necessary
    that the Department of Agriculture OIG issue a followup report.




                                                    6
Appendix B-1. Department of Commerce Report




                    B-1
U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




             BUREAU OF INDUSTRY
                  AND SECURITY

 U.S. Dual-Use Export Controls for India
Should Continue to Be Closely Monitored


              Final Report No. IPE-18144/March 2007




                         PUBLIC RELEASE



               Office of Inspections and Program Evaluations
                                        *@"  @\

                                     / k@!        8   UNITED STATES DEPARTMENT OF COMMERCE
                                                      The Inspector General
                                                  8   Washington, D.C. 20230




March 30,2007


MEMORANDUM FOR:                Mark Foulon
                               Acting Under Secretary for Industry and Security


FROM:

SUBJECT:
                               Johnnie E.   ag-*
                                             azier

                                                             Export Controls


As a follow-up to our February 23,2007, dt$f report, attached is our final report on dual-
use export controls for India, the eighth report required by the National Defense
Authorization Act for Fiscal Year 2000, as amended. As you know, the act mandates that
we issue a report to the Congress on the policies and procedures of the U.S. government
with respect to the export of technologies and technical information to countries and
entities of concern by March 30 of each year through 2007.

While our review found that coordination between the various federal export licensing
agencies was adequate during the dispute resolution process for export license
applications involving India, we identified several areas of concern related to U.S.-India
export control activities. We offer a number of specific recommendations beginning on
page 27 that we believe will help strengthen these activities, if implemented. This report
contains three classified appendixes that have been provided under separate cover.
Appendix D discusses implementation of the Next Steps in Strategic Partnership and is
classified SECRET. Appendix E is classified CONFlDENTIAL and highlights concerns
related to BIS' end-use check program in India. Appendix F contains a summary of the
classified recommendations and is classified SECRET.

We are pleased to note that BIS, in its written response to our draft report, indicated that
it plans to take action on many of our recommendations. We request that you provide us
with an action plan addressing the status of the recommendations in our report within 60
calendar days.

We thank you and other members of the BIS staff for your assistance and courtesies
extended to us during our review. If you would like to discuss this report or the requested
action plan, please call me at (202) 482-4661 or Jill Gross, Assistant Inspector General
for Inspections and Program Evaluations, at (202) 482-2754.

Attachment
U.S. Department of Commerce                                                Final Report IPE-18144
Office of Inspector General                                                           March 2007

                                        CONTENTS

SUMMARY ……………………………………………………………………………………... i

BACKGROUND ………...……………………………………………………………………… 1

OBJECTIVES, SCOPE, AND METHODOLOGY ……………………………………………. 10

OBSERVATIONS AND CONCLUSIONS ……………………………………………………. 13

   I. Dual-Use Export Control Policies and Practices for India Are Not Fully Transparent..... 13
      A. Questions remain over whether the Government of India has fully implemented
         two of the export control-related steps under the “Next Steps In Strategic
         Partnership”……………………………………………………………………..…... 13
      B. BIS’ Entity List does not clearly identify some Indian entities ..…………………… 13

   II. BIS’ End-Use Check Program in India Needs to Be Improved
          (This chapter is included in classified Appendix E. The unclassified report contains
          only the introduction and subchapter headings)…………………………………..... 16
       A. The End-Use Visit Arrangement between BIS and India’s Ministry of External
          Affairs limits the effectiveness of end-use checks
       B. Government of India end-use checks are not always conducted within prescribed
          time frames
       C. End-use checks involving private Indian entities are generally conducted in
          a timely manner
       D. BIS lacks clear and consistent time frames for processing end-use checks
          for India
       E. Two cancelled pre-license checks met BIS’ criteria for an “unfavorable”
          rating
       F. BIS can improve its targeting of post-shipment verifications for India

   III. BIS Needs to Enhance Its Efforts to Ensure Compliance with License Conditions ….. 17
        A. Export Administration is not adequately monitoring India licenses with reporting
           conditions ………………………………………………………………………… .. 18
        B. Export Enforcement needs to improve its monitoring and enforcement of India
           licenses with condition 14 ..........…………………………………………………… 22

SUMMARY OF UNCLASSIFIED RECOMMENDATIONS………………………………… 27

APPENDIXES
  Appendix A:  Acronyms ..…………………………………………………………………..A-1
  Appendix B:  Flowchart of Interagency Dual-Use Export Licensing Process.……………..B-1
  Appendix C:  BIS Management Response to OIG Draft Report—Unclassified Version.….C-1
  Appendix D:  India’s Implementation of “Next Steps In Strategic Partnership”
               (SECRET)...………………………………………………………………….D-1
   Appendix E: End-Use Checks in India (CONFIDENTIAL) .....…….……………………..E-1
   Appendix F: Summary of Classified Recommendations (SECRET)..………...……....…...F-1
   Appendix G: BIS Management Response to OIG Draft Report—
               Classified Version (SECRET)………. ………………………………………G-1
U.S. Department of Commerce                                                           Final Report IPE-18144
Office of Inspector General                                                                      March 2007

                                               SUMMARY

The Inspectors General of the Departments of Commerce, Defense, Energy, and State, in
consultation with the Director of Central Intelligence and the Director of the Federal Bureau of
Investigation, are required by the National Defense Authorization Act (NDAA) for Fiscal Year
2000 to conduct an 8-year assessment of whether export controls and counterintelligence
measures are adequate for preventing the acquisition of sensitive U.S. technology and technical
information by countries and entities of concern. The NDAA mandates that the Inspectors
General report their findings to Congress no later than March 30 of each year, until 2007.

To satisfy the NDAA’s FY 2007 reporting requirement, the Commerce Office of Inspector
General assessed the effectiveness of BIS’ export control program for India in conjunction with a
separate review to determine the status of prior-year recommendations involving dual-use
licensing and enforcement activities. We examined (1) whether BIS’ export control policies,
practices, and procedures for India are clear, documented, and designed to achieve the desired
goals; (2) whether BIS personnel are following the prescribed policies, practices, and procedures
relating to India; and (3) how effective BIS is in detecting and preventing the diversion of
sensitive commodities to weapons of mass destruction-related programs (either within or outside
India).

Following the nuclear tests conducted by both India and Pakistan in May 1998, the United States
imposed economic sanctions on both countries. However, in 2001, the President eliminated the
sanctions and committed the United States to a “strategic partnership” with India—representing a
major change in India-U.S. relations. At that time, both countries agreed to greatly expand
cooperation on a wide range of issues, including counterterrorism, regional security, space and
scientific collaboration, civilian nuclear safety, and broadened economic ties. Toward that end,
BIS has played an active and key role in improving relations with India. Its most direct
involvement began in 2002 with the establishment of the U.S.-India High Technology
Cooperation Group (HTCG), designed to provide a forum for discussing high-technology issues
of mutual interest and to broaden dialogue and cooperation in the area of export controls. 1

As the world’s fastest growing free-market democracy, India presents lucrative and diverse
opportunities for U.S. exporters along with unique challenges to U.S. export control policy.
In 2005 the value of U.S. merchandise exports to India totaled almost $8 billion—up 30 percent
from 2004 2 and nearly double the 2002 figure. 3 BIS reports that only about 1 percent of total
U.S. exports to India require an export license, and the agency approves most exports that do
require a license provided such items do not contribute to India’s nuclear, missile, or chemical
and biological weapons programs. Although India is recognized as a democratic partner in the
fight against terrorism and as a counterbalance to China, concerns have been raised by
nonproliferation specialists about its nuclear capabilities and intentions. As current U.S. policy
moves toward “full civil nuclear cooperation” with India, a critical question needs to be

1
  Matthew Borman, Deputy Assistant Secretary for Export Administration, Overview of U.S.-India Dual-Use Export
Policies and Procedures (presentation given to Indian industry in New Delhi on November 21, 2003).
2
  U.S. Trade Representative, 2006, National Trade Estimate Report on Foreign Trade Barriers. Washington, D.C.,
page 300.
3
  Department of Commerce, U.S. Commercial Service, November 29-December 5, 2006, Official Mission Statement.


                                                      i
U.S. Department of Commerce                                                               Final Report IPE-18144
Office of Inspector General                                                                          March 2007

answered: Does the U.S. government have the capability to implement effective export controls
to help ensure U.S. exports to India do not contribute—either directly or indirectly—to Indian
nuclear weapons or missile programs?

The number of India export license applications received by BIS increased 30 percent from FY
2002 to FY 2005, but decreased 19 percent from FY 2005 to FY 2006. This decline is
attributable to a reduction in licensing requirements for exports to India. The most significant
changes occurred in 2005, namely (1) elimination of export and reexport license requirements for
most end users in India for items controlled unilaterally by the United States for nuclear
nonproliferation reasons, (2) removal of the Indian Space Research Organization (ISRO)
headquarters from BIS’ Entity List,4 and (3) elimination of licensing requirements for exports of
EAR99 items 5 to several ISRO subordinate entities.

Our review of India export license applications that were escalated to the interagency dispute
resolution process in fiscal years 2005 and 2006 found that coordination between the various
federal export licensing agencies was adequate. However, our overall review of U.S.-India
export control activities identified the following concerns that warrant management’s attention:

Dual-Use Export Control Policies and Practices for India Are Not Fully Transparent. In
January 2004, the United States and India announced the Next Steps in Strategic Partnership
(NSSP)—an agreement to increase cooperation in civilian nuclear activities, civilian space
programs, and high-technology trade, as well as to expand the U.S.-Indian dialogue on missile
defense. The initiative was to proceed through a series of reciprocal steps that built on each
other, addressing nuclear regulatory and safety issues and regulatory changes that would enhance
trade in primarily high-technology dual-use goods. 6 As the various steps were determined by the
U.S. government to be completed by India, a number of license requirements for exports to India
were removed. On July 18, 2005, President Bush and Indian Prime Minister Dr. Manmohan
Singh announced that the NSSP initiative had been completed and declared that they are
committed to transforming the relationship between the United States and India and establishing
a global partnership. 7

When the NSSP was launched, BIS helped evaluate and implement the steps set forth in the
initiative. However, questions remain among some U.S. government nonproliferation experts
about whether the Government of India has fully implemented two of the export control-related


4
  The Entity List, established in February 1997 by BIS, identifies individuals, groups, organizations, and other
entities whose activities offer the potential for diverting exported and reexported items into programs related to
weapons of mass destruction. The EAR imposes additional export license requirements for transactions involving
listed entities.
5
  EAR99 essentially serves as a “basket” designation for items that are subject to the Export Administration
Regulations (EAR) but not listed on the Commerce Control List. EAR99 items can be shipped without a license to
most destinations under most circumstances unless certain prohibitions apply (e.g., export to an embargoed
destination). The majority of U.S. exports are EAR99 items.
6
  George W. Bush, January 12, 2004. President’s Statement on Strategic Partnership with India,
http://www.whitehouse.gov/news/releases/2004/01/20040112-1.html (accessed January 31, 2007). Alan K.
Kronstadt, April 6, 2006. India-U.S. Relations, CRS Issue Brief for Congress, IB93097.
7
  Joint Statement Between President George W. Bush and Prime Minister Manmohan Singh, July 18, 2005
(http://www.whitehouse.gov/news/releases/2005/07/20050718-6.html (accessed January 31, 2007).


                                                         ii
U.S. Department of Commerce                                                  Final Report IPE-18144
Office of Inspector General                                                             March 2007

steps outlined under the NSSP. We discuss this issue and our concerns in Appendix D,
Implementation of Next Steps in Strategic Partnership, classified SECRET.

We also found a problem with BIS’ Entity List—a list of entities worldwide for which the U.S.
government requires a license for virtually all items subject to the EAR. Some Indian entities on
the list are not clearly identified, which raises the risk that U.S. exporters could inadvertently
export controlled dual-use items to these entities without the required license. The Entity List
contains 12 Indian entities identified by name along with 3 “types” of Indian end users (e.g.,
nuclear reactors not operating under International Atomic Energy Agency safeguards. At least 2
of 29 license applications were escalated to the interagency dispute resolution process in FY
2005 because of questions about whether the Indian entity on the application was covered under
one of these broad designations of end users (see page 13).

BIS’ End-Use Check Program in India Needs to Be Improved. End-use checks seek to verify
the legitimacy of dual-use export transactions controlled by BIS. A pre-license check (PLC) is
used to validate information on export license applications by determining if an overseas person
or firm is suitable for a transaction involving controlled U.S.-origin goods or technical data.
Post-shipment verifications (PSVs) strengthen assurances that exporters, shippers, consignees,
and end users are complying with the terms of export licenses, by determining whether goods
exported from the United States were actually received by the party named on the license and are
being used in accordance with license provisions. BIS has an export control officer (ECO)
stationed in India to conduct end-use checks.

Our review of BIS’ India end-use check program identified several weaknesses. First, the
September 2004 End-Use Visit Arrangement between the U.S. Department of Commerce and the
Indian Ministry of External Affairs–designed to strengthen existing commitments on export
controls—actually limits the effectiveness and utility of end-use checks in India. In addition,
while end-use checks involving Indian private sector entities are generally conducted in a timely
manner, those involving Indian government or government-affiliated entities have not always
been conducted within prescribed time frames. We also found that BIS has not set clear and
consistent time frames for two parts of its internal end-use check process: (1) initiating PSVs
upon receipt of required shipping documents and (2) notifying the Ministry of External Affairs
about end-use check requests.

Furthermore, we determined that BIS failed to follow its end-use check criteria for two PLCs that
were cancelled but should have been rated as “unfavorable” because the government entity
involved failed to cooperate in the checks. Finally, although the U.S. government is concerned
about diversions of sensitive exports to programs involving weapons of mass destruction (either
within or outside India), BIS did not adequately target PSVs to help determine whether
diversions were occurring. We detail our concerns about these issues in Appendix E, End-Use
Checks in India, classified CONFIDENTIAL.

BIS Needs to Enhance Its Efforts to Ensure Compliance with License Conditions. Placing
conditions on a license is the U.S government’s way of better controlling and monitoring certain
shipments. However, license conditions only have the desired effect when exporters and/or end
users fully comply with them. In general, BIS has put adequate procedures in place over the last



                                                iii
U.S. Department of Commerce                                                         Final Report IPE-18144
Office of Inspector General                                                                    March 2007

few years, in response to OIG recommendations, to help ensure compliance with license
reporting conditions. 8 However, we found that Export Administration and Export Enforcement,
both of which have responsibility for monitoring compliance with certain license conditions,
need to improve their implementation of these procedures.

Within Export Administration, we determined that some licensing officers did not fully adhere to
BIS procedures for requiring exporters or end users to fulfill the license reporting conditions, that
is, to submit documentation related to the shipment. For 5 of the 13 India licenses we identified
as having reporting conditions, the licensing officer did not mark the licenses for follow-up. In
addition, Export Administration issued a memorandum on May 9, 2006, requiring licensing
officers to review technical documentation submitted pursuant to a license condition if the
documentation was requested because of BIS national security concerns with the transaction.
However, the memorandum specifically excludes those licenses involving reporting conditions
placed on a license by the Defense Department unless BIS licensing officers also have a concern
with the transaction. As a result, 10 of the 13 India licenses were not marked for licensing
officer review because the technical reporting condition was placed by Defense. However, BIS
has the authority to administer and enforce the EAR and, as such, is ultimately responsible for
monitoring all conditions placed on a dual-use license. Furthermore, we determined that staff
from the Office of Exporter Services (OExS) were not fully aware of the reporting conditions
they were required to monitor, and they were not properly referring noncompliant exporters to
Export Enforcement. This breakdown in Export Administration’s monitoring process might
diminish the deterrent effect that license conditions can have on potential violators (see page 18).

Within Export Enforcement, we found that the Office of Enforcement Analysis (OEA) is not
fully adhering to its guidance for monitoring or enforcing compliance with licenses that contain
condition 14, which requires exporters to notify OEA within 30 days that a shipment pertaining
to a license has taken place. It is one of the most critical conditions placed on a license, because
the interagency licensing agencies decided that a PSV was needed to determine whether the
goods or technology were being used in accordance with the license provisions. But the PSV
cannot be initiated until the shipment has actually taken place. Our review of 24 India licenses
containing condition 14 determined that 11 exporters submitted their shipping documents to BIS
between 12 to 1,158 days after the 30-day deadline. In fact, of the cases where a PSV was
requested, 8 out of 24 PSVs were initiated more than 100 days after shipment. This delay
diminishes the possibility of detecting diversions or other violations of license terms and
conditions. We also found that OEA (1) recommended approval for additional licenses to
exporters that had previously not fully complied with the condition 14 reporting requirement, and
(2) did not refer noncompliant exporters to the Office of Export Enforcement for appropriate
action (see page 22).

On page 27, we summarize the unclassified recommendations we are making to address our
concerns. A summary of classified recommendations can be found in Appendix F, which is
SECRET.

8
 U.S. Department of Commerce Office of Inspector General, June 1999. Improvements Are
Needed to Meet the Export Licensing Requirements of the 21st Century, IPE-11488; Commerce OIG, March 2003.
Improvements Are Needed to Better Enforce Dual-Use Export Control Laws, IPE-15155; Commerce OIG, March
2006. U.S. Dual-Use Export Controls for China Need to be Strengthened, IPE-17500.


                                                    iv
U.S. Department of Commerce                                                   Final Report IPE-18144
Office of Inspector General                                                              March 2007




BIS Response to OIG Draft Report and OIG Comments

In its March 23, 2007, written response to our draft report, BIS indicated that it was still in the
process of reviewing some of the recommendations while taking steps to address others. The
response also highlighted BIS’ belief that India has fulfilled its commitment under the Next
Steps in Strategic Partnership. Where appropriate, we have made changes to the report in
response to both formal and informal comments from BIS. We also discuss pertinent aspects of
BIS’ response in appropriate sections of the report. The complete responses from BIS are
included as appendixes to the unclassified and classified reports.




                                                 v
U.S. Department of Commerce                                                                 Final Report IPE-18144
Office of Inspector General                                                                            March 2007

                                               BACKGROUND

The United States controls the export of dual-use items for national security, foreign policy, and
nonproliferation reasons under the authority of several different laws. Dual-use items are
commodities, software, and technologies that have predominantly civilian uses, but also can have
military, proliferation, and terrorism-related applications. The primary legislative authority for
controlling the export of dual-use commodities is the Export Administration Act of 1979, as
amended, which is implemented through the Export Administration Regulations (EAR). 1

The Department of Commerce’s Bureau of Industry and Security (BIS) administers the EAR by
developing export control policies and regulations, issuing export licenses, and enforcing the
laws and regulations for dual-use exports. In FY 2006, BIS had 353 full-time equivalent staff
members and an appropriation of approximately $75 million. Its two operating units principally
responsible for export controls are Export Administration and Export Enforcement.

U.S.-India Relations and Dual-Use Export Control Concerns

                                The U.S.-India relationship has undergone a significant
                                transformation since the end of the Cold War. Both countries,
                                “politically and economically distant” for almost half of the late
                                20th century, are now finding a common ground with respect to
                                their national interests. 2 As the world's fastest growing free-
                                market democracy, India presents lucrative and diverse
                                opportunities for U.S. exporters. 3 In 2005, U.S. merchandise
                                exports to India were almost $8 billion, 30 percent higher than in
2004 and nearly double the 2002 figure. Corresponding U.S. imports from India were $18.8
billion in 2005, up 20.8 percent from the previous year. 4 India is the 22nd largest export market
for U.S. goods, 5 and its requirements for equipment and services in the infrastructure,
transportation, energy, environmental, health care, high-tech, and defense sectors are expected to
exceed tens of billions of dollars in the coming years. 6

U.S. Export Control Policies and Practices Toward India

India presents unique challenges to U.S. export control policy. Although India is recognized as a
democratic partner in the fight against terrorism and as a counterbalance to China,
nonproliferation experts have raised concerns about India’s nuclear capabilities and intentions.
Following the nuclear tests conducted by India and Pakistan in May 1998, the United States

1
  50 U.S.C app. sec. 2402(2). Although the act expired on August 20, 2001, Congress agreed to the President’s
request to extend existing export regulations under Executive Order 13222, dated August 17, 2001, as extended by
the Notice of August 3, 2006, 71 FR 44551 (August 7, 2006), thereby invoking emergency authority under the
International Emergency Economic Powers Act.
2
  U.S. Department of Commerce, U.S. Commercial Service, November 29-December 5, 2006. Official Mission
Statement: Under Secretarial Business Development Mission to India. Washington, DC.
3
  With more than one billion residents, India is the second most populous country and the largest democratic republic
in the world.
4
  U.S. Trade Representative, 2006. National Trade Estimate Report on Foreign Trade Barriers. Washington, D.C.,
p. 300. Commerce, U.S. Commercial Service, November 29-December 5, 2006. Official Mission Statement.
5
  U.S. Trade Representative, 2006. National Trade Estimate Report on Foreign Trade Barriers, p. 300.
6
  Commerce, U.S. Commercial Service, November 29-December 5, 2006. Official Mission Statement.
                                                         1
U.S. Department of Commerce                                                                Final Report IPE-18144
Office of Inspector General                                                                           March 2007

imposed economic sanctions on both countries. 7 At that time, the U.S. government implemented
a licensing policy of denial for exports and reexports of items controlled for nuclear
nonproliferation and missile technology reasons to India (and Pakistan), with limited exceptions.

In September 2001, President George W. Bush waived the sanctions against India (and Pakistan)
and, subsequently, the policy of denial for exports and reexports of items controlled for nuclear
nonproliferation and missile technology reasons changed to a case-by-case review. Then, in
November 2001, President Bush and then-Indian Prime Minister Atal Bihari Vajpayee
committed the United States and India to a strategic partnership, that among other things
envisioned full civil nuclear cooperation between the United States and India and reversed
almost 30 years of U.S. nonproliferation policy toward that country. Both countries also agreed
to greatly expand cooperation on counterterrorism, regional security, space and scientific
collaboration, and broadened economic ties. Since that time, two initiatives regarding relations
between the United States and India have received wide public attention. The first was what has
become known as the Next Steps in Strategic Partnership (NSSP), announced in January 2004.
Under the NSSP, the United States and India agreed to increase cooperation in civilian nuclear
activities, civilian space programs, and high-technology trade, and expand their dialogue on
missile defense. The initiative was to proceed through a series of reciprocal steps that built on
each other. They included nuclear safety issues and regulatory changes that would enhance trade
in high-technology dual-use goods. 8

The second major announcement—coinciding with the reported completion of the NSSP—came
on July 18, 2005, when President Bush and Prime Minister Manmohan Singh jointly declared
that they were committed to transforming the relationship between the United States and India
and establishing a “global partnership.” Their statement highlighted five broad areas of
agreement and cooperation: economic development; energy and the environment; democracy
and development; nonproliferation and security; and high-technology and space. In his speech,
the President recognized India’s “strong commitment” to preventing the proliferation of weapons
of mass destruction and noted that “as a responsible state with advanced nuclear technology,
India should acquire the same benefits and advantages as other such states.” The President
added that he would “…work to achieve full civil nuclear energy cooperation with India as it
realizes its goals of promoting nuclear power and achieving energy security.” However, the
President also acknowledged that this would require adjustment to U.S. law (e.g., the Atomic
Energy Act of 1954, as amended), 9 and policy as well as international export control regimes
(e.g., Nuclear Suppliers Group, which controls items or technologies that could be used in
nuclear weapons). 10



7
  The sanctions were imposed pursuant to Section 102 (b)(2) of the Arms Export Control Act, also known as the
Glenn Amendment of 1994. The Act requires that the President impose sanctions against a "non-nuclear-weapon"
state if it "detonates a nuclear explosive device."
8
  George W. Bush. President’s Statement on Strategic Partnership with India, January 12, 2004,
http://www.whitehouse.gov/news/releases/2004/01/20040112-1.html (accessed January 31, 2007); Kronstadt, Alan
K. India-U.S. Relations, CRS Issue Brief for Congress, April 6, 2006, IB93097.
9
  42 U.S.C. 2153. The Atomic Energy Act prohibits the transfer of nuclear materials and technology to countries that
are not signatories to the Treaty on the Non-Proliferation of Nuclear Weapons.
10
   Joint Statement Between President George W. Bush and Prime Minister Manmohan Singh, July 18, 2005
(http://www.whitehouse.gov/news/releases/2005/07/20050718-6.html (accessed January 31, 2007).
                                                         2
U.S. Department of Commerce                                                                  Final Report IPE-18144
Office of Inspector General                                                                             March 2007

Toward this end, the U.S. Congress passed and the President signed the United States-India
Peaceful Atomic Energy Cooperation Act of 2006 on December 18, 2006. The act enables the
United States to enter into an agreement for nuclear cooperation with India if the President
makes a determination that various actions have occurred. 11 For instance, the President must
find that India has provided the United States and the International Atomic Energy Agency with
a credible plan to separate civil and military nuclear facilities, materials, and programs, and has
filed a declaration regarding its civil facilities and materials with the International Atomic
Energy Agency. The President must also find that India is taking the necessary steps to secure
nuclear and other sensitive materials and technology, including:

•    Enactment and effective enforcement of comprehensive export control legislation and
     regulations;
•    Harmonization of its export control laws, regulations, policies, and practices with the
     guidelines and practices of the Missile Technology Control Regime and the Nuclear
     Suppliers Group; and
•    Adherence to the Missile Technology Control Regime and the Nuclear Suppliers Group
     (NSG) in accordance with the procedures of those regimes for unilateral adherence.

Finally, the act requires the President to determine that the NSG has decided by consensus to
permit supply to India of nuclear items covered by the guidelines of the NSG.

BIS’ Role in U.S. Export Control Policies and Practices Toward India

BIS has played an active role in improving relations with India. Its direct involvement began in
2002 with the establishment of the U.S.-India High Technology Cooperation Group (HTCG) by
then Under Secretary Kenneth I. Juster and India’s former Foreign Secretary Kanwal Sibal. The
HTCG was designed to provide a forum for discussing high-technology issues of mutual interest,
and broaden dialogue and cooperation in the area of export controls. 12 When the NSSP was
launched, BIS participated in evaluating and implementing the steps set forth in the initiative
while continuing its leading role in facilitating high-technology trade cooperation between the
United States and India. [See chapter I and appendix C (classified SECRET) for a detailed
discussion of the NSSP.]

According to BIS, as a result of the HTCG work and in conjunction with the NSSP, the U.S.
government eliminated approximately 25 percent of the licensing requirements for exports to
India by removing some Indian entities from the Entity List 13 and dropping most unilateral
export controls. As a result, U.S. firms can export many formerly controlled items to India

11
   These actions were specified in Section 104 (b) of the Henry J. Hyde United States-India Peaceful Atomic Energy
Act of 2006, December 18, 2006.
12
   BIS, November 21, 2003. Overview of U.S.-India Dual-Use Export Policies and Procedures, Presentation by
Matthew Borman, Deputy Assistant Secretary for Export Administration.
13
   The EAR contains an Entity List that imposes increased export license requirements for transactions involving
certain “listed” entities (e.g. companies, organizations, persons). The Entity List was established in February 1997
to inform the public of entities whose certain activities impose a risk of diverting exported and reexported items into
programs related to weapons of mass destruction. The list may also include entities sanctioned by the State
Department for which United States foreign policy goals are served by imposing additional license requirements on
exports and reexports to those entities. The list contains entities from a variety of countries including China, India,
Israel, and Pakistan. See chapter I for a discussion about Indian entities on the list.
                                                           3
U.S. Department of Commerce                                                                   Final Report IPE-18144
Office of Inspector General                                                                              March 2007

without a license or under a license exception. 14 BIS reports that approximately 1 percent of
total U.S. exports to India require an export license and that it approves most of the exports of
controlled items provided that such items would not be used in unsafeguarded nuclear activities,
ballistic missiles, or space launch vehicle programs or otherwise be diverted to uses contrary to
U.S. policy.

The United States currently controls dual-use exports to India that have potential applications for
chemical and biological, nuclear weapons, or missile technology, or that can impact regional
stability, national security, and crime control. These controls are primarily derived from
multilateral export control regimes, and the list of items controlled is mutually agreed upon by
participating countries. There are no U.S. sanctions currently in place against the Indian
government, although several Indian entities have U.S. sanctions placed on them for
proliferations reasons.

Dual-Use License Application Process for Exports to India

License applications received by BIS are entered into the Export Control Automated Support
System (ECASS), 15 where they are screened to determine whether the listed parties have
registration numbers or need numbers assigned. ECASS flags applications that require referral
to the Office of Export Enforcement (OEE), and sends them simultaneously to OEE and
licensing officers in Export Administration. All other applications are referred only to the
licensing officers for processing.

According to Executive Order 12981, 16 BIS has 9 days to conduct its initial review of a license
application, during which the licensing officer first verifies the export control classification
number (ECCN) the applicant obtained from the Commerce Control List (CCL)—a listing of
commodities, software, and technology subject to BIS’ export licensing authority. Items subject
to the EAR but not listed on the CCL are designated as AEAR99." 17

After verifying the ECCN, the licensing officer reviews the related license requirements and
exceptions, determines the reasonableness of the end use specified by the exporter, and
documents the (1) licensing history of the exporter and ultimate consignee or end users, and (2)
reasons for not referring an application to the other licensing agencies (if applicable). The
licensing officer provides a written recommendation on whether to approve or deny the
application, and refers it to the Departments of Defense, Energy, and State unless those licensing
referral agencies have delegated their decision-making authority to Commerce. 18


14
   According to the BIS, a license exception is an authorization granted by BIS that allows exports or reexports of
items subject to the EAR that would otherwise require a license.
15
   ECASS is an unclassified system that BIS uses to process and store its dual-use export licensing information.
16
   Administration of Export Controls, December 5, 1995.
17
   EAR99 essentially serves as a “basket” designation for items that are subject to the EAR but not specifically listed
on the CCL by an ECCN. EAR99 items can be shipped without a license to most destinations under most
circumstances unless certain prohibitions apply (e.g., export to an embargoed destination). The majority of U.S.
exports are EAR99 items.
18
   BIS refers licenses to the Department of Justice only when the item is controlled for reasons relating to the
protection of encryption technologies. As such, per Executive Order 13026, the Department of Justice is a voting
representative at all levels of the dispute resolution process for encryption cases (including the Operating
Committee, the Advisory Committee on Export Policy, and the Export Administration Review Board).
                                                           4
U.S. Department of Commerce                                                   Final Report IPE-18144
Office of Inspector General                                                              March 2007

In addition, BIS requires that its licensing officers forward all India export license applications
(with the exception of deemed export license applications and EAR99 items without red flags) 19
to the CIA’s Weapons Intelligence, Nonproliferation, and Arms Control Center for an end-user
review.

Under Executive Order 12981, each licensing referral agency must provide a recommendation to
approve or deny the license application and all related required information to the Secretary of
Commerce within 30 days of receiving the referral. To deny an application, a referral agency or
BIS is required to cite both the statutory and regulatory basis for denial, consistent with the
provisions of the EAA and the EAR. An agency that fails to provide a recommendation within 30
days is deemed to agree with the decision of the Secretary of Commerce (see appendix B for a
flow chart depicting the licensing process).

In FY 2006, all export licenses for India were issued with conditions that subjected the exporter
to certain restrictions. The conditions are primarily used to control proliferation of the
commodity by limiting the end-use or restricting access to the commodity to specific end users
(see chapter III for more discussion on license conditions).

Dispute Resolution Process for India Export License Applications

If there is disagreement on whether to approve a pending license application after the 30-day
review period or if there is disagreement on the conditions of approval, the application is referred
to a higher-level interagency working group called the Operating Committee (OC), which meets
                                                        weekly (see figure 1 for the number of
 Figure 1: Determinations for India Export              India export license applications
 License Applications Escalated to the                  escalated to the OC in FYs 2005 and
 Operating Committee (FY2005 and 2006)                  2006). Under Executive Order 12981, the
                                                        OC has voting representatives from the
      20                                                Departments of Commerce, Defense,
               18
                                                        Energy, and State. Nonvoting members
       N u m b e r o f A p p lic a t io n s




      15                                                of the OC include appropriate
                   10       10                          representatives of the CIA and the Joint
      10                                                Chiefs of Staff. The Secretary of
                                                        Commerce appoints the OC chairman,
       5                                      2         who considers the recommendations of
                                 2        1             the referral agencies before making a
       0                                                decision. With one exception, the
              Approved      Denied      Returned        chairman’s decision does not have to
                                      Without Action    follow the recommendations
                  FY 2005   FY 2006
                                                        of the majority of the participating
                                                        agencies, though we found that the
 Source: BIS
                                                        chair’s decisions for India cases generally




19
     Red flags indicate possible violators or violations of the EAR.
                                                             5
U.S. Department of Commerce                                                                    Final Report IPE-18144
Office of Inspector General                                                                               March 2007

did reflect interagency consensus. 20 If any of the voting agencies disagree with the OC decision,
they have 5 days to appeal.

Appeals at the OC level escalate the decision to the Advisory Committee on Export Policy
(ACEP). The ACEP meets monthly if there are applications to decide. It is chaired by the
Commerce Assistant Secretary for Export Administration and consists of Assistant Secretary-
level voting representatives from the Departments of Defense, Energy, and State. Nonvoting
representatives are drawn from the CIA and the Joint Chiefs of Staff. The ACEP’s decision is
based on a majority vote. In FY 2005, one India export license was escalated to the ACEP; it
was ultimately approved with conditions. Two India export license applications were escalated
to the ACEP in FY 2006, and both were approved with conditions.

An agency that disagrees with an ACEP decision has 5 days to appeal to the Export
Administration Review Board (EARB). The Secretary of Commerce chairs the EARB, whose
voting members also include the Secretaries of Defense, Energy, and State. The chairman of the
Joint Chiefs of Staff and the director of Central Intelligence are nonvoting members. The
EARB=s decision is based on a majority vote and a dissenting agency has 5 days to make a final
appeal to the President. No export license application for India was escalated to the review
board in either FY 2005 or FY 2006.

Overall, we found that the interagency escalation process for disputed India export license
applications allows dissenting agencies a meaningful opportunity to seek additional review of
such cases.

India Export License Application Trends

During FYs 2002 through 2004, the number of dual-use export license applications received for
India increased approximately 56 percent from 784 to 1,226. However by FY 2006, this number
dropped by approximately 30 percent (see figure 2). Of the 18,698 export license applications
BIS received during FY 2006, 827 (approximately 4.4 percent) were for exports to India. A
reduction in the number of dual-use export license applications for India is attributable to fewer
license requirements, as a result of the NSSP and the ongoing work of the HTCG.




20
 Executive Order 12981, as amended, provides one exception to this rule for “ . . . license applications concerning
commercial communication satellites and hot-section technologies for the development, production, and overhaul of
commercial aircraft engines . . . .” For these applications, the OC chair is to report the “majority vote decision of the
OC” rather than his/her decision.
                                                           6
U.S. Department of Commerce                                                                                                              Final Report IPE-18144
Office of Inspector General                                                                                                                         March 2007

Figure 2: Export License Applications BIS Received for India


                                               1,400
                                                                                                           1,226
                                               1,200
                                                                                                                               1,021
                      Number of Applications




                                                                                        989
                                               1,000
                                                                                                                                                        827
                                                800             784


                                                600

                                                400

                                                200

                                                     0
                                                               FY2002               FY2003                FY2004              FY2005                FY2006

                                                                                          Applications Received for India


Source: BIS


Based on the number of export license applications BIS processed for India during FY 2006, 587
were approved, 39 were denied, and 189 were returned without action (see figure 3 for a
breakdown of BIS’ determinations for these licenses).

Figure 3: India Export License Applications Processed by BIS

                                           1000
                                                                      907


                                               800
                                                                            694
   Number of Applications




                                                                598               587
                                               600

                                                         422
                                               400
                                                                                                                                   279         264 307
                                                                                                                                         229
                                                                                                                                                         189
                                               200
                                                                                               81         103
                                                                                                    72          69
                                                                                                                     39
                                                 0
                                                                  Approved                               Denied                Returned Without Action
                                                          FY2002                  FY2003            FY2004                FY2005               FY2006

Source: BIS




                                                                                                    7
U.S. Department of Commerce                                                               Final Report IPE-18144
Office of Inspector General                                                                          March 2007

Trends in Technologies Sought by India Through the Export Licensing Process

Most of the export license applications for India in FY 2006 involved technologies categorized
under materials, chemicals, “microorganisms,” and toxins; materials processing;
telecommunications and information security; and computers (see table 1 for a full listing of the
number of export license applications BIS received for each CCL category).

Table 1: BIS License Applications for India by CCL Category (in FY 2006)
                                                                                                   Applications*
   CCL                                                                                              Received in
 Category                                  Description of Category                                    FY2006
     0       Nuclear Materials, Facilities, and Equipment                                                 8
     1       Materials, Chemicals, “Microorganisms,” and Toxins                                         225
     2       Materials Processing                                                                       208
     3       Electronics                                                                                 95
     4       Computers                                                                                  130
     5       Telecommunications and Information Security                                                206
     6       Lasers and Sensors                                                                          22
     7       Navigation and Avionics                                                                     56
     8       Marine                                                                                       2
     9       Propulsion Systems, Space Vehicles, and Related Equipment                                   55
  EAR99 Classification used for items subject to the EAR but not listed on the CCL                      147
*Note: Because applications may contain a request to export more than one technology, the number of
applications in this column does not equal the total number of India export applications BIS received during FY
2006.
Source: BIS

End-Use Checks in India

End-use checks play an important part in the export licensing process by helping BIS determine
whether the end users or intermediary consignees are suitable recipients of sensitive U.S. items
and technology and would likely comply with applicable license conditions. End-use checks
include either pre-license checks (PLCs) or post-shipment verifications (PSVs) and may be
requested by any of the executive agencies involved in the interagency licensing process. A PLC
is conducted to establish the bona fides—or evidence of the qualifications—of a foreign entity
involved in the export transaction while the license application is being reviewed. A PSV is
conducted on a foreign entity after the license has been approved and the item shipped to help
determine whether the licensed item is being used in accordance with license conditions.

The U.S. Department of Commerce and the Indian Ministry of External Affairs entered into an
End-Use Visit Arrangement in September 2004. Since November 2004, end-use checks in India
have been conducted by an export control officer (ECO) based in New Delhi. ECOs are BIS
export enforcement agents who hold the rank of commercial officer in the commercial section of
U.S. embassies and consulates. 21 In addition to conducting end-use checks, they handle various
other in-country export control activities.

21
 BIS has additional ECOs stationed in Abu Dhabi, United Arab Emirates; Moscow, Russia; Beijing, China; and
Hong Kong.
                                                        8
U.S. Department of Commerce                                                                Final Report IPE-18144
Office of Inspector General                                                                           March 2007




                                          (see Chapter II for more discussion on the targeting of end-
use checks).




                                                                                                  A Sentinel trip is
performed by domestic BIS export enforcement agents, largely to conduct PSVs. Often, Sentinel teams target some
checks that are not requested by licensing officers or other U.S. government officials. Usually, the Sentinel checks
involve conducting multiple PSVs at the same entity (so the team—and in this case the ECO in New Delhi—can
group multiple checks at the same location), whereas headquarters-initiated checks usually involve conducting only
one check at one entity. Therefore, in addition to conducting the end-use checks that were requested by BIS
headquarters in FY 2005, the ECO conducted                                    .
                                                         9
U.S. Department of Commerce                                                          Final Report IPE-18144
Office of Inspector General                                                                     March 2007

                        OBJECTIVES, SCOPE, AND METHODOLOGY

The Inspectors General of the Departments of Commerce, Defense, Energy, and State, in
consultation with the director of Central Intelligence and the director of the Federal Bureau of
Investigation, are required by the National Defense Authorization Act (NDAA) for Fiscal Year
2000 to conduct eight annual assessments through FY 2007 of the adequacy of current export
controls and counterintelligence measures in protecting against the acquisition of sensitive U.S.
technology and technical information by countries and entities of concern. This is the eighth and
final review under the NDAA requirement.

To satisfy the NDAA’s FY 2007 reporting requirement, the Commerce Office of Inspector
General assessed the effectiveness of BIS’ export control program for India in conjunction with a
review to determine the status of prior-year recommendations involving dual-use licensing and
enforcement activities.23 We examined (1) whether BIS’ export control policies, practices, and
procedures for India are clear, documented, and designed to achieve the desired goals; (2)
whether BIS personnel are following the prescribed policies, practices, and procedures relating to
India; and (3) how effective BIS is in detecting and preventing the diversion of sensitive
commodities to weapons of mass destruction-related programs (either within or outside India).

We conducted our evaluation from June through November 2006 under the authority of the
Inspector General Act of 1978, as amended, and in accordance with the Quality Standards for
Inspections issued by the President’s Council on Integrity and Efficiency in 2005. At the end of
our review, we discussed our findings and conclusions with the Acting Under Secretary for
Industry and Security and other senior BIS officials.

Our methodology included the following activities:

U.S. Interviews. Within BIS, we spoke with the Acting Under Secretary, Deputy Assistant
Secretary for Export Administration, and the Assistant Secretary and Deputy Assistant Secretary
for Export Enforcement. Within Export Administration, we met with the director of the Office
of Exporter Services (OExS), the directors of the Offices of Nonproliferation and Treaty
Compliance and National Security and Technology Transfer Controls, as well as with staff from
each office. Within Export Enforcement, we met with the director and staff of the Office of
Export Enforcement (OEE) and the Office of Enforcement Analysis (OEA). We also spoke with
staff from OEE’s Boston field office regarding closed investigations involving Indian entities. In
addition, we met with the chairperson of the Operating Committee, the policy advisor to the
Assistant Secretary for Export Administration, the Export Administration Intelligence Liaison,
and staff from BIS’ Office of Chief Counsel.

We spoke with officials from federal agencies directly involved with or knowledgeable about U.S.
dual-use export control policies and procedures related to India. Within the CIA, we spoke with
analysts from the Center for Weapons Intelligence, Nonproliferation, and Arms Control. Within
the Department of Defense, we spoke with officials from the Defense Technology Security
Administration. Within the State Department, we interviewed staff from the Bureaus of South and
Central Asia; International Security and Nonproliferation; and Political-Military Affairs, and

23
 A separate report on the status of all open recommendations resulting from Commerce OIG’s NDAA reporting
will be issued in March 2007.
                                                     10
U.S. Department of Commerce                                                          Final Report IPE-18144
Office of Inspector General                                                                     March 2007

attended meetings of the Missile Technology Export Control Group and Subgroup on Nuclear
Export Coordination. Within the Department of Energy, we met with officials from the Office of
International Regimes and Agreements.

Overseas Visit. We also traveled to India to assess U.S. dual-use export control operations. At
the post, we interviewed officials at the U.S. embassy in New Delhi. We met with BIS’ ECO
and accompanied him on two end-use visits to Indian entities located in Chennai and Bangalore
(a representative from India’s Ministry of External Affairs was also present at the end-use visit in
Chennai).

We also spoke with the Commercial Service’s (CS) deputy senior commercial officer in India
and the two commercial specialists who currently assist the ECO. In addition, we spoke with the
                                               embassy’s deputy chief of mission and the
                                               heads of the consular; defense; economic;
                                               environment, science, technology, and health;
                                               and political sections; and other relevant U.S.
                                               government officials. 24 Finally, we met with
                                               Government of India officials from the Defence
                                               Research and Development Organization and
                                               the Indian Space Research Organization to
                                               discuss the progress of end-use visits in India
                                               and obtain the Indian government’s views on
                                               some aspects of U.S. dual-use export controls.

                                                         While in India, we also met with representatives
                                                         from two leading Indian industry associations—
                                                         the Confederation of Indian Industry and the
                                                         Federation of Indian Chambers of Commerce—
                                        Sites visited    to discuss U.S. export controls and their efforts
                                    by the OIG team
                                                         to promote U.S. and India export control
                                                         compliance among Indian companies.
Source:https://www.cia.gov/cia/publications/factbook/
geos/in.html


Review of export control laws and regulations, relevant BIS guidance, and other
documents. We examined current and prior legislation, executive orders, policy papers, and
related regulations (including the EAR) that pertained to India. In addition, we reviewed the
following documents, covering the period of FYs 2005 and 2006 (unless otherwise indicated):

     •   Complete licensing histories for 43 India cases escalated to the OC and ACEP
     •   Records for 106 India end-use checks (including applicable licensing histories) that were
         initiated or completed (for FY 2005 we only reviewed those checks that received ratings
         other than favorable)
     •   Sentinel trip reports from July 2000 to December 2003
     •   Program material related to the roles and responsibilities of the ECO in India

24
 During our visit we were unable to meet with Homeland Security’s Immigration and Customs Enforcement attaché
because the position was vacant.
                                                        11
U.S. Department of Commerce                                             Final Report IPE-18144
Office of Inspector General                                                        March 2007

   •   ECO’s subject matter files at post relating to export controls
   •   Summaries of 124 India technology licenses for FYs 2005-2006 (through April 30, 2006)
   •   BIS directives and procedures related to license monitoring
   •   Relevant cable traffic and intelligence reports pertaining to India




                                            12
U.S. Department of Commerce                                                                    Final Report IPE-18144
Office of Inspector General                                                                               March 2007

                                OBSERVATIONS AND CONCLUSIONS

I.       Dual-use Export Control Policies and Practices for India Are Not Fully Transparent

The 2001 commitment by the United States and India to form a “strategic partnership”
envisioned, among other things, full civil nuclear cooperation between the two countries and
reversed almost 30 years of U.S. nonproliferation policy towards India. When the NSSP was
launched in January 2004, BIS participated in evaluating and implementing the export control-
related steps set forth in the initiative. As a result of the NSSP and in conjunction with the U.S-
India High Technology Cooperation Group (which is co-chaired by BIS), the U.S. government
eliminated approximately 25 percent of the licensing requirements for exports to India by
removing some Indian entities from the Entity List and dropping most unilateral export controls.
Thus, U.S. firms can export many items that formerly required a license to India without a
license or under a license exception. Although the United States and India announced in July
2005 that the objectives of the NSSP had been completed, questions remain over whether the
Government of India has fully implemented two of the export control-related steps outlined
under the agreement.

We also found a problem with the listing of Indian entities found on BIS’ Entity List.
Specifically, some Indian entities meant to be captured on the list are not clearly identified. As a
result, U.S. exporters could inadvertently export dual-use controlled items to these entities
without the required license. 25

A.    Questions remain over whether the Government of India has fully implemented two of
      the export control-related steps under the “Next Steps In Strategic Partnership”

Due to the classified nature of the material discussed in this section, we offer our specific
findings and recommendations in Appendix D, which is classified at the SECRET level.



BIS Response to OIG Draft Report and OIG Comments

In its written response to our draft report, BIS stated that it believes that India has fulfilled its
commitments under the NSSP. BIS’ specific comments and our response are provided in the
classified section of this report.

B.    BIS’ Entity List does not clearly identify some Indian entities

BIS established the Entity List, a supplement to the EAR’s export license requirements, in
February 1997 to inform the public of entities whose activities impose a risk of diversion of
exported and reexported items into programs related to weapons of mass destruction (WMD). In
conjunction with the 1998 economic sanctions against India for its nuclear tests, BIS increased

25
  A license is required for the export or re-export of all items subject to the EAR for most of the Indian entities on
the Entity List. In addition, the nuclear end-use/end-user control in Section 744.2 of the EAR imposes a license
requirement on all exports to three activities, one of which is “unsafeguarded” nuclear activities. This license
requirement exists independent of the license requirements imposed by the Entity List.
                                                           13
U.S. Department of Commerce                                                                    Final Report IPE-18144
Office of Inspector General                                                                               March 2007

the number of Indian entities on the list from 4 to more than 200. According to BIS, these
additional entities were “determined to be involved in nuclear or missile activities.”

In March 2000, BIS removed 51 Indian entities from the list after conducting a congressionally-
mandated review intended to focus the list on entities that made direct and material contributions
to WMD and missile programs. After removing the 51 entities, BIS restructured the list,
moving many subordinate organizations affiliated with the listed Indian entities and of interest to
the United States to a special appendix to the Entity List. The appendix included over 100 Indian
subordinate entities associated with 6 different Government of India agencies.

After the President waived the economic sanctions against India in 2001, BIS removed some
Indian entities from the list and deleted the special appendix, reducing the number of named
Indian entities on the Entity List at that time to 15. 26 As part of this action, BIS grouped
subordinate entities of the Indian Department of Atomic Energy into three types or categories
without listing the specific entities by name. The types are as follows:

•    Nuclear reactors (including power plants) not under the International Atomic
     Energy Agency safeguards (excluding Kundankulam 1 and 2), 27

•    Fuel reprocessing and enrichment facilities, and

•    Heavy water production facilities and their collocated ammonia plants.

According to representatives of the agencies involved in the interagency licensing process,
consolidating these subordinate entities into the three categories without naming them has made
it more difficult to determine whether a specific entity is covered by the list. As a result, U.S.
exporters could inadvertently export certain sensitive or EAR99 items to these entities without
the required license.

We identified two export license applications that were escalated to the Operating Committee, in
part, because of disputes among interagency licensing officials as to whether the Indian entities
on the applications were covered by the Entity List. Both cases involved subordinates of the
Indian Department of Atomic Energy, but the licensing officials could not agree as to whether
the entities were “safeguarded” or “unsafeguarded” nuclear facilities—a key factor in
determining whether the entities are subject to the list.

It should be noted that in one of the two cases, part of the confusion was based on erroneous
information provided by the applicant, who reported on the license application that the ultimate
consignee was a subordinate of a listed entity. When the applicant realized that the ultimate
consignee was not a subordinate of that entity, he asked BIS to modify the license application
accordingly. At this point, according to the OC records, the then-acting OC Chair “suggested
that the application be returned without action because the items listed were EAR99 and were
destined to a non-listed entity.” However, while the ultimate consignee was not a subordinate of

26
  Since that time, an additional 3 Indian entities were removed from the list, making the total now 12.
27
  According to the International Atomic Energy Agency, safeguards are applied to verify a state’s compliance with
its agreement to accept safeguards on all nuclear material in all its peaceful nuclear activities and to verify that such
material is not diverted to nuclear weapons or other nuclear explosive devices.
                                                           14
U.S. Department of Commerce                                                     Final Report IPE-18144
Office of Inspector General                                                                March 2007

a listed entity, the Energy representative at the OC reported that it was a subordinate of the
Indian Department of Atomic Energy and as such, was still covered by the Entity List. State
concurred with this assessment.

Ultimately, it was determined that the ultimate consignees in both cases were “unsafeguarded”
facilities and, as a result, were included on the list. Both license applications were subsequently
rejected. However, these cases call into question how clear the Entity List actually is with regard
to the Indian Department of Atomic Energy subordinates since it led to some confusion during
the interagency licensing review process.

The OC chair acknowledged that consolidating the list has created some confusion both for
exporters and interagency licensing officials, resulting in an occasional dispute about whether a
particular entity was listed. As a result, he prepared a handbook for OC members in early 2006
that includes a section on Indian entries on the Entity List. The section compiles all the Federal
Register notices relating to the addition and deletion of Indian entities on the list, as well as any
licensing policy changes for specific entities since 1998. The chair believes this guidance has
eliminated much of the confusion over which subordinate entities are covered by the list.

The OC chair also provided this guidance to BIS licensing officers who attended an OC training
session in June 2006. The positive feedback he received on the guidance prompted him to put it
on BIS’ shared network in October 2006 so that all BIS’ licensing officers could have access to
it. This document is not available to the public. Thus, while BIS and other U.S. licensing
officials now have clearer information on the specific Indian entities on the Entity List, U.S.
exporters do not. BIS needs to ensure that U.S. exporters clearly understand which Indian
entities are meant to be captured on the Entity List to help ensure export controlled dual-use
items are not inadvertently shipped to these entities without the required license.

Recommendation:

We recommend that BIS specifically list all of the Indian entities that should be captured on the
Entity List, or determine an alternative means to better ensure exporter compliance with export
license requirements.



BIS Response to OIG Draft Report and OIG Comments

In its written response to our draft report, BIS stated that it will review the listing of the Indian
entities on the Entity List to determine how additional information can be provided to exporters.
The planned completion date for this review is April 30, 2007. We acknowledge BIS’ planned
efforts in this area and look forward to receiving a copy of the review results upon completion.




                                                 15
U.S. Department of Commerce                                                              Final Report IPE-18144
Office of Inspector General                                                                         March 2007

II.       BIS’ End-Use Check Program in India Needs to Be Improved

Given India’s importance in U.S. export control matters, BIS assigned one of its export
enforcement agents to New Delhi in November 2004 to conduct end-use checks. This move has
provided BIS with new opportunities to work more closely with the Government of India on
export control matters. However, we identified several weaknesses in BIS’ end-use check
program for India that should be addressed:

      •   The End-Use Visit Arrangement 28 between the U.S. Department of Commerce and
          India’s Ministry of External Affairs limits the effectiveness of end-use checks.

      •   While end-use checks involving Indian private sector entities are generally conducted in a
          timely manner, the majority of those involving government or government-affiliated
          entities are not.

      •   BIS has not set clear and consistent time frames for completing two steps of the end-use
          check process, namely (1) initiation of PSVs upon receipt of required shipping
          documents and (2) notification to the Ministry of External Affairs of end-use check
          requests.

      •   Two of the India PLCs BIS cancelled in FY 2006 should have been rated “unfavorable”
          per the bureau’s end-use check criteria.

      •   Although the U.S. government is concerned about diversions of sensitive exports to
          programs involving weapons of mass destruction, BIS did not adequately target PSVs to
          determine whether diversions were occurring.

      Because of the sensitive nature of these findings, we discuss them in Appendix E, classified
      at the CONFIDENTIAL level.



BIS Response to OIG Draft Report and OIG Comments

In its written response to our draft report, BIS stated that it disagreed with some of the report
findings listed above. However, it agreed to take action to implement a number of the
recommendations we proposed. BIS’ specific comments and our response are provided in the
classified Appendix E to this report.




28
 Commerce and India’s Ministry of External Affairs entered into this agreement in September 2004 to establish
procedures for full and timely end-use checks.
                                                       16
U.S. Department of Commerce                                                                 Final Report IPE-18144
Office of Inspector General                                                                            March 2007

III.     BIS Needs to Enhance Its Efforts to Ensure Compliance with License Conditions

The EAR allows BIS or licensing referral agencies to place conditions on an export license when
there are specific concerns about the exporter, end use, or end user. Frequently, the conditions
are the result of lengthy negotiations among the licensing referral agencies. They are an
important part of the interagency export licensing process and offer BIS an additional means for
monitoring certain shipments. BIS monitors export licenses to ensure the holders comply with
all license conditions. This endeavor requires the combined efforts of Export Administration and
Export Enforcement.

There are 55 standard license conditions. Six of these place reporting conditions on exporters or
end users which require them to submit documentation to BIS regarding the shipment (see table
2). 29 A seventh condition—referred to as “Write Your Own”—allows licensing officers to
formulate unique requirements, which may include reporting requirements for either the exporter
or the end user. Licenses with reporting conditions are tracked in the Follow-up Subsystem
within ECASS.

Table 2: License Conditions with Reporting Requirements*
       Condition               BIS                           Requirements
                          Responsible
                              Unit
10–Temporary                              Notify BIS once the licensed item is returned to
                         Export
   Demonstration                          the United States after its temporary demonstration
                         Administration
                                          in another country.
12–Delivery
                         Export
   Verification
                         Administration
   Standard
                                          Provide BIS delivery verification documents.
13–Delivery
                         Export
   Verification
                         Administration
   Triangular
14–Post-Shipment                          Submit a shipper’s export declaration to BIS
                         Export
   Verification                           following the shipment of the item (so that a PSV
                         Enforcement
   (PSV)                                  can be initiated).
17–Aircraft on           Export           Notify BIS after the return of an aircraft on
   Temporary Sojourn Administration       temporary sojourn to a foreign country.
 *The table excludes the “Write Your Own” condition (since there is no standard requirement to be followed) as
 well as the “NDAA PSV” condition (see footnote 30 below).
Source: BIS and OIG




29
  The NDAA for FY 1998 requires BIS to perform PSVs on all high-performance computers with a computing
capability beyond a certain threshold that are exported or reexported to “Tier 3” countries, including China, India,
United Arab Emirates, and Israel. BIS implements this provision through condition 34 which requires exporters to
submit a post-shipment report to BIS on exports of high-performance computers to “tier 3” countries. The act also
requires BIS to submit annual reports to the Congress listing these high-performance computer exports and the
results of the PSVs. License condition 34 is tracked separately from the ECASS Follow-up Subsystem.
                                                         17
U.S. Department of Commerce                                                                Final Report IPE-18144
Office of Inspector General                                                                           March 2007

The OIG previously reported that Export Administration and Export Enforcement did not
consistently monitor licenses with reporting conditions and, therefore, did not ensure exporter or
end user compliance with license conditions. 30 In response to our recommendations, both units
instituted procedures to (1) regularly monitor licenses with reporting conditions that are marked
for follow-up by licensing officers, (2) follow up with exporters to request any necessary
reporting documentation, and (3) provide for the review of technical documentation submitted by
exporters and end users. However, our review found that both Export Administration and Export
Enforcement need to improve implementation of the procedures.

A. Export Administration is not adequately monitoring India licenses with reporting
   conditions

Within Export Administration, the Office of Exporter Services (OExS) is responsible for
monitoring exporter compliance with five of the seven reporting conditions, including Write
Your Own conditions that have reporting requirements. Of these five conditions, four involve
the submission of routine documentation, such as delivery verification, that does not require a
level of technical expertise to verify. If a licensing officer marks a license with any of these four
conditions, the license is automatically entered into the Follow-Up Subsystem, enabling OExS to
follow up with the applicable exporters to ensure that the required documentation is submitted in
accordance with the condition.

By contrast, Write Your Own conditions are unique and for each one, the licensing officer must
determine whether the condition needs to be entered into the Follow-Up Subsystem. Write Your
Own conditions may sometimes require the exporter or end user to provide BIS substantive
reports related to the export, such as maintenance reports or technology control plans (TCPs), 31
which require some level of technical review. For these conditions, the licensing officer must
choose “yes” or “no” in the Write Your Own screen indicating first whether the condition
requires follow-up. If the licensing officer marks “yes” for follow-up, he then must indicate
whether the documentation requires a licensing officer’s technical review. The license is only
entered into the Follow-up Subsystem if the officer marks “yes” for “follow-up” required.

Of the 273 India export license applications included in our sample, only 13 contained reporting
conditions that fell under the responsibility of OExS to monitor. Twelve of the 13 licenses
contained a Write Your Own condition, whereas the 13th license contained a standard reporting
condition requiring the submission of a report summarizing specific details related to
demonstrations of the item. Based on our review of these 13 licenses, licensing officers failed to
mark 5 of them for follow-up to verify that the reporting conditions were met. We also found
that staff from OExS were not fully aware of the reporting conditions they were required to
monitor and were not properly referring noncompliant exporters to Export Enforcement. This
breakdown in Export Administration’s monitoring process might diminish the deterrent effect
that license conditions can have on potential violators.


30
   U.S. Department of Commerce Office of Inspector General (Commerce OIG), June 1999. Improvements Are
Needed to Meet the Export Licensing Requirements of the 21st Century, IPE-11488; Commerce OIG, March 2003.
Improvements Are Needed to Better Enforce Dual-Use Export Control Laws, IPE-15155; Commerce OIG, March
2006. U.S. Dual-Use Export Controls for China Need to be Strengthened, IPE-17500.
31
   According to BIS, a TCP is a reporting requirement put in place by BIS or Defense in cases when foreign nationals
are employed at or assigned to security-cleared facilities that handle export-controlled items or information.
                                                        18
U.S. Department of Commerce                                                                 Final Report IPE-18144
Office of Inspector General                                                                            March 2007

Licensing Officers are not properly marking the “follow-up” box in ECASS for India licenses
with Write Your Own conditions

We found that 5 of the 13 licenses that contained a reporting requirement as part of the Write
Your Own condition, were not marked for “follow-up” by the licensing officers. These errors
occurred despite the fact that each export license application was reviewed and signed off by a
countersigner. 32 Because these licenses were not entered into the Follow-up Subsystem, OExS
staff did not know to follow up with the exporters to determine whether they had complied with
the conditions.

Regardless, two exporters provided the required documentation to OExS. However, OExS did
not have any information pertaining to the remaining three licenses. Export Enforcement’s
Office of Enforcement Analysis (OEA) later informed us that two of the remaining three licenses
had been shipped against. However, OEA did not have any records relating to the third
license. 33

In response to similar monitoring weaknesses identified in our March 2006 report on dual-use
export controls for China, the director of OExS issued a memorandum on May 9, 2006,
reminding licensing officers of the importance of marking a license for follow-up. 34 We do not
know whether the May 2006 memo has improved officer compliance with this requirement since
the five licenses not marked for follow-up were processed before this memorandum was issued.
Under the circumstances, we suggest that OExS review a sample of license applications to see
whether licensing officers and countersigners are consistently marking the appropriate licenses
for follow-up. Additionally, OExS should contact exporters for the three licenses that were not
properly marked for follow-up to determine whether they complied with their reporting
requirement.

Licensing officers are not required to review all technical documentation submitted by exporters
or end users pursuant to license conditions

Of the 13 India licenses that had reporting conditions, we found that 10 required submission of
technical documentation but were not marked for and did not receive the licensing officers’
review. Reporting requirements are designed to address particular concerns that either BIS or
other licensing referral agencies had about the parties to the transaction or about the transaction
itself. In these 10 cases, the licensing officers informed us that because Defense had requested
the technical reporting conditions, they did not believe that they were responsible for reviewing
the documentation. While Defense may have requested these conditions, BIS ultimately agreed
to issue the licenses with the conditions.

Two of the 10 licenses had conditions that required the end user or consignee to develop and
implement a technology control plan prior to shipment. Seven licenses required the exporter to
submit a service report on the condition and use of the commodity covered under the license,

32
   A countersigner is typically a division director. The countersigning process was established by BIS to help ensure
that export license applications are processed appropriately.
33
   Licenses are generally issued for a period of 2 years and the exporter can ship anytime during that period.
This license expires in May 2007.
34
   Memorandum from the Director of OExS to BIS Licensing Officers, Review of Technical Reports Submitted
Pursuant to a License Condition, May 9, 2006.
                                                         19
U.S. Department of Commerce                                                                  Final Report IPE-18144
Office of Inspector General                                                                             March 2007

following any maintenance performed on the equipment. In the last case, the condition required
submission of a biannual report to BIS summarizing specific details related to the demonstrations
of the item. Aside from licensing officer review, there are no BIS processes in place for
reviewing the technical documentation to ensure that exporters or end users comply with such
license conditions.

Prior to May 2006, BIS did not require any form of technical review of the documentation
submitted to ensure that it meets the requirements of the condition. In response to similar
concerns in our March 2006 report on export controls for China, the May 9, 2006, OExS
memorandum additionally required licensing officers to review technical documentation
submitted pursuant to a license condition if the documentation was requested because of
concerns with the transaction. However, the memorandum excludes those licenses involving
reporting conditions placed on a license by the Defense Department unless BIS licensing officers
also have a concern with the transaction.

With regard to reporting requirements placed on a license as a condition of approval by Defense,
BIS reported that Defense has the ability to identify technical reports it wishes to review and BIS
provides those reports to them accordingly. BIS further reported that if Defense identifies a
problem during its review of the reports, DOD will notify BIS of a compliance issue and raise
this in future reviews of license applications involving the applicable exporter. The Acting
Under Secretary for Industry and Security stated that he did not know whether Defense actually
requests copies of technical reports required as part of license conditions. Based on our
discussions with two of the licensing officers who were responsible for several of the licenses
referenced above that had technical reporting conditions, it appears that these reports are not
routinely provided to Defense.

BIS has the authority to administer and enforce the EAR and, as such, is ultimately responsible
for monitoring and enforcing all conditions placed on a dual-use license. Without knowing
whether an exporter or end user is fully compliant with license conditions, BIS cannot make
informed decisions on future license applications involving the same parties or take appropriate
enforcement action on the current license. BIS should revise its procedures with respect to the
review of technical documentation by licensing officers to require that all technical
documentation requested by any licensing agency, and included in an approved license, be
examined by the appropriate licensing officer upon submission by the exporter to ensure
compliance with the reporting conditions.

OExS staff are not always aware of the reporting conditions they are required to monitor

Our review of the 13 licenses with reporting conditions also revealed that OExS staff (1)
prematurely closed out two India licenses that required reporting documents from the exporter or
end user, and (2) failed to forward shipping documentation received for one license to OEA.

•    Licenses prematurely closed out. In the first case, 35 OExS staff did not have any
     information documenting whether the license was shipped against and could not explain why
     it was prematurely closed out of the Follow-up Subsystem. However, OEA officials

35
 This license required the submission of a delivery verification report, which is provided to BIS after delivery of
goods, and a maintenance report, provided when maintenance is performed on equipment.
                                                         20
U.S. Department of Commerce                                                             Final Report IPE-18144
Office of Inspector General                                                                        March 2007

     apparently had information indicating that the goods had been exported. In the second
     case, 36 OExS staff had information relating to the date the goods were shipped, but they
     could not explain why they closed the license out in the Follow-Up Subsystem before
     receiving the required documentation. According to BIS procedures instituted in early 2005
     in response to a recommendation from our March 2003 export enforcement report, 37 OExS
     staff must obtain all required documentation from the exporter or end user before closing out
     a license.

•    Failure to forward shipping documentation to OEA. OExS staff failed to forward
     shipping documentation they received for one license to OEA so that a PSV could be
     initiated. This case involved a shipper’s export declaration and a post-shipment report, both
     of which should have been submitted directly to OEA by the exporter, but were mistakenly
     submitted to OExS after the May 2006 shipment. According to a memorandum issued by the
     director of OExS in March 2006, OExS staff must forward misrouted shipper’s export
     declarations and all relevant documentation to OEA within 48 hours of receipt of those
     documents. An OExS employee said that she did not forward the shipping documentation to
     OEA because she believed monitoring the license conditions in this case was the
     responsibility of OExS. But if OEA does not receive shipping documents, it has no way of
     knowing whether exporters have complied with the license condition and cannot initiate a
     PSV.

BIS should ensure that OExS staff understand which license conditions they are responsible for
monitoring and when they should forward documentation to OEA. In addition, OExS should
reopen the two licenses that were prematurely closed out of its system and contact the exporters
to obtain the documentation needed to fulfill the reporting requirements.

OExS staff are not referring non-compliant exporters to OEE

According to BIS’ guidance, OExS staff are required to follow up with exporters that are
noncompliant with reporting conditions prior to closing out the license in the Follow-Up
Subsystem. The procedures further state that if exporters are non-responsive to requests for
information, OExS staff should refer them to the Office of Export Enforcement (OEE).
However, in the two cases of noncompliance, both exporters had shipped against their licenses,
but neither one had provided BIS all of the required documentation as of October 2006. We
brought these cases to the attention of OExS staff members during the course of our review, but
they were not referred to OEE. OExS should immediately refer any noncompliant exporters to
OEE.

Recommendation:

BIS should, at a minimum, take the following actions to improve its monitoring of license
conditions:



36
 This license required the submission of a demonstration report to BIS every 6 months for a period of 2 years.
37
 Commerce OIG, March 2003. Improvements Are Needed to Better Enforce Dual-Use Export Control Laws, IPE-
15155.
                                                      21
U.S. Department of Commerce                                                             Final Report IPE-18144
Office of Inspector General                                                                        March 2007

•    Determine why there are persistent breakdowns in BIS’ process for monitoring license
     conditions.
•    Review a sample of license applications to ensure licensing officers and countersigners are
     properly marking licenses for follow-up.

•    Contact exporters for the three licenses we identified as not marked for follow-up to
     determine whether the exporters complied with reporting requirements.

•    Amend procedures to require licensing officers to review all technical documentation
     submitted by exporters or end users to ensure their compliance with the conditions.

•    Ensure that relevant OExS staff know which license conditions they are responsible for
     monitoring and the steps they should be taking to follow up on license conditions, including
     referral to OEE, as appropriate.

•    Reopen the two licenses that were closed by OExS and contact the exporters regarding
     reporting requirements.

•    Refer all noncompliant exporters to the Office of Export Enforcement.



BIS Response to OIG Draft Report and OIG Comments

In its written response to our draft report, BIS stated that it is still reviewing our
recommendations pertaining to Export Administration’s monitoring of license conditions. The
planned completion date for this review is April 30, 2007. We look forward to reviewing BIS’
response when completed.


B. Export Enforcement needs to improve its monitoring and enforcement of India licenses
   with condition 14

Within Export Enforcement, OEA is responsible for monitoring licenses marked with the
remaining two reporting conditions–the submission of shipper’s export declarations, which is
referred to as condition 14, and post shipment reports on high-performance computer exports to
certain countries, referred to as condition 34. 38 Licenses with condition 14 require a PSV on a
specific foreign entity following the first shipment made against the license. Within 30 days of
shipment, exporters are required to submit a copy of the shipper’s export declaration directly to
OEA, which then initiates the PSV to confirm a commodity’s stated end-use

Our review of the 24 India licenses from our sample that contained condition 14 revealed that
OEA is not fully adhering to its guidance for monitoring licenses with condition 14. Condition
14 is one of the most critical conditions placed on a license because either the interagency

38
  Since licenses with condition 34 are tracked separately from Export Enforcement’s Conditions Follow-up
Subsystem, we focused our review on licenses with condition 14. However, some of the licenses with condition 14
in our sample also contained condition 34.
                                                      22
U.S. Department of Commerce                                                                Final Report IPE-18144
Office of Inspector General                                                                           March 2007

licensing agencies or export enforcement officials decided that a PSV was needed to determine
whether the goods or technology were actually being used in accordance with that license.
However, it should be noted that even when condition 14 is imposed on a license, the PSV might
not occur in all cases. For example, if there is no export against the license or if the agency
requesting this condition changes its mind (e.g., the item subsequently becomes decontrolled),
the PSV may be cancelled. One of the 24 PSVs in our sample was cancelled because the item
was decontrolled after the license was issued.

Of the reviewed India licenses that contained condition 14, several exporters submitted their
shipping documents to BIS well after the established time frame, which in some cases hinders
BIS’ ability to detect possible diversions or violations of license conditions. In addition, OEA
recommended approval of additional licenses to exporters that had not fully complied with
condition 14 reporting requirements on previous licenses and did not refer noncompliant
exporters to OEE for appropriate action.

Export Enforcement management is unable to determine whether OEA analysts and supervisors
are fully adhering to OEA’s follow-up procedures

We determined that exporters submitted their shipper’s export declarations after the established
30-day deadline in 11 of the 24 cases—between 12 and 1,158 days beyond the deadlines (see
figure 6). In response to our March 2003 export enforcement report, BIS issued procedures
requiring its staff to follow up at least twice with the exporter on all licenses with condition 14:
first, 1 year after the license’s date of issue and then within 30 days of the date of license
expiration to see whether shipments have occurred. However, we were unable to determine if
OEA followed these procedures in these cases. Specifically, records in OEA’s electronic follow-
up tickler system for 8 of the 11 licenses 39 in which exporters submitted their shipper’s export
declarations late did not clearly show what actions were taken to monitor compliance. Seven of
the 8 records only showed the date when the follow-up tasks were assigned to an analyst and not
what actions the analyst took. The remaining record did not provide any information about OEA
follow-up.

Given that the acting director for OEA’s South Asia and Europe Division was new to this
position at the time of our review and the fact that OEA’s follow-up tickler system did not
clearly indicate what follow-up action, if any, was taken in these cases, she could not confirm if
analysts followed the prescribed procedures for these eight cases. Since only OEA supervisors
have access to the Follow-up Subsystem, it was their responsibility to record what actions were
taken by the analysts in these cases. However, the acting director for OEA’s South Asia and
Europe Division suggested that supervisors would be better able to hold analysts accountable if
the analysts had access to the Follow-up Subsystem so that they could record the actions they
took to monitor these cases.




39
  One exporter was under investigation by OEE at the time of our review, so we did not pursue our inquiry related to
this license. While the remaining two licenses had been shipped against, they were granted in March 2006 and, as
such, had not reached the one-year mark requirement for follow-up as called for in OEA’s guidance.
                                                        23
U.S. Department of Commerce                                                          Final Report IPE-18144
Office of Inspector General                                                                     March 2007




Figure 6: Exporters Noncompliant with Condition 14 Reporting Requirement

                          11       12
                          10       12
                           9        38
                           8            48
    Number of Exporters




                           7             106
                           6                 170
                           5                       232
                           4                             312
                           3                                    521
                           2                                            786
                           1                                                             1158

                               0             200          400   600    800    1000    1200        1400
                                    Number of Days SEDs Were Received Beyond the 30-day
                                                       Requirement

Source: BIS

OEA is not denying noncompliant exporters future licenses or referring them to OEE per its
guidance

OEA’s procedures require its analysts to (1) refer noncompliant condition 14 exporters to OEE
for possible investigation, and (2) recommend denial of any subsequent license applications
involving a party who has not complied with a previous license condition. We found also that at
least 6 of the 11 noncompliant exporters in our sample received additional licenses after the 1-
year deadline established by OEA for its analysts to follow up with exporters to determine
compliance with condition 14.

In addition, only 2 of the 11 exporters that submitted their shipping documents to OEA after the
established deadline were referred to OEE. The director of OEA informed us that while he was
aware of the other 9 noncompliant exporters, he made the decision not to make the referrals. He
and the acting director for the South Asia and Europe Division stated that despite BIS’ guidance,
they generally do not refer these types of cases to OEE because they believe these cases would
not be a priority.
We discussed this matter with the director of OEE, and he stated that OEA should refer these
types of cases. He stressed that these violations should be examined so that they can consider
appropriate enforcement action (e.g., a warning letter or fine).

BIS needs to ensure that its analysts and supervisors closely monitor licenses at the 1-year mark
and within 30 days of license expiration to prevent additional licenses from being issued to
exporters that do not comply with condition 14, and it should hold those exporters accountable.


                                                                  24
U.S. Department of Commerce                                                   Final Report IPE-18144
Office of Inspector General                                                              March 2007




Recommendation:

BIS needs to review Export Enforcement’s process of monitoring and enforcing license
condition 14 and take the following actions:

•   Require OEA analysts and supervisors to closely monitor licenses at the specified follow-up
    time frames, record their monitoring activities in the Conditions Follow-up Subsystem, and
    recommend that exporters who do not comply with condition 14 be denied additional
    licenses.

•   Refer all noncompliant exporters to the Office of Export Enforcement.

•   Hold exporters accountable for noncompliance with condition 14 through appropriate
    enforcement action.



BIS Response to OIG Draft Report and OIG Comments

In its written response to our draft report and our recommendation addressing Export
Enforcement’s license monitoring and enforcement efforts, BIS stated that it is still reviewing the
first part of this recommendation to determine whether it can be implemented using the current
license processing system (ECASS), or if some alternative approach is necessary. We look
forward to learning of BIS’ decision upon completion of its review.

As for the second part of our recommendation related to BIS’ adherence to its own guidance on
denying licenses to those exporters who do not comply with condition 14 and/or referring
noncompliant exporters to OEE, BIS stated that this requirement needs modification.
Specifically, BIS reported that it put this requirement into place in October 2003 in response to a
previous OIG recommendation, but found that there were many factors involved that needed to
be considered before determining whether subsequent licenses should be denied or referrals
made to OEE based on a late filing. As such, BIS stated that in cases where OEA believes it is
appropriate to refer an investigative lead to OEE, it does so while also screening the party
involved and recommending against issuance of any license until the OEE investigation has been
concluded.

While we agree that some flexibility might be warranted (e.g., if the exporter is just a few days
late in providing the required shipping documentation) in determining whether future licenses
should be denied or referrals made to OEE based on a late filing, we found no evidence in the
case files to indicate any type of analysis was conducted to determine whether or not the late filer
should be held accountable for not fully complying with the license condition. In fact, as
discussed in our report, the director for OEA and the acting director for the South Asia and
Europe Division stated that they generally do not refer these types of cases to OEE because they
believe these cases would simply not be a priority. Nonetheless, the director of OEE informed us
during our review that these types of cases should be referred to OEE so that they can consider

                                                25
U.S. Department of Commerce                                                  Final Report IPE-18144
Office of Inspector General                                                             March 2007

appropriate enforcement action, such as a warning letter. Therefore, we reaffirm our
recommendations on these matters and ask that BIS address them in its action plan.

With regard to the part of our recommendation about holding exporters accountable for
noncompliance with condition 14 through appropriate enforcement action, BIS’ response stated
that its Office of Chief Counsel and OEE, as well as the Department of Justice, determine the
appropriate investigation and prosecution for filing documentation late, based on all the facts
present. While we agree that these three entities, as appropriate, should make the decision as to
what type of investigation and/or prosecution is appropriate on any given case, as stated above,
none of the nine cases highlighted in our report were referred to these offices so that an
appropriate decision could be made. As such, we reaffirm this part of our recommendation on
this matter and ask that BIS address it in its action plan.

Finally, BIS’ response noted that the 24 licenses from our sample did not all contain condition
14. We disagree. Our review of these licenses indicated that all 24 contained the standard
condition 14 language:

               After the first shipment is made against this license, send one copy
               of your shipper’s export declaration, or automated export system
               (AES) record, bill of lading or airway bill to the Department of
               Commerce within 30 days of the date of export. Indicate the
               license number on each document. Send these documents to the
               Bureau of Industry and Security, Office of Enforcement Analysis,
               Room 4065, 14th Street and Constitution Avenue, N.W.,
               Washington, D.C. 20230. These documents must be received by
               certified mail or via a private courier. They may not be faxed.

While the licensing officers for 2 of the 24 licenses had improperly coded this condition in
ECASS as a “Write Your Own” condition instead of condition 14, the intent of the condition was
clearly for a PSV to be conducted. In addition, the exporters in these cases were still required to
submit the appropriate shipping documents in accordance with the license terms.




                                                26
U.S. Department of Commerce                                                    Final Report IPE-18144
Office of Inspector General                                                               March 2007

                 SUMMARY OF UNCLASSIFIED RECOMMENDATIONS

We recommend that the Acting Under Secretary for Industry and Security ensure that the
following actions are taken:

1.   Specifically list all of the Indian entities that should be captured on BIS’ Entity List, or
     determine an alternative means to better ensure exporter compliance with export license
     requirements (see page 13).

2.   Improve Export Administration’s license monitoring efforts by:
     a.    Determining why there are persistent breakdowns in BIS’ process for monitoring
           license conditions (see page 18).
     b.    Reviewing a sample of license applications to ensure licensing officers and counter-
           signers are properly marking licenses for follow-up (see page 18).
     c.    Contacting exporters for the three licenses cited in this report that licensing officers
           did not mark for follow-up to determine exporters’ compliance with reporting
           requirements (see page 18).
     d.    Amending BIS procedures to require licensing officers to review all technical
           documentation submitted by exporters or end users to better ensure their
           compliance with the conditions (see page 18).
     e.    Ensuring that relevant Office of Exporter Services staff know which license
           conditions they are responsible for monitoring and the steps they should be taking
           to follow up on license conditions, including referral to the Office of Export
           Enforcement, as appropriate (see page 18).
     f.    Reopening the two licenses that were closed by Office of Exporter Services staff
           and contacting the exporters regarding reporting requirements (see page 18).
     g.    Referring any noncompliant exporters to the Office of Export Enforcement (see
           page 18).

3.   Improve Export Enforcement’s license monitoring and enforcement efforts by:
     a.    Requiring Office of Enforcement Analysis analysts and supervisors to closely
           monitor licenses at the specified follow-up time frames, recording their monitoring
           activities in the Conditions Follow-up Subsystem, and recommending that exporters
           who do not comply with condition 14 be denied additional licenses (see page 22).
     b.    Referring all noncompliant exporters to the Office of Export Enforcement (see page
           22).
     c.    Holding exporters accountable for noncompliance with condition 14 through
           appropriate enforcement action (see page 22).




                                                27
U.S. Department of Commerce                                                Final Report IPE-18144
Office of Inspector General                                                           March 2007

                                        APPENDIXES

                                   Appendix A: Acronyms

     ACEP                     Advisory Committee on Export Policy
     BIS                      Bureau of Industry and Security
     CCL                      Commerce Control List
     CIA                      Central Intelligence Agency
     EAR                      Export Administration Regulations
     ECASS                    Export Control Automated Support System
     ECCN                     Export Control Classification Number
     ECO                      Export Control Officer
     FY                       Fiscal Year
     HTCG                     High Technology Cooperation Group
     IPE                      Inspections and Program Evaluations
     NDAA                     National Defense Authorization Act
     NLR                      No License Required
     NSSP                     Next Steps in Strategic Partnership
     OC                       Operating Committee
     OEA                      Office of Enforcement Analysis
     OEE                      Office of Export Enforcement
     OExS                     Office of Exporter Services
     OIG                      Office of Inspector General
     PLC                      Pre-License Check
     PSV                      Post-Shipment Verification
     TCP                      Technology Control Plan
     WINPAC                   Center for Weapons Intelligence, Nonproliferation, and
                              Arms Control
     WMD                      Weapons of Mass Destruction




                                                A-1
Final Report IPE-18144
           March 2007




                                                                                                    0                                     9                                              39 Days                                  90
                                                                                                   Pre-License                      Approve, Deny, or                              Approve, Deny, or                        Approve, Deny, or
                                                                                                   Check (PLC)                           Return                                         Return                                   Return
                              Appendix B: Interagency Dual-Use Export Licensing Process




                                                                                              BIS Initial
                                                                                              Screening/                                      Not Referred                                                                                   Post
                                                                                                                  Enforcement                                                                                                              Shipment
                                                                                              Technical
                                                                                                                    Review                                                                                                                Verification
                                                                                               Review
                                                                                                                                                                     CIA                                                                    (PSV)
                                                                                                                                                                 Information
                                                                                             (Registration
                                                                                                                                       Decision                                         Decision
                                                                                                  of
                                                                                                                                         (1)                                              (2)
                                                                                             Application)




                                                                                                                                                                                                                                                                                               B-1
                                                                                                                   Initial Case                                Referral Process                                     Dispute Resolution Process
                                                                                                                    Analysis                                         CIA
                                                                                                                                                                  Defense                                   OC => ACEP => EARB => President
                                                                                                                                                                   Energy                                   (3)    (4)     (5)       (6)
                                                                                                                                                                   Justice
                                                                                                                                                                    State
U.S. Department of Commerce




                                                                                                                                                                                                                                                         Source: Office of Inspector General
                                                                                                                                                                    PLC
Office of Inspector General




                                                                                          (1) On or before day 9 of registration, BIS must refer the application or issue, deny, or return without action (RWA) the license.
                                                                                          (2) On or before day 39 of registration, the referral agencies must provide BIS with a recommendation.
                                                                                          (3) On or before day 40 of registration, the application can be referred to the Operating Committee, which has 14 days to make a recommendation.
                                                                                          (4) On or before day 59 of registration, the application can be referred to the Advisory Committee on Export Policy, which has 11 days to make a decision.
                                                                                          (5) On or before day 75 of registration, the application can be sent to the Export Administration Review Board, which has 11 days to make a decision.
                                                                                          (6) On or before day 90 of registration, the application can be escalated to the President.
                                                                                          Executive Order 12981 provides several circumstances for stopping these time frames, such as obtaining additional information from the applicant.
U.S. Department of Commerce                                                                   Final Report IPE-18144
Officeo f Insvecior General                                                                              March 2007

         Appendix C: BIS Management Response to OIG Draft Report-Unclassified Version



                                                         pb.""g\       UNITED STATES DEPARTMENT OF COMMERCE
                                                                       Under Secretary for Industry and Security
                                                                       Washington. D.C 2023230

                                                                        March 23,2007




                 MEMORANDUM FOR Johnnie Frazier
                                Inspector General

                 FROM:                 *Mark    Foulon, Acting

                 SUBJECT:                 Audit Report No. IPE-18144
                                          Draft Report Date: February 23,2007
                                          Audited Entity: Bureau of Industry and Security


                 Attached are the Bureau of Industry and Security's comments addressing the Office of the
                 Inspector General's draft report entitled: U.S. Dual Use E x ~ o rControls
                                                                                   t        for India Should
                 Continue to Be Closely Monitored. Draft Inspection Reuort No. IPE-18144. February 2007.

                 The response consists of two parts. First are comments on the unclassified report's text and
                 recommendations, followed by BIS's response to the report's classified text and
                 recommendations.

                 Attachment
U.S.Department of Commerce                                                                             Final Report ZPE-18144
Officeo f Inspector General                                                                                       March 2007




                                                             COMMENTS:

                        U.S. Dual Use Export Controls for India Should Continue to Be Closely Monitored,
                                     Draft Ins~ectionR e ~ o rNo.
                                                              t IPE-18144, Februarv 2007


                Comments on the Report's Unclassified Text:

                p. ii         For reasons discussed in the classified section, BIS believes that India has fulfilled its
                              commitments under the NSSP.

                p. iii        In the classified section of the report, BIS explains the reasons for its disagreements
                              with certain of the report's findings as stated on this page.

                p. iv         For reasons discussed in the classified section of the report, BIS believes that
                              performing 8 of 24 PSVs within 100 days of shipment is not a disadvantage.

                p. 14         For reasons discussed in the classified section, BIS believes that India has filfilled its
                              commitments under the NSSP.

                p. 15         There were two cases in the Operating Committee (OC) in which there was confusion
                              about whether, or how, a proposed ultimate consignee was on the Entity List. In one
                              of the two cases, the confusion was based on erroneous information provided by the
                              applicant.

                p. 17         In the classified section of the report, BIS explains the reasons for its disagreements
                              with certain of the report's findings as stated on this page.

                pp. 20-21 On a monthly basis, Defense identifies reports it wishes to review and Commerce
                          provides those reports. If Defense requested copies of technical reports it required as
                          license conditions, thosc rcports would be provided to Defense for its review. Thus,
                          there is a process for Defense to request reports it required in license conditions. If its
                          review of those reports were to identifj an issue, it would notify Commerce as a
                          compliance issue and raise this in any future license application involving the
                          exporter.

                p. 23         The characterizationof condition 14 as "one of the most critical conditions" because
                              it means that the interagency has decided that a post-shipment verification check
                              (PSV) was needed, reflects a misunderstanding of the PSV process, as well as the
                              purpose of condition 14. License condition 14, which specifically requests the
                              licensee to submit shipping documents to BIS within 30 days of the first shipment, is
                              used in instances where Export Enforcement personnel review documentation and
                              initiate a PSV at a later point in time. It can also be imposed on the licensee by the
                              licensing officer when another agency requires that a PSV be conducted as a
                              condition of approval. However, even when condition 14 is imposed, the PSV might
                              not occur, for example, if there is no export against the license or if the agency


                                                                    1
U.S. Department of Commerce                                                                       Final Report IPE-18144
Officeo f Insuector General                                                                                  March 2007




                       requesting this condition cancels the request. Commerce has the authority to initiate a
                       PSV at any time, regardless of whether it is included as a condition of the license or
                       whether the license contains condition 14, and independent of the interagency
                       process. Indeed, not all PSVs require condition 14, and not all licenses with
                       condition 14 result in PSVs. Of the 24 India licenses containing PSVs noted in the
                       report, 10 either did not contain condition 14 or the condition was not placed on the
                       license by the interagency, but by an OEA analyst.

            Response to the Report's Recommendations:

            Recommendation 1: Specifically list all Indian entities that should be captured on BIS' Entity
                              List, or determine an alternative means to better ensure exporter
                              compliance with export license requirements (see page 14).

            BIS Response:

            BIS will review the listing of the Indian entities on the Entity List to determine how additional
            inforination can be provided to exporters. The planned completion date for this review is
            April 30,2007.

            Recommendation 2: Improve Export Administration's license monitoring efforts by:

                   a       Determine why there are persistent breakdowns in BIS' process for monitoring
                           license conditions (see page 19).
                   b       Reviewing a sample of license applications to ensure licensing officers and
                           counter-signersare properly marking licenses for follow-up (see page 19).
                   c       Contacting exporters for the three licenses cited in this report that licensing
                           officers did not mark for follow-up to determine exporters' compliance with
                           reporting requirements (see page 19).
                   d       Amending BIS procedures to require licensing officers to review all technical
                           documentation submitted by exporters or end users to better ensure thcir
                           compliance with the conditions (see page 19).
                   e       Ensuring that relevant Officer of Exporter Services staff know which license
                           conditions they are responsible for monitoring and the steps they should be taking
                           to follow up on license conditions, including referral to the Office of Export
                           Enforcement, as appropriate (see page 19).
                   f       Reopening the two licenses that were closed by Office of Export Services staff
                           and contacting the exporters regarding reporting requirements (see page 19).
                   g       Referring any noncompliant exporters to the Office of Export Enforcement (see
                           page 19).

            BIS Response:

            BIS is reviewing these seven recommendations. The plmied conipletion date for this review is
            April 30,2007.



                                                             2
U.S. Department of Commerce                                                                       Final Report IPE-18144
Officeo f Insuector General                                                                                  March 2007




              Recommendation 3: Improve Export Enforcement's license monitoring and enforcement
                                     efforts by:

                 a. Requiring Office of Enforcement Analysis analysts and supervisors to closely monitor
                    licenses at the specified follow-up time frames, recording their monitoring activities in
                    the Conditions Follow-up Subsystem, and recommending that exporters who no not
                    comply with condition 14 be denied additional licenses (see page 23).

                 b. Referring all noncompliant exporters to the Office of Export Enforcement (see page 23.)

                 c. Holding exporters accountable for noncompliance with condition 14 through appropriate
                    enforcement action (see page 23).

              BIS Response:

              a.     BIS is reviewing the first part of this recommendation to determine if it can be
              implemented using the current license processing system (ECASS), or if some alternative
              approach is necessary.

              The second part of the recommendation, to deny licenses to those exporters who do not comply
              with condition 14, requires modification. BIS put this requirement into place in October 2003 in
              response to a previous OIG recommendation, but found that there were many factors involved
              that needed to be considered before BIS should determine to deny subsequent licenses. Thus,
              BIS believes it is more appropriate to consider all of the factors related to a late filing prior to
              referral to a criminal investigator. In cases where the Export Compliance Analyst believes it is
              appropriate to refer an investigative lead to OEE, OEA does so and also screens the party
              involved and recommends against issuance of any license until the OEE investigation has been
              concluded.

              b.    As explained above, BISIOEA considers all of the factors related to a late filing and, if
              circumstances warrant, refers the matter to OEE for investigation.

              c.      The Office of Chief Counsel, Office of Export Enforcement, and the Department of
              Justice determine the investigation and prosecution that is appropriate for filing documentation
              late, based on all facts present.




                                                                3
Appendix B-2. Department of Commerce Report




                    B-2
     Department of Commerce
    Office of Inspector General’s


              Survey of
Selected Aspects of the CFIUS Process
U.S. Department of Commerce                                                             Final Report IPE-18546
Office of Inspector General                                                                        March 2007



                          Survey of Selected Aspects of the CFIUS Process

Given the current interest in the Committee on Foreign Investment in the United States (CFIUS)
both within and outside the U.S. government, we followed up on our March 2000 findings and
recommendations 1 related to select aspects of CFIUS’ monitoring of foreign investment for
national security reasons. While we still have questions about the effectiveness of the overall
CFIUS process, considerable improvements have been made with regard to the CFIUS activities
handled within the Commerce Department. We believe these improvements provide for better
coordination among departmental bureaus and greater transparency in Commerce’s decision-
making process.


                                             BACKGROUND


CFIUS was established by Congress in 1975 for the purpose of monitoring and evaluating the
impact of foreign investment in the United States. In 1988 the committee’s responsibilities were
expanded under the Exon-Florio amendment to
the Defense Production Act of 1950. Exon-            Figure 1: CFIUS Member Agencies
Florio authorizes the President to suspend or
prohibit any foreign acquisition, merger, or         U.S. Department of the Treasury
takeover of a U.S. company that threatens            U.S. Department of State
national security. The provision does not            U.S. Department of Defense
provide a precise definition of national security;   U.S. Department of Commerce
                                                     U.S. Department of Homeland Security
rather it gives the U.S. government the ability
                                                     U.S. Department of Justice
to redefine that term to keep pace with              U.S. Trade Representative
technological and political developments and         Office of Management and Budget
address emerging threats as they arise. CFIUS        Council of Economic Advisors
is comprised of 12 federal agencies and chaired      National Security Council
by the Secretary of the Treasury (see Figure 1).     National Economic Council
While members of the intelligence community          Office of Science and Technology Policy
are not voting members of CFIUS, they do
provide intelligence assessments on all cases.       Source: Department of the Treasury


Overall CFIUS Process

Either the U.S. company or the foreign entity involved in an acquisition of or investment in a
U.S. company may submit a voluntary notice, or “filing,” of the transaction to CFIUS. In
addition, under Exon-Florio, a committee member can submit a notice of a proposed or
completed acquisition for a national security review. If the committee agrees that the transaction
raises national security concerns, the CFIUS staff chair will contact the parties and request a
filing. If the parties do not file, any CFIUS member can initiate the filing.

1
 U.S. Department of Commerce Office of Inspector General (Commerce OIG), March 2000. Improvements are
Needed in Programs Designed to Protect Against the Transfer of Sensitive Technologies to Countries of Concern,
IPE-12454-1.


                                                       1
U.S. Department of Commerce                                                 Final Report IPE-18546
Office of Inspector General                                                            March 2007

Once the committee receives a complete CFIUS filing from a company, it has 30 days to
determine whether the transaction involves national security concerns that should be
investigated. Because of the limited time frame for the reviews, the committee encourages
companies to pre-file before submitting documentation for an official 30-day review. Pre-filing
helps CFIUS evaluate the notifications for any errors or inconsistencies.

If any member of CFIUS has national security concerns regarding the transaction, the committee
conducts a 45-day investigation. During the investigation, the agency/agencies requesting the
investigation are responsible for information gathering, analysis, and drafting the report and
recommendation to the President. Other CFIUS members may be involved in the investigation if
they have relevant expertise and issues of concern. Upon completion of the investigation, the
President has 15 days to decide whether to prohibit the transaction or allow it to go forward.
Upon completion of his review, the President sends a classified report to the Congress, stating
his decision and explaining his reasons.

It should be noted that sometimes a transaction is still allowed to proceed, even when a CFIUS
member has concerns with the transaction. In these cases, the CFIUS member may enter into a
mitigation agreement with the parties. These agreements are aimed at minimizing the threat to
national security—while still allowing the transaction to move forward—by requiring the parties
in the transaction to establish and implement a set of security and other measures.

Commerce’s Internal CFIUS Review Process

Within Commerce, the Secretary has delegated responsibility for coordinating the Department’s
evaluation of CFIUS filings to the International Trade Administration (ITA). However, the
Bureau of Industry and Security (BIS) also plays a critical role in Commerce’s CFIUS activities.
In addition, the Deputy Secretary is kept apprised of CFIUS cases under review, and may be
called upon to decide the Department’s position in a specific case if ITA and BIS cannot agree.

Prior to April 2006, the Deputy Under Secretary for ITA was responsible for coordinating the
evaluation of CFIUS notifications within Commerce. Since then, ITA’s Assistant Secretary for
Market Access and Compliance has had the policy lead on CFIUS efforts. However, ITA’s
Manufacturing and Services’ Office of Competition and Economic Analysis (OCEA), where the
CFIUS coordinator resides, provides the actual working-level support on CFIUS cases. Since
the designation of a new CFIUS coordinator in October 2006, ITA’s recommendations are now
presented in writing to the Assistant Secretary for Market Access and Compliance. Additionally,
the new CFIUS coordinator requires that the following documents be included in each CFIUS
case file that ITA reviews:

   •   Business Fact Sheet. This document provides basic information about the businesses and
       industries involved in the proposed transaction. On a pilot basis, OCEA is sharing the
       fact sheets with BIS and the other “economic” agencies within CFIUS (i.e., the United
       States Trade Representative, State, the Council of Economic Advisors, and the Office of
       Science and Technology Policy). ITA has not yet decided if it will share these fact sheets
       with the entire CFIUS group.




                                               2
U.S. Department of Commerce                                                  Final Report IPE-18546
Office of Inspector General                                                             March 2007

   •   Analysis Memorandum. Relevant Manufacturing and Services units (e.g., Aerospace and
       Autos, Materials and Machinery, Technology and Electronic Commerce) are required to
       prepare an in-depth analysis of the proposed transaction and present recommendations on
       whether it is appropriate for ITA to clear the case.

Within BIS, the responsibility for reviewing CFIUS notifications is assigned to Export
Administration’s Office of Strategic Industries and Economic Security (OSIES). In general, this
office is responsible for a wide range of issues that relate to both the national and economic
security of the United States. As a participant in the Department’s CFIUS process, OSIES’ role
is to ensure that foreign investment will not negatively impact the U.S. defense industrial base’s
capacity and capabilities to meet current and future national security requirements. The office’s
database on CFIUS filings is the only comprehensive database on CFIUS filings available in the
Department. In addition, BIS’ Export Enforcement units screen all parties associated with
CFIUS filings to ensure that there are no export enforcement concerns relevant to the CFIUS
case under review.

ITA coordinates the Department’s response on CFIUS notifications through its CFIUS Working
Group. The group meets weekly and mainly consists of representatives from ITA and BIS. The
Department’s Office of General Counsel also participates on occasion when legal expertise is
required. Additionally, the CFIUS Working Group consults with other Commerce bureaus on a
case-by-case basis. For example, the National Institute of Standards and Technology was
consulted on a case involving voting machines, and the National Telecommunications and
Information Administration was consulted on a case involving a company that manufactured
network security products. ITA prepares a weekly report summarizing all pending CFIUS cases
for the Deputy Secretary’s review. In addition, the Deputy Secretary attends “Deputy meetings”
at the Department of the Treasury on CFIUS matters, on an as needed basis.

CFIUS Notifications

Between 2000 and 2006, CFIUS reviewed 442 foreign acquisitions of U.S. companies for
potential national security concerns. In 2006 CFIUS reviewed 113 filings, a 74 percent increase
over 2005 and more than twice the average number for the past 6 years (see Figure 2).
Commerce and Treasury officials attribute this spike in filings to the increased attention to
foreign mergers and acquisitions in the aftermath of the 2006 purchase of a British company that
managed terminal operations at six key U.S. ports by Dubai Ports World, a United Arab Emirates
company. This trend in the number of CFIUS filings appears as if it will continue in 2007, as 29
transactions were filed as of mid-March.




                                                3
U.S. Department of Commerce                                                      Final Report IPE-18546
Office of Inspector General                                                                 March 2007

Figure 2: Number of CFIUS Notifications

                                     CFIUS Notifications in Calendar Years 2000-2006


                               120                                                        113

                               100
     Number of Notifications




                                80    72
                                                                                65
                                60            55                        53
                                                       43        41
                                40

                                20

                                 0
                                     2000    2001    2002       2003   2004    2005       2006


Source: The Department of the Treasury

The majority of foreign investors involved in CFIUS notifications in 2006 were from the
following six countries: United Kingdom, France, Israel, Canada, Australia, and Japan. While
there were no filings involving foreign investors from China during this time frame, there was
one filing involving a Hong Kong entity. Other foreign investors involved in CFIUS filings
include entities from Pakistan, Russia, Venezuela, and the United Arab Emirates.

2006 CFIUS Reforms and Pending Legislation

Given the recent scrutiny of the effectiveness of the CFIUS process by the Congress in the
aftermath of the Dubai Ports World case, the Department of the Treasury reports that CFIUS
instituted the following reforms in 2006:

•   Although current law requires the President to report to the Congress on transactions that
    receive a presidential decision, CFIUS now provides briefings to the Congress on every case
    reviewed by CFIUS.

•   Only persons confirmed by the Senate can certify the conclusion of a CFIUS review.

•   CFIUS encourages parties to transactions to pre-file before filing a formal notice.

•   The Treasury Department hosts a weekly policy-level meeting to discuss all pending CFIUS
    cases.



                                                            4
U.S. Department of Commerce                                                             Final Report IPE-18546
Office of Inspector General                                                                        March 2007

•     The Director of National Intelligence (DNI) was given a more formal role. Through the
      DNI, the intelligence community provides briefings on every transaction and participates in
      weekly CFIUS meetings.

In addition, the U.S. House of Representatives passed legislation in February 2007 aimed at
reforming the current CFIUS process. 2 Treasury officials expect the Senate to take up the bill in
spring 2007. Below are the main provisions of the House bill:

•     Foreign government transactions. The bill requires CFIUS to conduct a 45-day national
      security investigation on all cases involving foreign government control unless the
      Secretaries of the Treasury, Homeland Security, and Commerce determine, on the basis of
      the 30-day review of the transaction, that it will not affect the national security of the United
      States.

•     Designation of Vice Chairs. The bill elevates the Secretaries of Commerce and Homeland
      Security to the status of Vice Chairs of CFIUS and requires that they approve all transactions
      in addition to the Chairman of CFIUS.

•     Unilateral Initiation of Reviews. The bill allows the President, CFIUS, or any member acting
      on behalf of CFIUS to initiate reviews of any previously reviewed or investigated transaction
      if any party to the transaction submitted false or misleading information or breached a
      mitigation agreement.

•     Withdrawn Notices. The bill establishes a process for tracking transaction notices that have
      been withdrawn by the parties before the completion of the 30-day review or 45-day
      investigation by CFIUS.

•     Annual Report to the Congress. CFIUS will be required to submit a report to the Congress
      before July 31 of each year on all reviews and investigations of transactions.


             UPDATE OF PRIOR COMMERCE OIG WORK ON CFIUS PROCESS


In our March 2000 report on CFIUS and other matters, we raised concerns about the overall
effectiveness of CFIUS’ monitoring of foreign investment in the United States for national
security reasons, including (1) the lack of mandatory foreign investment reporting, (2) the low
number of investigations conducted on company filings, and (3) the potential conflict of interest
or appearance thereof by the Treasury office charged with overseeing CFIUS because of its dual
responsibilities to Apromote@ foreign investment as well as Aprevent@ such investment when it
could result in the loss of sensitive technology or a critical reduction in the defense industrial
base.



2
    H.R.556, “National Security Foreign Investment Reform and Strengthened Transparency Act of 2007.”


                                                        5
U.S. Department of Commerce                                                  Final Report IPE-18546
Office of Inspector General                                                             March 2007

The report also highlighted some issues involving Commerce’s process for reviewing CFIUS
filings, including (1) whether Commerce’s lead responsibility for this program should remain in
ITA, the Department’s primary trade promotion agency, or be moved to BIS, the Department’s
primary national security agency, and (2) whether BIS’ export enforcement and export licensing
units should play a larger role in reviewing CFIUS filings.

To determine what actions have been taken to address these concerns, we met with various
officials within ITA, including the Assistant Secretary for Market Access and Compliance, and
BIS, including the Assistant Secretary for Export Administration and the director of the Office of
Strategic Industries and Economic Security. We also met with the Department of the Treasury’s
Deputy Assistant Secretary for Investment Security and the CFIUS staff chair. In addition, we
reviewed current and proposed laws, policies, and procedures related to the CFIUS process. We
also reviewed 10 CFIUS cases, including one from 2005 that was reopened in 2006 based on
congressional concerns with the transaction, all 7 from 2006 that went to the investigation phase,
and 2 from 2007 that raised possible export control issues.

Given the limited nature of our work, we did not determine how many of the 113 filings were
withdrawn and refiled with CFIUS and how well CFIUS monitors this process. We also did not
review CFIUS’ process for monitoring compliance with mitigation agreements.

The following two sections provide updates on the two areas of CFIUS concerns highlighted in
our March 2000 report.

A.     Update of Prior Commerce OIG Concerns Related to the Overall CFIUS Process

Lack of Mandatory Foreign Investment Reporting—Update

During our recent follow-up work, both Treasury and Commerce officials informed us that the
controversial and highly publicized Dubai Ports World case made U.S. and foreign entities more
aware of the CFIUS process. As a result, the number of filings has increased. However, foreign
investment reporting is still a voluntary process. Legislation was proposed in the National
Defense Authorization Act for Fiscal Year 2000 to make such reporting to CFIUS mandatory,
but the provision was deleted before passage of the bill. To date, Congress has not taken any
action to make CFIUS filings mandatory. In addition, the Administration has not proposed
mandatory filing. According to Commerce and Treasury officials, mandatory filing might harm
U.S. open investment policy as well as overburden U.S. government resources. However, both
agencies stated that even though filing with CFIUS is voluntary, it is in the best interest of the
parties to an investment transaction to notify the committee because CFIUS retains the right to
review any transactions not communicated to the committee, and the review could result in
forced divestiture.

While we acknowledge that the number of CFIUS filings has increased, we still question
whether CFIUS is capturing—in a timely manner—all relevant acquisitions and mergers,
especially those involving small or medium-sized U.S. companies that manufacture or conduct
research on sensitive U.S. technologies (including emerging technologies). For instance, one of
the 2006 cases we reviewed during our follow-up work involved a small U.S. company that had



                                                6
U.S. Department of Commerce                                                     Final Report IPE-18546
Office of Inspector General                                                                March 2007

been acquired a year earlier without CFIUS review. It is unknown why the U.S. company did
not notify CFIUS of the proposed acquisition prior to its completion. The transaction was only
brought to CFIUS’ attention a year after the acquisition occurred when it was highlighted by the
media. Due to national security concerns, the U.S. government ultimately ordered the divestiture
of the acquisition which has to be completed by December 2007. While there was no evidence
in the case file to suggest national security had been compromised, reviewing such transactions
after the fact increases the likelihood of this possibility.

In addition, while CFIUS members are permitted to submit a notice of proposed or completed
acquisition for a national security review, this does not happen very often. Specifically, the
Department of the Treasury reported that it received six notifications from member agencies in
2006, including four from Commerce.

Low Number of Investigations—Update

The number of 45-day investigations has increased since our March 2000 report (see Figure 3).
Specifically, the percentage of filings investigated increased from 1 percent in 2000 to 6 percent
in 2006. Of the 113 CFIUS filings in 2006, 7 cases were escalated to the investigation phase.
However, since the number of filings also increased in this time period, it is hard to determine—
based on the statistics alone—what this increase in investigations really means or how significant
it is given that (1) a party can withdraw its filing before it is escalated to the investigation phase
(although the expectation is that the party will refile the notice if the transaction is to proceed)
and (2) CFIUS can enter into a mitigation agreement with a party to deal with any potential
national security concerns before being escalated to the investigation phase.

Of the seven cases escalated to investigation in 2006, only two required a presidential decision.
In both cases, the President allowed the transaction to go forward. The remaining five cases
were withdrawn before the investigation phase concluded and refiled later. CFIUS ultimately
approved three of the five refiled transactions. In the fourth case, CFIUS required a divestiture,
and the fifth transaction was abandoned by the parties involved.




                                                  7
U.S. Department of Commerce                                                      Final Report IPE-18546
Office of Inspector General                                                                 March 2007

Figure 3: Number of CFIUS Investigations

                                  CFIUS Investigations in Calendar Years 2000-2006

                              8
                                                                                         7
                              7
   Number of Investigations




                              6

                              5

                              4

                              3
                                                               2      2      2
                              2
                                     1       1
                              1
                                                    0
                              0
                                   2000    2001    2002       2003   2004   2005       2006


Source: Department of the Treasury

Dual Responsibilities of CFIUS Leadership—Update

In our March 2000 report, we questioned whether the dual responsibilities of Treasury’s Office
of International Investment, located in the Office of the Assistant Secretary of International
Affairs, were incompatible. That office, which serves as the secretariat for CFIUS, is responsible
for promoting foreign direct investment as well as investigating questionable foreign investment.
While the lead responsibility for CFIUS continues to remain in this office, both Treasury and
Commerce officials reported that CFIUS has been operating on a consensus basis for the past
year. As such, any CFIUS member can bring a case to CFIUS for review as well as escalate a
case for investigation. In addition, although the law requires CFIUS to provide reports to the
Congress only on transactions that receive a presidential decision, Treasury officials informed us
that, in the spirit of transparency, it now provides all final CFIUS results to the Congress.
Therefore, our original concern about Treasury’s leadership of CFIUS—based on its competing
interests—appears to be mitigated due to the recent increase of checks and balances on
Treasury’s decision-making authority.

Conclusion

Even with the possible enactment of the pending CFIUS legislation, we still have concerns about
the overall effectiveness of CFIUS’ monitoring of foreign investments for national security
reasons. Specifically, whether or not it is determined to be feasible to require mandatory
reporting to CFIUS, we are concerned that the committee may not be capturing acquisitions and
mergers involving small or medium-sized U.S. companies that manufacture or conduct research


                                                          8
U.S. Department of Commerce                                                  Final Report IPE-18546
Office of Inspector General                                                             March 2007

on sensitive U.S. technologies, as noted earlier in our report. Also, it is not clear whether
companies that withdraw their filings at various stages in the process are adequately monitored
by CFIUS to ensure that a merger or acquisition that raises potential national security concerns
does not continue without further review. Additionally, there does not appear to be a formal
mechanism in place to monitor mitigation agreements that CFIUS members enter into with
parties to a merger or acquisition.

Our March 2000 report suggested that an interagency OIG review of the CFIUS process,
conducted by the OIGs from the Departments of Commerce, Defense and the Treasury, may be
warranted, as a part of our responsibilities under the National Defense Authorization Act for
Fiscal Year 2000, as amended. While the Inspectors General of Treasury and Defense concurred
with our suggestion, other priorities prevented this review from taking place. Nevertheless, we
still believe that such a review is warranted to (1) determine the scope of the problem regarding
foreign investment in U.S. companies with sensitive technologies by countries and entities of
concern and (2) review the overall effectiveness of CFIUS and recommend improvements, as
necessary, to the way the U.S. government monitors foreign investment in these companies.

B.     Update on Closed OIG Recommendations Related to Commerce’s Role in CFIUS

Placement of CFIUS Responsibility Within the Department—Update

When CFIUS was created, the Department=s export control functions were performed by ITA.
However, in 1987 the Congress decided to split the Department=s trade promotion
responsibilities from its export control and enforcement functions. Thus, the Bureau of Export
Administration (now BIS) was created as an independent Commerce bureau to handle the latter
trade administration functions. While ITA=s focus remained on trade promotion, it also retained
its role as Commerce=s representative on CFIUS. With the passage of the Exon-Florio provision
in 1988, however, CFIUS=s main focus was shifted from monitoring overall foreign investment
in the United States to determining the effects on national security of foreign mergers,
acquisitions, and takeovers of U.S. companies. Given the main thrust of Exon-Florio is to
prevent foreign acquisitions or investments that could threaten national security, our March 2000
report questioned why the lead responsibility for CFIUS within the Department was with ITA
and not BIS.

In response to our March 2000 report, ITA stated that it should retain the role as the lead
organization in Commerce on CFIUS issues. In addition, it stated that ITA would continue to
encourage full involvement and cooperation by all concerned units in the Department and would
participate fully in efforts to seek productive ways of improving the effectiveness of CFIUS.
BIS’ response stated that the current Commerce mechanism for reviewing CFIUS filings is
sufficient, but that it would accept the responsibility if it were transferred to it.

We still believe that BIS may be the more appropriate entity to have the lead on CFIUS within
Commerce given its national security mission. However, based on our discussions with BIS and
ITA officials and our limited case reviews, it appears that the current Commerce process is
working well. Both ITA and BIS report that disagreements between the two entities during
Commerce’s decision-making process are rare. ITA officials attribute this, in part, to the fact


                                                9
U.S. Department of Commerce                                                    Final Report IPE-18546
Office of Inspector General                                                               March 2007

that it defers to BIS on any case that raises specific export control concerns. We only identified
one case in which BIS and ITA officially disagreed, but the issues of concern did not involve
export controls. Ultimately, the decision on Commerce’s position on this case was raised to the
Deputy Secretary, who made the final decision.

While we are encouraged by these recent developments, we are concerned that there are no
comprehensive, written procedures outlining how the CFIUS process works in Commerce. The
director of ITA’s Office of Competition and Economic Analysis (OCEA) informed us that he is
planning on establishing written CFIUS guidelines in the next month and distributing them to
BIS, NIST, and other offices within Commerce that work on CFIUS. We also were informed
that, in March 2007, BIS developed written guidance for handling of the CFIUS process within
BIS. It is now appropriate that ITA, BIS, and other relevant Commerce offices work together to
develop and implement written procedures outlining how the CFIUS process should work in the
Department, including the roles and responsibilities of all parties involved in the process.

Recommendation:

We recommend that ITA work with BIS and other relevant Commerce offices to establish
written procedures outlining the specific CFIUS roles and responsibilities of Commerce units
and how the CFIUS process should work in Commerce to ensure continued coordination and
cooperation.

BIS’ Internal Review of CFIUS Notifications—Update

While our prior work found that the Office of Strategic Industries and Economic Security
(OSIES) was conducting a fairly comprehensive review of CFIUS notifications in response to
ITA’s referrals, our March 2000 report raised concerns that these notifications, and in particular
those involving entities from countries of concern, were not always reviewed by Export
Administration’s and Export Enforcement’s licensing and enforcement experts. However, based
on our follow-up work, we found that OSIES has greatly increased its collaboration with these
components of BIS. OSIES now works more closely with licensing officers on each CFIUS
filing: Every notification is sent to the appropriate licensing officer for a technical review and to
determine if applicable U.S. technologies and/or commodities involved in the transaction fall
under the Export Administration Regulations. The division director of OSIES also reported that
in order for licensing officers to better understand what CFIUS is and to ensure that applicable
CFIUS transactions are not overlooked during the export licensing process, OSIES is providing
training to licensing officers on the CFIUS process.

In addition to working with licensing officers, OSIES is working more closely with export
enforcement officials. Specifically, all parties associated with CFIUS filings are reportedly
vetted with Export Enforcement to ensure that there are no export enforcement concerns relevant
to a CFIUS case under review. We also found, based on two recent CFIUS cases we reviewed,
that OSIES refers possible export control violations identified as a part of the CFIUS review
process to Export Enforcement’s Office of Export Enforcement (OEE). Given the 30-day
CFIUS review period, OEE made these referrals a priority and was able to respond back to
OSIES in a timely fashion with the recommendation that these cases could move forward in the



                                                 10
U.S. Department of Commerce                                                  Final Report IPE-18546
Office of Inspector General                                                             March 2007

CFIUS process. Furthermore, it should be noted that OEE is planning to conduct outreach visits
in 2007 with U.S. parties to CFIUS transactions to educate and inform them of their export
control responsibilities. The director of OSIES informed us that he and/or his staff plan to
accompany OEE on two of the outreach visits scheduled in April 2007.

Additionally, as noted previously, BIS has recently established written procedures that reflect the
new CFIUS process within the bureau. The director of OSIES told us that this document was
distributed to every analyst who is involved with CFIUS. Also, the Assistant Secretary for
Export Administration was recently briefed on the newly created CFIUS written procedures.

Finally, it should be noted that in 2006 and 2007, Commerce, in particular BIS, along with
several other CFIUS members, participated in negotiating two mitigation agreements with parties
involved in sensitive acquisitions of U.S. companies. BIS will be responsible for monitoring the
export control provisions of these agreements when they take effect in the near future. However,
BIS does not have any written procedures in place that outline how it should monitor these
provisions of the agreements. (As of March 30, 2007, the Director of OSIES told us that his
office is currently working on a draft version of the procedures for monitoring provisions of the
mitigation agreements.) To better ensure that mitigation agreements are adhered to by the parties
involved, BIS should finalize and issue those procedures that will allow it to monitor and enforce
the export control provisions of these agreements.

Recommendation:

We recommend that BIS finalize and implement written procedures that outline how it will
monitor and enforce the dual-use export control provisions of mitigation agreements entered into
by CFIUS.




                                                11
Appendix C. Department of Defense Report




                   C-1
  Report No. D-2007-131         September 28, 2007




Followup Audit on Recommendations for Controls Over
         Exporting Sensitive Technologies to
                Countries of Concern
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms

DDR&E                 Director of Defense Research and Engineering
DFARS                 Defense Federal Acquisition Regulation Supplement
DTSA                  Defense Technology Security Administration
DUSD(TSP&NDP)         Deputy Under Secretary of Defense for Technology Security
                         Policy and National Disclosure Policy
EAR                   Export Administration Regulations
USD(AT&L)             Under Secretary of Defense for Acquisition, Technology, and
                         Logistics
USD(P)                Under Secretary of Defense for Policy
USXPORTS              U.S. Exports System
                     Department of Defense Office of Inspector General
Report No. D-2007-131                                                      September 28, 2007
 (Project No. D2006-D000LG-0199.000)

        Followup Audit on Recommendations for Controls Over Exporting
                 Sensitive Technologies to Countries of Concern

                                       Executive Summary

Who Should Read This Report and Why? Personnel who are responsible for developing and
implementing controls over exports of sensitive technology should read this report. It discusses
audit recommendations to strengthen controls over exporting sensitive goods, services, and
technologies to foreign countries and persons.

Background. Public Law 106-65, “National Defense Authorization Act for Fiscal Year 2000,”
requires the Inspectors General of the Departments of Commerce, Defense, Energy, and State to
conduct annual reviews of the transfer of militarily sensitive technology to countries of concern. For
the annual review due to Congress by March 30, 2007, these Inspectors General were joined by
those of the Departments of Homeland Security, Treasury, the U.S. Postal Service, and the Central
Intelligence Agency. The Inspectors General decided to follow up on recommendations made from
FY 2000 through FY 2006 to improve controls over exports. Each year, the results of the individual
agencies’ reviews are combined in a report to Congress.

Results. The DoD Inspector General made 39 recommendations during FYs 2000 through 2006 to
strengthen controls and reduce risks contributing to the inappropriate export of goods, services, and
technologies such as chemicals, toxins, electronics, explosives, sensors, and lasers. As of June 28,
2006, DoD organizations had implemented 25 of the 39 recommendations. During this audit, we
found four additional recommendations were implemented for a total of 29 recommendations.
Therefore, as of December 21, 2006, DoD organizations still needed to implement 10
recommendations. The 10 remaining recommendations request DoD organizations to develop,
implement, or revise guidance to determine whether an export license is required; to prevent
unauthorized access to or disclosure of export-controlled technology; and to establish roles and
responsibilities for persons involved with export-controlled technology. Also, the recommendations
relate to analyzing and documenting analysis of export applications; updating export guidance to
reflect current organizational titles, responsibilities, and structure; giving users access to the DoD
export application system; and developing effective management controls. Until our recommended
actions are implemented, DoD continues to accept avoidable risks of inappropriately exporting
sensitive goods, services, and technology that could threaten our national security. (See the Finding
section of the report for the detailed recommendations.)

Management Comments and Audit Response. We issued a draft of this report on
March 12, 2007. The Director of Defense Procurement and Acquisition Policy responded for the
Under Secretary of Defense for Acquisition, Technology, and Logistics and neither concurred nor
nonconcurred with our finding and recommendation. We considered the Director’s response related
to explaining the process for revising the Defense Federal Acquisition Regulation Supplement;
however, we did not see that an explanation of the process was needed to explain the status of our
recommendation. We agreed with the Director’s comments and revised our report to state that the
proposed changes in the Defense Federal Acquisition Regulation Supplement did not meet the intent
of our prior recommendation. Also, we considered the Director’s comments and deleted our
references to the Defense Federal Acquisition Regulation Supplement related to issuing guidance
and training DoD personnel. We revised our finding to show that the draft policy issued by the
Deputy Under Secretary of Defense for Technology Security Policy and National Disclosure Policy
should address our recommendation for issuing guidance and training DoD personnel on procedures
for handling exports, if approved and implemented. In addition, we considered and revised our
report to reflect the Director’s comments concerning the responsibility of the Under Secretary of
Defense for Policy for revising and issuing draft DoD Instruction 2040.2. We made no change in
response to the Director’s comment that no DoD Instruction is numbered 2040.2. A draft of the new
DoD Instruction 2040.2 is being coordinated within the Department; this Instruction will replace
DoD Directive 2040.2. Finally, we considered the Director’s comments that his office’s procedures
for following up on our recommendation was timely and adequate. However, more timely action by
the Director’s office is needed to implement our recommendation. We issued our audit report on
March 25, 2004, and one recommendation remained outstanding on March 29, 2007. Until changes
are made, DoD will be at increased risk of other nations’ countering or reproducing our technology.
We request that management provide comments on this final report by October 29, 2007.

The Director (Acting) of the Defense Technology Security Administration nonconcurred with our
findings related to her office. Specifically, the Director disagreed with our use of the policies in the
Export Administration Regulations for evaluating her office’s review of applications to export dual-
use items. However, we used those export policies and procedures for evaluating the review of
license applications after reviewing and considering DoD’s directive on management controls. That
directive requires organizations to perform functions to comply with applicable laws and
management policy. The Export Administration Act is the law that establishes the requirements for
processing export license applications and the Export Administration Regulations implement the
management policies for processing those applications. DoD should consider those policies in
making recommendations to the Department of Commerce on export license applications. Also, the
Director disagreed with our finding that her office was required to document reasons for all
recommendations made on export applications. We addressed the need to document reasons for all
recommendations in our prior report, “Controls Over Exports to China,” March 30, 2006. That
report cited the Principal Statutory Authority for the Export Administration Regulations, which
stated that DoD will make and keep records of its advice, recommendations, or decisions, including
the factual and analytical basis, connected with export licenses. We agree with the Director’s
comment that her office had no statutory or regulatory authority to approve or deny export
applications, merely to recommend a course of action to the licensing department. We modified our
report to show that her office was only responsible for making recommendations to the Department
of Commerce. Further, we considered and agreed with the Director’s comment that DoD Instruction
2040.2 cannot be finalized until it has been coordinated with DoD activities and completed by the
Under Secretary of Defense for Policy. We request that management provide comments on this final
report by October 29, 2007.

We did not receive any written management comments on this report from the Under Secretary of
Defense for Policy or from the Deputy Under Secretary of Defense for Technology Security Policy
and National Disclosure Policy. Therefore, we request that both provide management comments
on this final report by October 29, 2007. Although no comments were required, we received and
agreed with comments provided by the Director of Defense Laboratory Programs, who responded
for the Director, Defense Research and Engineering. The Director commented that our
recommendation to complete DoD Instruction 2040.2 should be redirected to the Under Secretary
of Defense for Policy; we did so in the draft. Also, the Director asked us to consider revising the
report to state that DoD Instruction 2040.2 will provide export procedures, the Defense Federal
Acquisition Regulation Supplement will provide specific clauses concerning export procedures,
and training on export compliance requirements depend on the content of the yet-to-be-published
Defense Federal Acquisition Regulation Supplement and DoD Instruction 2040.2. See the
Findings section for a discussion of management comments, and see the Management Comments
section for the complete text of the comments.

                                                   ii
Table of Contents
Executive Summary                                                              i

Background                                                                    1

Objectives                                                                    2

Finding
     Extent of Implementation of Recommendations To Improve Export Controls    4

Appendixes
     A.   Scope and Methodology                                               24
     B.   Prior Coverage                                                      26
     C.   Status of Prior Recommendations                                     28
     D.   Assessment of Export Applications                                   29
     E.   Report Distribution                                                 30

Management Comments
     Under Secretary of Defense for Acquisition, Technology, and Logistics    33
     Defense Research and Engineering                                         35
     Defense Technology Security Administration                               37
Background
           Annual Review on Transfers of Technology. In FY 2000, Congress passed
           Public Law 106-65, 1 which requires an annual review of transfers of sensitive
           technology to countries of concern. The law required annual reviews to begin in
           FY 2000 and end in FY 2007. To comply with the law, Inspectors General of
           affected departments and agencies formed an interagency team to conduct the
           reviews and produce the annual reports.

           Annual Report to Congress. For the annual report due to Congress by
           March 30, 2007, the Inspectors General decided to review whether
           recommendations made in previous reports had been implemented. The
           Inspectors General participating in this year’s review include those from the
           Departments of Commerce, Defense, Energy, Homeland Security, State, and
           Treasury; the U.S. Postal Service; and the Central Intelligence Agency. This
           audit report provides the legislatively required 2007 review of DoD controls over
           exports.

           Legislative Controls Over Exports. Several laws give the U.S. Government
           authority to control the export of commodities and technologies. The primary
           legislative authority for controlling the export of goods and technologies that have
           both civilian and military use (dual use) is the Export Administration Act of
           1979, as amended (title 50, United States Code, section 2401). 2 The Arms Export
           Control Act (title 22, United States Code, section 2778) authorizes the President
           to issue regulations for export of selected:

                    x defense-related articles (which are models, mockups, or technical data
                      shown on the U.S. Munitions List);

                    x services, such as assistance provided to foreign persons in the design,
                      development, and production of defense articles; and
                    x technical data including either classified or unclassified information,
                      other than software, required for the design, development, or production
                      of defense articles.




1
    We performed this audit to comply with Public Law 106-65, “National Defense Authorization Act for
    Fiscal Year 2000,” section 1402, “Annual Report on Transfers of Militarily Sensitive Technology to
    Countries and Entities of Concern,” October 5, 1999.
2
    The Export Administration Act expired in August 1994. However, the President, under the authority of
    the International Emergency Economic Powers Act (50 U.S.C. 1702), continued the provision of the
    Export Administration Act through Executive Orders 12924 and 13222, “Continuation of Export Control
    Regulations,” August 19, 1994, and August 17, 2001, respectively. Each year thereafter, and most
    recently on August 3, 2006, the President issued a notice, “Continuation of Emergency Regarding Export
    Control Regulations,” extending Executive Order 13222.

                                                      1
           DoD Export Control Responsibilities. DoD designated the following offices to
           develop and implement export control policy and to control exports to foreign
           countries and persons:

               x   Under Secretary of Defense for Acquisition, Technology, and Logistics
                   (USD[AT&L]). The USD(AT&L), in coordination with the Under
                   Secretary of Defense for Policy, is responsible for providing technology
                   assessments that help DoD determine the national security implications of
                   the transfer of technology, goods, services, and munitions. 3 Also, the
                   USD(AT&L) advises the Under Secretary of Defense for Policy on the
                   technological aspects of export control policies and procedures necessary
                   to protect the national security interests of the United States.

               x   Under Secretary of Defense for Policy (USD[P]). The USD(P) is
                   responsible for the formulation of defense policy and for the integration
                   and oversight of DoD policies and plans to achieve national security
                   objectives. Specifically, the USD(P) oversees all aspects of DoD transfers
                   of international technology, including export controls, licensing of dual-
                   use commodities 4 and munitions, and arms cooperation programs. As part
                   of its oversight responsibilities, the USD(P) supervises the Office of the
                   Deputy Under Secretary of Defense for Technology Security Policy and
                   National Disclosure Policy.

               x   Deputy Under Secretary of Defense for Technology Security Policy
                   and National Disclosure Policy (DUSD[TSP&NDP]). The DUSD
                   (TSP&NDP) is responsible for developing and implementing DoD
                   technology security policies to control defense-related goods, services, and
                   technology exports. The DUSD(TSP&NDP) also serves as the Director of
                   the Defense Technology Security Administration (DTSA), responsible for
                   coordinating reviews of license applications and reporting decisions made
                   on the basis of those reviews to the Department of Commerce.

Objectives
           The overall objective of this audit was to determine whether DoD effectively
           implemented recommendations made by the DoD Office of Inspector General in
           our seven previous reports (FY 2000 to FY 2006) on controls over militarily
           sensitive exports. Management had implemented recommendations from four of
           the seven reports; therefore, we reviewed the three remaining reports to determine
           management action. Specifically, we evaluated management actions taken on:

               x   all recommendations contained in DoD IG Report No. D-2006-067,
                   “Controls Over Exports to China,” March 30, 2006;


3
    Munitions include arms and ammunition as well as any material, equipment, or goods used to make
    military items.
4
    Dual-use commodities can be used for commercial or military purposes.


                                                     2
   x   Recommendations 1. and 2. in DoD IG Report No. D-2004-061, “Export-
       Controlled Technology at Contractor, University, and Federally Funded
       Research and Development Center Facilities,” March 25, 2004; and

   x   Recommendations A.1. and A.2. in DoD IG Report No. D-2000-110,
       “Export Licensing at DoD Research Facilities,” March 24, 2000, which
       related to controls over exporting sensitive technologies to countries of
       concern.

See Appendix A for a discussion of the scope and methodology, and Appendix B
for prior coverage related to the audit objective.




                                    3
                   Extent of Implementation of
                   Recommendations To Improve Export
                   Controls
                   DoD organizations implemented 29 of 39 (74 percent) of the
                   recommendations made in the 7 reports that we issued from FY 2000
                   through FY 2006. We made the 39 recommendations to strengthen
                   controls and reduce risks of inappropriate exports of goods, services, and
                   technologies such as chemicals, toxins, electronics, explosives, sensors,
                   and lasers. However, DoD organizations need to take further actions to
                   fully implement the 10 remaining recommendations in 3 of the 7 reports.

                   DoD organizations did not establish a fully effective process for following
                   up and aggressively implementing the 10 outstanding recommendations as
                   demonstrated by one recommendation that was not implemented for
                   almost 7 years. Until recommended controls are implemented, DoD
                   continues to accept avoidable risks of inappropriately exporting sensitive
                   goods, services, and technology that could threaten our national security.

DoD Guidance on Implementing Audit Recommendations
          Guidance on Implementing Recommendations. DoD Directive 7650.3,
          “Follow-up on General Accounting Office (GAO), 5 DoD Inspector General (DoD
          IG), and Internal Audit Reports,” provides guidance to DoD managers on
          implementing audit recommendations. The Directive states:

               x   “The DoD Component managers recognize, support, and use auditors as
                   important elements of DoD management systems.

               x   Timely decisions and responsive actions shall be taken and documented on
                   audit findings and recommendations to reduce costs, manage risks, and
                   improve management processes.

               x   Follow-up is an integral part of good management and is a responsibility
                   shared by DoD managers and auditors.

               x   An effective, credible decision process shall be maintained to resolve
                   disputes on audit findings and recommendations; prevent preemptive
                   actions, such as proceeding with activities questioned in undecided audit
                   reports; and provide prompt and well-documented decisions consistent
                   with statutes and regulations.

               x   Follow-up systems shall provide for a complete record of action taken on
                   findings and recommendations.”

5
    The General Accounting Office was renamed the Government Accountability Office.


                                                   4
Status of Recommendations. We announced the audit on June 28, 2006, to
determine whether DoD officials had implemented the recommendations we
made from FY 2000 through FY 2006. The results of this audit will be combined
with the results of reviews by seven other Inspectors General in a report to
Congress. The report will provide an assessment of the extent to which export
controls were implemented within the Federal Government from FYs 2000
through 2006.

As of June 28, 2006, DoD organizations had implemented 25 of 39 (64 percent)
of the recommendations made in our reports from FYs 2000 through 2006. Those
DoD organizations had agreed to implement all 39 recommendations.

During this audit, we found that DoD organizations had implemented four
additional recommendations. Therefore, as of December 21, 2006, 29 of 39
(74 percent) of the recommendations were implemented. The table shows the
number of recommendations we made and those implemented by DoD
organizations.

                    Status of Recommendations
                                                 Implemented
                                           As of             As of
                                          June 28,          Dec. 12,
                      Number of             2006             2006
Report Number      Recommendations        Yes    No         Yes    No
 D-2006-067              7                 0      7           1     6
 D-2005-042              1                 1      0           1     0
 D-2004-061              4                 1      3           1     3
 D-2003-070              3                 3      0           3     0
 D-2002-039              4                 4      0           4     0
 D-2001-088              8                 8      0           8     0
 D-2000-110              12                8      4          11     1
    Total                39               25     14          29    10

(See Appendix C for a complete list of the recommendations we reviewed.)




                                   5
Work Needed To Implement Recommendations
           As of June 28, 2006, DoD organizations still needed to implement 14 of the
           recommendations made during FYs 2000 to 2006. 6 One outstanding
           recommendation was almost 7 years old. Also, as of December 12, 2006, we
           found that 4 additional recommendations were implemented, which resulted in
           10 remaining outstanding.

           Five DoD organizations were responsible for implementing the
           14 recommendations. We indicate responsibility for and discuss the status
           (outstanding or closed) of recommendations below, by organization:

                x Under Secretary of Defense for Acquisition, Technology, and Logistics
                  (USD[AT&L]) was responsible for implementing 1 of the
                  14 recommendations, this recommendation remains outstanding;

                x   Under Secretary of Defense for Policy (USD[P]) was responsible for
                    implementing 2 of the 14 recommendations, 1 of the
                    2 recommendations remains outstanding;

                x   Deputy Under Secretary of Defense for Technology Security Policy
                    and National Disclosure Policy (DUSD[TSP&NDP]) was responsible
                    for implementing 4 of the 14 recommendations, each of the
                    4 recommendations remain outstanding;

                x   Director, Defense Research and Engineering (DDR&E) was both
                    responsible for implementing 2 of the 14 recommendations,
                    recommendations were closed and a new recommendation was made
                    in this report to USD(P); and

                x   Director, Defense Technology Security Administration (DTSA) was
                    responsible for implementing 5 of the 14 recommendations, 4 of the
                    5 recommendations remain outstanding.

           Under Secretary of Defense for Acquisition, Technology, and
           Logistics (USD[AT&L]). The USD(AT&L) did not implement one of the
           recommendations in Report No. D-2004-061, “Export Controlled Technology at
           Contractor, University, and Federally Funded Research and Development Center
           Facilities.” We issued the report on March 25, 2004, and recommended that the
           USD(AT&L) develop and insert a clause in the Defense Federal Acquisition
           Regulation Supplement (DFARS) requiring contractors to:
                    Comply with Federal export regulations and DoD guidance for export-
                    controlled technology and technical data by obtaining an export license,
                    other authorized approval or exemption, and preventing unauthorized
                    disclosure to foreign nationals.

6
    As previously noted, we determined during this audit that 4 of the 14 recommendations were implemented,
    as of December 12, 2006.


                                                       6
                   Incorporate the terms of the clause in all subcontracts that involve
                   export-controlled technology.

                   Conduct initial and periodic training on export compliance controls for
                   those employees who have access to export-controlled technology.

                   Perform periodic self-assessments to ensure compliance with Federal
                   export laws and regulations.

           Although the USD(AT&L) concurred with our recommendation in July 2004, the
           office had not implemented it as of December 21, 2006. However, USD(AT&L)
           did publish a draft of the proposed clause in the Federal Register dated
           August 14, 2006. USD(AT&L) officials stated that they received comments from
           the public in November 2006. However, as of February 5, 2007, USD(AT&L)
           had not completed the clause in the DFARS because those officials had not
           obtained the agreement from the Defense Acquisition Regulatory Council on the
           wording of the clause or the approval of the Office of Management and Budget’s
           Office of Information and Regulatory Affairs.

           We examined the proposed clause; it did not require contractors to conduct initial
           and periodic training or to perform periodic self-assessments on compliance with
           the Federal export laws and regulations. Therefore, we concluded that the clause
           did not meet the intent of the recommendation, which will remain outstanding
           (open) until the clause is revised to address the requirements of the
           recommendation and is published in the DFARS.

           Under Secretary of Defense for Policy (USD[P]).               The Office of
           the USD(P) implemented one of the two recommendations we made in Report
           No. D-2000-110, “Export Licensing at DoD Research Facilities,” on March 24,
           2000.

           Specifically, we recommended that the USD(P):
                   Coordinate with Commerce and State to develop guidance regarding
                   when a visit or assignment of a foreign national to a Defense facility
                   requires a deemed export license. 7

                   Revise DoD Directive 2040.2, “International Transfers of Technology,
                   Goods, Services, and Munitions,” to clearly state policies, procedures,
                   and responsibilities of DoD and Military Department hosts for
                   determining whether a deemed export license is required when a
                   foreign national visits a Defense facility.

                  Guidance on When To Obtain a Deemed Export License. On March
           24, 2000, the USD(P) agreed with the first recommendation to coordinate with the
           Departments of Commerce and State to develop guidance for when a visit or
           assignment of a foreign national to a DoD facility requires a deemed export
7
    A deemed export is defined by Export Administration Regulations (EAR) as a release of technology to a
    foreign national in the United States through such means as visual inspection, oral exchanges, or
    application of personal knowledge or technical experience acquired in the United States.

                                                      7
           license. Also, on March 24, 2000, the USD(P) stated that DoD Directive 5230.20,
           “Visits, Assignments, and Exchanges of Foreign Nationals,” would be revised to
           include DoD policies for licenses of deemed exports. During this audit, we
           examined the revised directive and determined that it includes guidance that
           satisfies our recommendation; therefore, we consider the recommendation closed.

                   Revision of DoD Directive. For the second recommendation—to revise
           guidance by clearly stating how Departmental hosts 8 should determine whether a
           deemed export license is required when a foreign national visits a Defense
           facility—DoD took several actions. Specifically, DTSA, an office under the
           USD(P):

                     x issued guidance in November 2002 and June 2003 that restricted the
                       access of foreign nationals to export-controlled technologies at DoD
                       facilities, and

                     x continued to review DoD Directive 2040.2, “International Transfers of
                       Technology, Goods, Services, and Munitions,” 9 as of February 2005.

           During this audit, a DUSD(TSP&NDP) official assigned to the USD(P) provided
           a draft memorandum, “Interim Guidance on Export Controls for Biological
           Agents,” dated August 14, 2004. We determined that the proposed memorandum
           would fulfill our recommendation and clearly defines the policies, procedures,
           and responsibilities of DoD and Military Department hosts for determining
           whether a deemed export license is required when a foreign national visits a DoD
           facility. A USD(P) official stated that the guidance will be included in the revised
           DoD Instruction 2040.2; however, the Instruction remains in draft, and the
           USD(P) official could not provide an estimated completion date. Therefore, this
           recommendation remains open until the guidance is published in DoD Instruction
           2040.2.

           Deputy Under Secretary of Defense for Technology Security
           Policy and National
                         10
                               Disclosure Policy (DUSD[TSP&NDP]).
           DUSD(TSP&NDP) did not implement two recommendations from FY 2004 and
           the two from FY 2006. In FY 2004, we issued Report No. D-2004-061, “Export
           Controlled Technology at Contractor, University, and Federally Funded Research
           and Development Center Facilities.” We issued the report on March 25, 2004,
           and recommended that the DUSD(TSP&NDP):
                     Expand “Interim Guidance on Export Controls for Biological Agents,”
                     November 7, 2002 to:

                              Encompass all export-controlled technology.

8
    A host is a designated individual or organization that is responsible for coordinating foreign national visits
    to sensitive and nonsensitive U.S. Government facilities.
9
  DoD Directive 2040.2, “International Transfers of Technology, Goods, Services, and Munitions,” is now
in draft as DoD Instruction 2040.2, “International Transfers of Technology, Goods, and Services.”
10
    DUSD(TSP&NDP) was formerly titled the Deputy Under Secretary of Defense for Technology Security
    Policy and Counter Proliferation.


                                                         8
       Require program managers, in coordination with counterintelligence,
       security, and foreign disclosure personnel to:

               x    identify export-controlled technology, foreign national
                    restrictions, and licensing requirements.

               x    identify threats by foreign countries that are targeting the
                    specific technologies.

               x    identify vulnerabilities and countermeasures to protect the
                    export-controlled technology.

       Require program managers and contracting officers to ensure that
       contracts identify the export-controlled technology and contain
       requirements to maintain an access control plan, including unique
       badging technology; perform export compliance training; conduct
       annual self-assessments; and comply with Federal export laws by
       obtaining an export license, other authorized approval or exemption, or
       by safeguarding the technology when contracts involve export-
       controlled technology or information.

Expanding Interim Guidance. The DUSD(TSP&NDP) generally concurred
with this recommendation on February 17, 2004, and later stated that follow-on
draft guidance was issued in August 2004. We examined the draft interim
guidance and found the guidance did address a portion of the recommendation;
however, the guidance did not include procedures that require program managers,
in coordination with counterintelligence, security, and foreign disclosure
personnel, to identify:

       x export-controlled technology, foreign national restrictions, and licensing
         requirements;

       x threats by foreign countries that are targeting the specific technologies;
         and

       x vulnerabilities and countermeasures to protect the export-controlled
         technology.

In addition, the interim guidance was not expanded to require program managers
and contracting officers to conduct annual self-assessments.

On January 17, 2007, a DUSD(TSP&NDP) official stated that his office was
working to include these procedures in the draft interim guidance. On February 2,
2007, a DUSD(TSP&NDP) official told us that the draft interim guidance will not
be issued as a separate memorandum because the guidance will be published in
DoD Instruction 2040.2. However, our recommendation was not incorporated in
either the interim guidance or the Instruction; therefore, we consider this
recommendation open. Further, in this report, we issued a new recommendation
that requests the USD(P) to complete and publish DoD Instruction 2040.2,
because the USD(P) has the responsibility for updating and publishing this
Instruction.
                                          9
      Incorporating Interim Guidance in a DoD Directive. For the second
recommendation, we requested the DUSD(TSP&NDP):

       Incorporate the interim guidance into the revision of DoD Directive
       2040.2, “International Transfers of Technology, Goods, Services, and
       Munitions,” January 1984, to include the roles and responsibilities of
       the program managers, counterintelligence, security, and foreign
       disclosure personnel.

The DUSD(TSP&NDP) generally concurred with this recommendation on
March 25, 2004, and planned to include the interim guidance in DoD
Instruction 2040.2. In August 2004, the DUSD(TSP&NDP) issued interim
guidance.

During this audit, we reviewed the interim guidance and the DoD Instruction;
neither addressed the roles and responsibilities of counterintelligence and foreign
disclosure personnel for controlling the release of technology and technical data.
Also during the audit, a DUSD(TSP&NDP) official reiterated to us on February 2,
2007, that the interim guidance will not be re-issued as a separate memorandum
because the guidance will be published in the revised DoD Instruction.
Regardless, the DoD Instruction did not fully address our recommendation and
remains in draft without a planned completion date. Therefore, this
recommendation remains open.

       Gaining Access to USXPORTS. In addition to the recommendations we
made in FY 2004 to the USD(TSP&NDP), we examined the following two
recommendations addressed to the USD(TSP&NDP) in Report No. D-2006-067,
“Controls Over Exports to China.” Specifically, we recommended on March 30,
2006, that the DUSD(TSP&NDP):
       Grant access privileges to the four DoD organizations currently without
       access to USXPORTS to facilitate reviews of export applications.

       Update the guidance for the export review process to reflect current
       organizations and responsibilities.

Audit Report No. D-2006-067 identified that 4 of the 18 DoD organizations
responsible for reviewing export applications were disconnected from
USXPORTS (USXPORTS is an automated system used by DoD to process
electronic export license data). The audit report recommended that the four
organizations’ access to this system be restored. The DUSD(TSP&NDP) agreed
with our recommendation on March 29, 2006, and stated she would inform users
of USXPORTS, within 60 days of becoming disconnected from the system, of the
need to maintain access.

As of December 21, 2006, we found that DUSD(TSP&NDP) did not inform the
four organizations’ users of the need to maintain access to USXPORTS. A DTSA
official, who reports to the Office of the DUSD(TSP&NDP), suggested we
coordinate with the USD(P) regarding users’ access to USXPORTS. (The
USD[P] is responsible for developing, maintaining, and operating USXPORTS.)

                                         10
We asked a USD(P) official why users at the four organizations were not
informed of the need to maintain access to USXPORTS. The USD(P) official
was unable to provide a reason. He told us that his office did not coordinate with
DTSA when users were dropped from USXPORTS. Therefore, DTSA would not
have known when users of USXPORTS were dropped from the system.

As a result of our discussions with the USD(P) official, we again asked the DTSA
official why users of USXPORTS were not notified of the need to maintain access
to USXPORTS. The DTSA official told us that the organizations were notified,
but he could not provide documentation to show that they were notified. Also, the
DTSA official told us that DTSA could not require organizations to use
USXPORTS. In addition, the DTSA official stated that there were plans to
transfer responsibility for USXPORTS from USD(P) to DTSA; however, he could
not provide the date of transfer. Although the DTSA official could not provide a
date when DTSA would assume the responsibilities for USXPORTS, he told us
that when the transfer occurs his office will modify DoD Instruction 2040.2 to
require users of USXPORTS to maintain access to USXPORTS. As a result, the
recommendation remains open.

        Updating Guidance on the Export Review Process. Our second
recommendation asked DUSD(TSP&NDP) to update guidance on the export
review process to reflect current organizations and responsibilities.
DUSD(TSP&NDP) agreed with this recommendation on March 29, 2006, and
stated that organizational changes would be accurately reflected in the guidance
on the export review process.

We determined that DUSD(TSP&NDP) established draft guidance, but the
guidance was not updated to reflect current DoD organizations and
responsibilities. On November 14, 2006, a DUSD(TSP&NDP) official stated that
the guidance is a draft and the current organizations and responsibilities cannot be
completely determined until the Office of the Secretary of Defense completes its
reorganization. As a result, the recommendation remains open.
Director, Defense Research and Engineering (DDR&E).                The
following two recommendations to DDR&E are in Report No. D-2000-110,
“Export Licensing at DoD Research Facilities,” March 24, 2000.
       Develop an export control program document containing procedures
       for determining if technology or commodities at Defense research
       facilities can be exported, with or without a license, including
       circumstances that may constitute exemptions from requirements of the
       Export Administration Regulations or International Traffic in Arms
       Regulations.

       Mandate training requirements for personnel at Defense research
       facilities on the deemed export licensing requirements of the Export
       Administration Regulations and International Traffic in Arms
       Regulations.




                                        11
        Guidance on Restricted Technology. DDR&E officials stated that the
DUSD(TSP&NDP) issued a memorandum on August 14, 2004, that included a
revised draft policy memorandum and a guide, “Managing Foreign Access:
Implementing DoD Guidance on Restricted Technology.” During this audit, we
found the guide contained procedures for determining whether goods, services,
and technology at DoD research facilities were exportable with or without a
license. In addition, we determined that this guidance is in draft and will be
included in DoD Instruction 2040.2, which will be completed by USD(P) because
the USD(P) has the responsibility for updating and publishing this Instruction.
Therefore, we decided to close our recommendation to the DDR&E and issue a
new recommendation requesting that USD(P) complete and publish DoD
Instruction 2040.2. The new recommendation requests that USD(P) merge
procedures for determining whether goods, services, and technology at DoD
research facilities were exportable with or without a license—procedures already
contained in the draft policy guide, “Managing Foreign Access: Implementing
DoD Guidance on Restricted Technology”—into the DoD Instruction.

        Training Requirements for Defense Research Personnel. For the
second recommendation, a DDR&E official informed us that the training
requirements for personnel at DoD research facilities depend on the content of
yet-to-be-published revisions of the DFARS and DoD Instruction 2040.2. In
addition, DDR&E officials told us that they trained program managers, laboratory
personnel, and security managers on deemed export licensing requirements of the
Export Administration Regulations and the International Traffic in Arms
Regulations.

Our review of the proposed revisions to DFARS and DoD Instruction 2040.2
determined that neither document included a mandate for training personnel at
DoD research facilities on deemed export licensing requirements. As previously
stated, DDR&E officials stated that the DUSD(TSP&NDP) issued a
memorandum on August 14, 2004, that included a revised draft policy
memorandum and a guide, “Managing Foreign Access: Implementing DoD
Guidance on Restricted Technology.”
We found the guide prescribed training for personnel at DoD research facilities on
export licensing requirements. However, on February 2, 2007, a
DUSD(TSP&NDP) official reiterated to us that the interim guidance will not be
issued as a separate memorandum because the guidance will be published in DoD
Instruction 2040.2. As such, our recommendation was not included in the
pending revisions to the DFARS and the Instruction.

Further, we issued a new recommendation that requests the USD(P) to complete
and publish DoD Instruction 2040.2 because, as previously stated, the USD(P) has
the responsibility for updating and publishing this Instruction. Therefore, we
decided to close our recommendation to DDR&E and issue a new
recommendation that requests USD(P) to complete and publish the DoD
Instruction. Completing the Instruction will involve the insertion of a mandate
contained in the draft policy guide, “Managing Foreign Access: Implementing
DoD Guidance on Restricted Technology” for training personnel at DoD research
facilities on deemed export licensing requirements.


                                    12
Director, Defense Technology Security Administration
(DTSA). The DTSA implemented one recommendation but not four others
made in Report No. D-2006-067, “Controls Over Exports to China,”
March 30, 2006. During this audit, we examined DTSA actions to implement the
following five recommendations:
       Prepare written analyses to support decisions on export applications
       and maintain documents in USXPORTS to support those decisions.

       Elevate decisions to the extent possible when the appeal process does
       not produce a decision that supports the national security posture.

       Provide written responsibilities to the senior management control
       official for administering the management control program.

       Maintain documentation of training that managers of operating and
       assessable units receive.

       Adjust the internal management control program to more effectively
       assess internal controls for recording analyses and documentation in
       USXPORTS.

         Documentation for Decisions on Export Applications. In response to
the first recommendation, on May 19, 2006, the Acting DUSD(TSP&NDP)
replied for DTSA:
       We are in general agreement with the proposition that complete
       analysis is a necessary and vital part of the licensing process.
       However, we disagree that inclusion of every facet of analysis
       considered in making a licensing determination is required-or even
       necessary-in every individual case. This is particularly true since
       implementation of a newer, automated license system, USXPORTS.

       All cases that were reviewed for this Report occurred prior to
       USXPORTS deployment. Significant changes have been made to the
       automated license database including:

               x USXPORTS maintains thorough data for each case, e.g.,
                 support documents, technical specification, end-user
                 information, etc;

               x USXPORTS provides an easy way for licensing experts to
                 search for precedent decisions, e.g., cases that involve the
                 same item to the same destination, or the same end user or
                 an item of similar capability to the same country; and

               x USXPORTS now contains complete analytic information
                 for all cases escalated to the Operating Committee, the
                 interagency committee that is the first line of escalation for
                 disputed cases and where most are resolved.


                                        13
            To determine whether the recommendation was implemented, we requested and
            received the files supporting 1,609 and 1,880 applications to export to China for
            calendar years 2005 and 2006, respectively. We found that DTSA made
            recommendations (with conditions) to approve 2,953 export applications and to
            disapprove 385 applications. Those 3,338 applications represented 96 percent of
            the 3,489 applications processed for exports to China in calendar years 2005 and
            2006. 11 According to DTSA officials, the 3,489 applications contained complete
            and timely data.

                            Selection Process for Application Review. We judgmentally
            selected and reviewed 40 of the 3,489 applications that contained requests to
            export sensitive goods, services, and technology such as chemicals and toxins,
            electronics, explosives, sensors, and lasers. The sample of 40 applications had
            closing dates 12 from January 7, 2005, to December 29, 2006. We selected these
            applications because of the potential adverse impact the prospective exports
            would have on regional stability, proliferation of nuclear weapons, use of
            chemical and biological weapons, and national security, if sent to China.

                           Results of Application Review. The review of the application
            files showed that 29 of the 40 files did not contain adequate analysis. In addition,
            39 of the 40 did not have adequate supporting documentation.

                    For example, one file contained an application that recommended approval
            with conditions to export a pulse neutron generator to China. For this item, the
            Export Administration Regulations state that eight factors should be considered
            when determining whether to recommend approval of an application. Those
            factors were:

                     x whether the items to be transferred are appropriate for the stated end use
                       and whether that stated end use is appropriate for the end user,

                     x the significance for nuclear purposes of the particular item,

                     x whether the item can be used in a nuclear reprocessing or enrichment
                       facility,

                     x the types of assurances given that the item will not be used for nuclear
                       explosive purposes or proliferation,

                     x whether any party to the transaction has been engaged in clandestine or
                       illegal procurement activities,

                     x whether an application has previously been denied, or whether the end
                       user has previously diverted items,

11
      The remaining applications were either approved, returned to the applicant without action, or partially
     approved.
12
      DTSA defined “closing date” as the date when it completed work on an application, developed its final
     recommendation for the application, and returned the application to the Department of Commerce.


                                                        14
       x whether the export or re-export would present an unacceptable risk of
         diversion to a nuclear explosive activity or a nuclear fuel-cycle activity,
         and

       x the nonproliferation credential of the importing country.

A review of this application file determined that the analysis and documentation
were inadequate to justify the decision made by DTSA to recommend approval of
this application. Specifically, the file did not include adequate analysis or
documentation for any of the eight factors. Therefore, the file did not support the
recommendation to approve the application. Because 29 of 40 files did not
contain adequate analysis and 39 of 40 lacked documentation, our
recommendation remains open. See Appendix D for the results of our analysis of
the 40 application files we selected for review.

        Decisions To Elevate Recommendations. For our second
recommendation, we suggested that DTSA elevate its recommendations to the
extent possible in the export application appeal process, if the majority of the
representatives from the Departments of Commerce, Energy, and State did not
agree with a DTSA recommendation (DTSA is responsible for recommending
whether to approve export applications for DoD). We selected 11 applications
that DTSA disapproved. One of the 11 was approved (with conditions) by all the
other Departmental representatives. Thus, the majority of the Departments
opposed the DTSA recommendation. Therefore, DTSA had the opportunity to
appeal, but instead changed its recommendation and decided to approve the
application with conditions.

Export Administration Regulations do not require a Department to appeal if the
majority of the other Departments disagree with its recommendation. Also,
Export Administration Regulations allow a Department to add conditions that it
considers appropriate to offset the risk associated with approval of an application.
As a result, our sample did not detect any instances in which DTSA did not use
the appeal process to the extent it considered possible. Therefore, we consider
this recommendation closed.

       Management Control Plan. For the remaining three recommendations,
which pertain to management controls, DTSA agreed with the recommendations
on March 29, 2006, and stated it had adjusted its management control plan to:

        x provide written responsibilities to the senior management control
          official,

        x maintain training documentation for managers of operating and
          assessable units, and

        x more effectively assess internal controls for recording analyses and
          maintaining documentation in USXPORTS.

DTSA provided a draft management control plan that did not meet the intent of
the recommendations. On November 16, 2006, a DTSA official stated that

                                     15
    controls were in place but not written into the draft management control plan
    because of significant personnel turnover. Although he stated that the plan would
    be updated by December 31, 2006, we were unable to obtain this plan before we
    completed the audit. The three recommendations cited above will remain open
    until DTSA updates and approves the management control plan, including the
    requirements of our recommendations.

Effective Process for Following Up on Prior Recommendations
    While the five DoD organizations responsible for managing export activities
    implemented most of the recommendations, they did not establish a fully effective
    process for following up on and implementing all of our recommendations.
    Those organizations had agreed to implement each of our 39 recommendations;
    however, 1 recommendation remained open for almost 7 years.

    DoD Instruction 5010.40, “Managers’ Internal Control (MIC) Program
    Procedures,” January 4, 2006, states that the Managers’ Internal Control Program
    should identify and promptly correct ineffective internal controls. Also, the
    Instruction requires DoD managers to track corrective actions taken to expedite
    prompt resolution of control deficiencies. In addition, the Instruction states that
    the deficiencies identified, whether through internal review or by an external
    audit, should be evaluated and corrected.

    Office of Management and Budget Circular No. A-123, “Management’s
    Responsibility for Internal Control,” December 21, 2004, requires DoD
    Component managers to take prompt and effective actions to correct weaknesses
    in their internal control processes. The Circular states that management must
    make a decision regarding Inspector General audit recommendations within a
    6-month period and complete implementation of management’s decision within
    1 year, to the extent practicable.

    The audit showed that four DoD organizations were not prompt in implementing
    10 of the recommendations. While DoD organizations made improvements in
    export controls and implemented 74 percent of the recommendations, they told us
    that implementation of the remaining recommendations was restricted, in part, by
    the ongoing DoD reorganization, personnel turnover, insufficient numbers of
    personnel, and the formal process for updating the DFARS. However, we
    contend that DoD managers are constantly confronted with constraints on
    resources and with organizational changes and must take action to implement
    audit recommendations to manage risks and improve management processes.

Risks of Not Implementing Export Controls
    Until the recommended controls are implemented, DoD continues to accept
    avoidable risks of exporting sensitive goods, services, and technology that could
    threaten our national security. During this audit, we found that
    10 recommendations remain open. We made 1 of the 10 recommendations in
    FY 2000, 3 in FY 2004, and 6 in FY 2006.

                                        16
Controls Recommended in FY 2000. Our review in FY 2000 recommended that
the USD(P) revise DoD Directive 2040.2 to clearly state policies, procedures, and
responsibilities of DoD and Military Department hosts for determining whether a
deemed export license was required when a foreign national visits a Defense
facility. Such a revision is important because, during the review in FY 2000, we
found that more than 11,000 foreign nationals visited 6 research facilities within
only 2 fiscal years.

Controls Recommended in FY 2004. Our review in FY 2004 recommended that
DUSD(TSP&NDP) expand interim guidance on export controls for biological
agents and include the interim guidance in the DoD Directive. The guidance
should include the roles and responsibilities of program managers and of
counterintelligence, security, and foreign disclosure personnel.

Also, we recommended the USD(AT&L):

     x   develop and include in the DFARS an export clause that requires a
         contractor to comply with Federal export regulations and DoD guidance,

     x   include an export-controlled technology clause in all subcontracts, and

     x   conduct training and self-assessments.

However, until DoD program managers are held accountable for identifying
export-controlled technology and have controls in place to protect the export-
controlled technology, DoD will be at increased risk of other nations’ countering
or reproducing our technology.

Controls Recommended in FY 2006. Most recently, in FY 2006, we
recommended that DTSA:

    x    record its analyses and insert documentation in the USXPORTS database
         to support recommendations made on export applications;

    x    update export guidance to reflect current organizational titles,
         responsibilities, and structure;

    x    grant DoD organizations without access to USXPORTS the access
         needed to facilitate reviews of export applications; and

    x    develop effective management controls.

Our recommendations were intended to help reduce the risk of allowing
unjustified exports to China and to strengthen U.S. actions to maintain regional
stability; hinder proliferation of nuclear, chemical, and biological weapons; and
offset adverse effects on our national security. Until management fully
implements the 10 recommendations, DoD will continue to accept avoidable risks
in exporting sensitive goods, services, and technology that could threaten our
national security.


                                      17
Conclusion
    DoD organizations did implement 74 percent of the recommendations in seven
    reports issued from FY 2000 through FY 2006. However, these organizations
    need to continue taking actions to fully implement the 10 remaining
    recommendations.

    Normally, we request DoD organizations to comment on each recommendation,
    but we received those comments during the audit. Therefore, additional
    comments are not necessary on the prior recommendations. As a result of this
    audit, we are making new recommendations and asking management to comment
    on them.

    We will ask our Report Followup Division to continue to track the status of
    actions taken on the unimplemented recommendations during its periodic reviews.
    The division will monitor the status of the 10 unimplemented recommendations
    shown in Appendix C of this report.




                                      18
Management Comments on the Finding and Audit Response
    USD(AT&L) Comments on the Finding. We issued a draft of this report on
    March 12, 2007. The Director of Defense Procurement and Acquisition Policy
    responded for the Under Secretary of Defense for Acquisition, Technology, and
    Logistics and neither concurred nor nonconcurred with our finding and
    recommendations, but provided comments. For the full text of the comments, see
    the Management Comments section of the report.

    The Director suggested that we edit and augment the finding to reflect the
    procedures involved with updating the Defense Federal Acquisition Regulation
    Supplement (DFARS). In addition, the Director requested clarification on the
    issuance of export guidance, training requirements for DoD research personnel,
    and responsibility for DoD Instruction 2040.2. For full text of the comments, see
    the Management Comments section of the report.

    Audit Response. We considered the Director’s comments related to the process
    for updating the DFARS. In consideration of the Director’s comments, we did
    not see that the addition of an explanation of the process for coordinating changes
    to the Supplement was needed to explain the current status of our
    recommendations. However, we revised the report to clarify our position that the
    proposed clause in the DFARS did not meet the intent of our prior
    recommendation, which requires contractors to conduct initial and periodic
    training and to perform periodic self-assessments on their compliance with
    Federal export laws and regulations. Therefore, the recommendation remains
    open until the clause is revised and published in the DFARS to address our
    recommendation.

    Also, we considered the Director’s comments on the proposed revision to the
    DFARS, related to issuing export guidance to and training of DoD personnel. As
    a result of reviewing those comments, we revised our finding to show that the
    draft policy guide issued by the Deputy Under Secretary of Defense for
    Technology Security Policy and National Disclosure Policy, “Managing Foreign
    Access: Implementing DoD Guidance on Restricted Technology,” should address
    our recommendations on issuing export guidance and training DoD personnel.
    However, the guide is a draft and the policies listed in the guide must be included
    in the revised DoD Instruction 2040.2 and published by USD(P). The
    recommendation remains open until the requirements are addressed in formal
    policy documents.

    In addition, we considered the Director’s comments concerning the responsibility
    for revising DoD Instruction 2040.2. We revised our report and requested that the
    Under Secretary of Defense for Policy complete the revisions and issue the
    Instruction (the Under Secretary of Defense for Policy is responsible for issuing
    DoD Instructions related to international transfers of technology, goods, services,
    and munitions). We acknowledge, but made no change in response to, the
    Director’s comments that no DoD Instruction is numbered 2040.2. The draft DoD
    Instruction 2040.2, “International Transfers of Technology, Goods, and Services,”


                                        19
is replacing DoD Directive 2040.2, “International Transfers of Technology,
Goods, Services, and Munitions.”

Finally, we considered the Director’s comments related to responsiveness in
implementing recommendations. The Director stated that he believed his office’s
procedures for following up on our recommendations were adequate to ensure
timely and responsive actions. However, management actions are still needed to
implement our recommendations in a timely manner since we issued our audit
report on March 25, 2004, and the recommendations remained outstanding as of
March 29, 2007. Until the recommendations are implemented, some DoD
program managers will not be held accountable for identifying and protecting
export-controlled technology, and we will be at increased risk of other nations’
countering or reproducing our technology.

DTSA Comments on the Finding. The Director (Acting) of the Defense
Technology Security Administration nonconcurred with our findings related to
her office. Specifically, the Director disagreed with our use of the policies in the
Export Administration Regulations (EAR) for evaluating her office’s review of
applications to export dual-use (military or civilian use) goods, services, and
technologies. The Director stated that it is the responsibility of the Department of
Commerce, not DoD, to use the EAR as a basis for evaluating export license
applications. Also, the Director disagreed with our finding that her office was
required to document reasons for all recommendations made on export
applications. She commented that a statement of reasons was required only for
recommendations to deny export licenses. In addition, the Director commented
that her office had no statutory or regulatory authority to approve or deny export
applications, merely to recommend a course of action to the licensing department.

Further, she commented that DoD Instruction 2040.2 could not be finalized until
the process for coordinating it within the Department was complete. Also, she
stated that our audit did not consider the steps taken by her office to incorporate
prior audit recommendations, many of which are included in the upcoming
revision of DoD Instruction 2040.2, which has been in process for many months.
For the full text, see DTSA Management Comments on page 37 of this report.

Audit Response. The Director disagreed with our use of the policies identified in
the EAR. However, DoD Directive 5010.38, “Management Control (MC)
Program,” August 26, 1996, states that each DoD field activity (the Defense
Technology Security Administration is a field activity) must implement
management controls that provide reasonable assurance that programs, as well as
administrative and operating functions, are efficiently and effectively carried out
in accordance with applicable laws and management policy, such as the Export
Administration Act (EAA) and the EAR.

The EAA authorizes the Secretary of Commerce to issue policies and procedures
for exporting dual-use items. The Secretary issued those policies and procedures
in EAR for use in controlling and overseeing the export of dual-use items. Those
export policies and procedures are applicable to agencies involved in overseeing,
evaluating, recommending, and approving the requests for exports of sensitive
technologies to countries of concern. Although the EAR does not require the


                                     20
    Audit Response. We agree with the comment by the Director of Defense
    Laboratory Programs about redirecting the responsibility for completing the draft
    DoD Instruction 2040.2 to the Under Secretary of Defense for Policy and adjusted
    the draft of this report accordingly. Also, we made the other changes that the
    Director requested to clarify statements he made during the audit. For instance,
    we adjusted this final report to show that training requirements for personnel at
    Defense research facilities depend on the content of yet-to-be-published revisions
    of the DFARS and DoD Instruction 2040.2. We also adjusted this final report to
    reflect the comments made regarding procedures included in the DFARS and
    DoD Instruction 2040.2.

Recommendations, Management Comments, and Audit
  Response
    For clarity of presentation, we split a single recommendation (Recommendation 1.
    in our draft report) addressed to four organizations with open recommendations
    into four distinct recommendations below (Recommendations 1. through 4.). This
    format highlights each organization’s management comments. Also, we
    renumbered draft Recommendation 2. as Recommendation 2.b.

    1. We recommend that the Under Secretary of Defense for Acquisition,
    Technology, and Logistics establish followup procedures to ensure that
    timely and responsive actions are taken to implement all audit
    recommendations.

    Management Comments. The Director of Defense Procurement and Acquisition
    responded for the Under Secretary of Defense for Acquisition, Technology, and
    Logistics and neither concurred nor nonconcurred with our finding and
    recommendation, but provided comments. Specifically, the Director commented
    that his office’s followup procedures are adequate to ensure timely and responsive
    actions to implement our recommendations. The Director also stated
    implementation will be complete upon publication of the final DFARS rule.

    Audit Response. The Director’s comments were not fully responsive. Timely
    implementation of this recommendation is still needed. We issued our audit
    report on March 25, 2004, and the recommendation remained outstanding on
    March 29, 2007. Therefore, the potential risks we mentioned in our report on
    March 25, 2004, remain. That is, until DoD program managers are held
    accountable for identifying export-controlled technology and have controls in
    place to protect the export-controlled technology, DoD will be at increased risk of
    other nations’ countering or reproducing our technology. In accordance with
    DoD Directive 7650.3, we request that USD(AT&L) reconsider his response and
    send comments by October 29, 2007.

    2. We recommend that the Under Secretary of Defense for Policy:

           a. Establish followup procedures to ensure that timely and responsive
    actions are taken to implement all audit recommendations.


                                        22
      b. Complete and publish DoD Instruction 2040.2, “International
Transfers of Technology, Goods, and Services.”

Management Comments Required. The Under Secretary of Defense for Policy
did not comment on a draft of this report. We request that the Under Secretary of
Defense for Policy provide comments on the final report.

3. We recommend that the Deputy Under Secretary of Defense for
Technology Security Policy and National Disclosure Policy establish followup
procedures to ensure that timely and responsive actions are taken to
implement all audit recommendations.

Management Comments Required. The Deputy Under Secretary of Defense
for Technology Security Policy and National Disclosure Policy did not comment
on a draft of this report. We request that the Deputy Under Secretary of Defense
for Technology Security Policy and National Disclosure Policy provide comments
on the final report by October 29, 2007.

4. We recommend that the Director, Defense Technology Security
Administration establish followup procedures to ensure that timely and
responsive actions are taken to implement all audit recommendations.

Management Comments Required. The Director, Defense Technology Security
Administration did not comment on the recommendation. We request that the
Director, Defense Technology Security Administration provide comments on the
recommendation for the final report by October 29, 2007.




                                   23
Appendix A. Scope and Methodology
   We conducted this performance audit from June 28, 2006, through March 12,
   2007, in accordance with generally accepted government auditing standards.
   Those standards require that we plan and perform the audit to obtain sufficient,
   appropriate evidence to provide a reasonable basis for our findings and
   conclusions based on our audit objectives. We believe that the evidence obtained
   provides a reasonable basis for our findings and conclusions based on our audit
   objectives.

   We reviewed documents such as Executive Orders, Federal laws, and regulations,
   including the Export Administration Act and the associated Export
   Administration Regulations. In addition, we evaluated the adequacy of DoD
   directives, policies, and regulations related to the transfer of militarily sensitive
   technology to countries of concern.

   We interviewed personnel in the following organizations:

          x   Department of Commerce;
          x   Under Secretary of Defense for Acquisition, Technology, and
              Logistics;
          x   Office of the Deputy Under Secretary of Defense for Technology
              Security Policy and National Disclosure Policy;
          x   Director, Defense Research and Engineering; and
          x   Defense Technology Security Administration.

   Our contacts with personnel in these organizations included discussions on the
   implementation of recommendations in the previously issued audit reports.

   We limited our review to open recommendations in audit reports we issued to
   comply with Public Law 106-65. Only DoD IG Reports No. D-2006-067,
   D-2004-061, and D-2000-0110 contained open recommendations.

   To complete this review, we judgmentally selected a sample of 40 export license
   applications from 3,489 export license applications processed in calendar years
   2005 and 2006. We obtained the complete USXPORTS file on each of the
   40 selected applications to determine whether DTSA analysis, documentation,
   and elevation procedures achieved the recommended actions made in DoD IG
   Report No. D-2006-067.

   Use of Computer-Processed Data. USXPORTS is the automated system that
   DTSA uses for processing export applications. We used computer-processed data
   from USXPORTS to identify export license applications for China. Testing the
   reliability of the computer-processed data was not the purpose of this audit; the
   data were used strictly as source documentation. We thoroughly compared the
   contents of each selected export license application with supporting


                                        24
           documentation. Nothing came to our attention as a result of the testing that
           caused us to doubt the reliability of the computer-processed data.

           Use of Technical Assistance. We received technical assistance from the DoD
           Office of Inspector General’s Quantitative Methods Division, which advised us
           on the selection of the sample size.

           Government Accountability Office High-Risk Area. The Government
           Accountability Office has identified several high-risk areas in the Department of
           Defense. This report does not cover any DoD high-risk areas, but this report does
           address the Government Accountability Office’s newly designated Federal
           Government-wide high-risk area of “Ensuring the Effective Protection of
           Technologies Critical to U.S. National Security Interests.” 13




13
     The Government Accountability Office designated this area as being high-risk in January 2007.

                                                     25
Appendix B. Prior Coverage
    During the last 5 years, the Government Accountability Office (GAO) and the
    Department of Defense Inspector General (DoD IG) have conducted multiple
    reviews regarding the adequacy of export controls. Unrestricted GAO reports can
    be accessed over the Internet at http://www.gao.gov. Unrestricted DoD IG reports
    can be accessed at http://www.dodig.mil/audit/reports. The following previous
    reports are of particular relevance to the subject matter in this report.

GAO
    GAO Report No. GAO-01-528, “Export Controls: State and Commerce
    Department License Review Times are Similar,” June 1, 2001

DoD IG
    DoD IG Report No. D-2006-067, “Controls Over Exports to China,” March 30,
    2006

    DoD IG Report No. D-2005-042, “Controls Over the Export Licensing Process
    for Chemical and Biological Items,” March 30, 2005

    DoD IG Report No. D-2004-061, “Export Controls: Export-Controlled
    Technology at Contractor, University, and Federally Funded Research and
    Development Center Facilities,” March 25, 2004

    DoD IG Report No. D-2003-070, “Export Controls: DoD Involvement in Export
    Enforcement Activities,” March 28, 2003

    DoD IG Report No. D-2002-039, “Automation of the DoD Export License
    Application Review Process,” January 15, 2002

    DoD IG Report No. D-2001-088, “DoD Involvement in the Review and Revision
    of the Commerce Control List and the U.S. Munitions List,” March 23, 2001

    DoD IG Report No. D-2000-0110, “Export Licensing at DoD Research
    Facilities,” March 24, 2000

Interagency Reviews
    Inspectors General of the Departments of Commerce, Defense, Energy, State,
    Homeland Security, Agriculture, and the Central Intelligence Agency Report
    No. D-2005-043, “Interagency Review of the Export Licensing Process for
    Chemical and Biological Commodities,” June 10, 2005



                                       26
Inspectors General of the Department of Commerce, Defense, Energy, Homeland
Security, and State and the Central Intelligence Agency Report No. D-2004-061,
“Interagency Review of Foreign National Access to Export Controlled
Technology in the United States,” April 16, 2004

Offices of Inspector General Department of Commerce, Defense, State, and the
Treasury; the Central Intelligence Agency; and the U.S. Postal Service Report
No. D-2003-060, “Interagency Review of Federal Export Enforcement Efforts,”
April 18, 2003

Inspectors General of the Departments of Commerce, Defense, Energy, State, and
the Treasury Report No. D-2002-074, “Interagency Review of Federal Automated
Export Licensing Systems,” March 29, 2002

Inspectors General of the Departments of Commerce, Defense, Energy, and State
Report No. D-2001-092, “Interagency Review of the Commerce Control List and
the U.S. Munitions List,” March 23, 2001

Office of the Inspector General Department of Defense, Office of Intelligence
Review, Report No. 00-OIR-05, “Measures to Protect Against the Illicit Transfer
of Sensitive Technology,” March 27, 2000

Offices of the Inspectors General Departments of Commerce, Defense, Energy,
and State Report No. D-2000-109, “Interagency Review of the Export Licensing
Process for Foreign National Visitors,” March 24, 2000




                                   27
     Appendix C. Status of Prior Recommendations

                             Implementation of Recommendations
                                                             Status of Recommendations
                                                As of June 28, 2006            As of December 21, 2006
                          Recommendation                         Not                              Not
         Report               Number       Implemented      Implemented     Implemented     Implemented
D-2006-0067-D000LS-0001        1.a             0                1               0               1
D-2006-0067-D000LS-0001        1.b             0                1               0               1
D-2006-0067-D000LS-0001        2.a             0                1               0               1
D-2006-0067-D000LS-0001        2.b             0                1               1               0
D-2006-0067-D000LS-0001        2.c             0                1               0               1
D-2006-0067-D000LS-0001        2.d             0                1               0               1
D-2006-0067-D000LS-0001        2.e             0                1               0               1
D-2005-0042-D000LG-0002         1              1                0               1               0
D-2004-0061-D000LG-0001        1.a             0                1               0               1
D-2004-0061-D000LG-0001        1.b             0                1               0               1
D-2004-0061-D000LG-0001        2.a             0                1               0               1
D-2004-0061-D000LG-0001        2.b             1                0               1               0
D-2003-0070-D000LG-0001        A.1             1                0               1               0
D-2003-0070-D000LG-0001        A.2             1                0               1               0
D-2003-0070-D000LG-0001        A.3             1                0               1               0
D-2002-0039-D000LG-0001         1              1                0               1               0
D-2002-0039-D000LG-0001         2              1                0               1               0
D-2002-0039-D000LG-0001         3              1                0               1               0
D-2002-0039-D000LG-0001         4              1                0               1               0
D-2001-0088-D000LG-0001        A.1             1                0               1               0
D-2001-0088-D000LG-0001        A.2             1                0               1               0
D-2001-0088-D000LG-0001        A.3             1                0               1               0
D-2001-0088-D000LG-0002       B.2.a            1                0               1               0
D-2001-0088-D000LG-0002       B.2.b            1                0               1               0
D-2001-0088-D000LG-0002        C.2             1                0               1               0
D-2001-0088-D000LG-0003        B.1             1                0               1               0
D-2001-0088-D000LG-0003        C.1             1                0               1               0
D-2000-0110-D000LA-0001       A.1.a            0                1               1               0
D-2000-0110-D000LA-0001       A.1.b            0                1               0               1
D-2000-0110-D000LA-0001       A.1.c            1                0               1               0
D-2000-0110-D000LA-0001       A.2.a            1                0               1               0
D-2000-0110-D000LA-0001       A.2.b            1                0               1               0
D-2000-0110-D000LA-0001       A.2.c            0                1               1               0
D-2000-0110-D000LA-0001       A.2.d            0                1               1               0
D-2000-0110-D000LA-0002       B.1.a            1                0               1               0
D-2000-0110-D000LA-0002       B.1.b            1                0               1               0
D-2000-0110-D000LA-0002        B.2             1                0               1               0
D-2000-0110-D000LA-0002        B.3             1                0               1               0
D-2000-0110-D000LA-0002        B.4             1                0               1               0
          Total                               25               14              29              10




                                              28
        Appendix D. Assessment of Export Applications

            CY 2005 and CY 2006 Assessment of DTSA Applications for Making Exports to China

                                      Export Control
  Sample         USXPORTS              Classification      Adequate           Adequate
  Number         File Number             Number            Analysis        Documentation        DTSA Recommendation
      1             D347546               2A983               No                  No                      AWC
      2             D337344               1C350               No                  No                      AWC
      3             D344327               3A231               No                  No                      AWC
      4             D340340               6A003               No                  No                      AWC
      5             D333544               1C350               No                  No                      AWC
      6             D333545               1C350               No                  No                      AWC
      7             D329056               6A003               No                  No                      AWC
      8             D337063               1C350               No                  No                      AWC
      9             D342226               6A003               No                  No                      AWC
     10             D331360               6A003               No                  No                      AWC
     11             D322475               6A003               No                  No                      AWC
     12             D340947               1C350               No                  No                      AWC
     13             D348973               2A983               No                  No                      AWC
     14             D332675               6A003               Yes                 No                      AWC
     15             D344183               6A003               No                  No                      AWC
     16             D343704               1C350               No                  No                      AWC
     17             D347548               2A983               No                  No                      AWC
     18             D336673               1C350               No                  No                      AWC
     19             D336321               1C350               No                  No                      AWC
     20             D332824               2A983               No                  No                      AWC
     21             D326299               1C350               No                  No                  Disapproved
     22             D332399               6A003               No                  No                  Disapproved
     23             D332835               6A003               No                  No                  Disapproved
     24             D335081               6A003               Yes                 No                  Disapproved
     25             D335082               6A003               Yes                 No                  Disapproved
     26             D340344               6A003               Yes                 No                  Disapproved
     27             D342044               6A003               Yes                 No                  Disapproved
     28             D345271               6A003               Yes                 No                  Disapproved
     29             D349729               6A003               Yes                 No                  Disapproved
     30             D346795               6A003               Yes                 No                  Disapproved
     31             D363862               1C350               No                  No                      AWC
     32             D359155               1C350               No                  No                      AWC
     33             D357867               1C350               No                  No                      AWC
     34             D367495               2A983               No                  No                      AWC
     35             D361730               2A983               No                  No                      AWC
     36             D368316               2A983               No                  No                      AWC
     37             D364144               3A231               No                  No                      AWC
     38             D360724               3A231               Yes                 No                      AWC
     39             D355231               6A003               N/A                N/A                      RWA
     40             D364201               6A003               Yes                 No                  Disapproved
(The first 30 applications represent Calendar Year (CY) 2005 and the remaining 10 represent CY 2006 applications.) 6A003–
Sensors and Lasers; 1C350–Chemicals and Toxins; 2A983–Explosives; 3A231–Electronics; AWC-Approved With Conditions;
RWA-Returned Without Action; and N/A-Not Applicable.

                                                          29
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Defense Research and Engineering
   Deputy Under Secretary of Defense (Science and Technology)
Under Secretary of Defense for Policy
   Deputy Under Secretary of Defense (Technology Security Policy and National
      Disclosure Policy)
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Intelligence
Assistant to the Secretary of Defense (Nuclear and Chemical and Biological Defense
   Programs)
Director, Program Analysis and Evaluation

Joint Staff
Director, Joint Staff
   Director, Plans and Policy Directorate (J-5), Joint Staff
   Director, Force Structure, Resources, and Assessment Directorate (J-8), Joint Staff

Department of the Army
Inspector General, Department of the Army
Director, Joint Program Executive Office (Chemical and Biological Defense)

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Combatant Command
Inspector General, U.S. Joint Forces Command




                                           30
Other Defense Organizations
Director, Defense Intelligence Agency
Director, Defense Logistics Agency
Director, Defense Security Service
Director, Defense Technology Security Administration
Director, National Security Agency

Non-Defense Federal Organizations
Office of Management and Budget
Inspector General, Department of Agriculture
Inspector General, Department of Commerce
Inspector General, Department of Energy
Inspector General, Department of Health and Human Services
Inspector General, Department of Homeland Security
Inspector General, Department of State
Inspector General, Department of Treasury
Inspector General, Central Intelligence Agency
Inspector General, U.S. Postal Service
U.S.-China Economic and Security Review Commission

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
Senate Select Committee on Intelligence
Senate Committee on Foreign Relations
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security, and Foreign Affairs, Committee on Oversight
  and Government Reform
House Subcommittee on Information Policy, Intergovernmental Relations, and the
  Census, Committee on Government Reform
House Subcommittee on Terrorism, Nonproliferation, and Trade, Committee on Foreign
  Affairs
House Permanent Select Committee on Intelligence
House Subcommittee on Oversight and Investigations
House Committee on Homeland Security


                                         31
Under Secretary of Defense for Acquisition,
Technology, and Logistics Comments
                                              Final Report
                                               Reference




                                              Revised




                                              Revised




                       33
Final Report
 Reference




Revised




Page 22
Deleted


Page 22




               34
Defense Research and Engineering Comments
                                            Final Report
                                             Reference




                                            Revised




                                            Revised




                                            Revised




                     35
Final Report
 Reference




Deleted
Page 11




               36
Defense Technology Security Administration
Comments
                                                Final Report
                                                 Reference




                                             Revised




                      37
Final Report
 Reference




Revised




               38
39
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Readiness and Operations Support prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Wanda A. Scott
Robert F. Prinzbach II
Dennis L. Conway
Jerry H. Adams
Lamar Anderson
Woodrow W. Mack
Gustavo Rivera-Morales
Jerel L. Morton
Norka Murat
Keyla Centeno-Aviles
Gregory S. Fulford
Jacqueline N. Pugh
Allison E. Tarmann
Appendix D. Department of Energy Report




                  D-1
              U.S. Department of Energy
              Office of Inspector General
              Office of Inspections and Special Inquiries




Inspection Report
Review of Status of Prior Export Control
Recommendations at the Department
of Energy




INS-O-07-01                                     May 2007
REVIEW OF STATUS OF PRIOR EXPORT CONTROL
RECOMMENDATIONS AT THE DEPARTMENT OF ENERGY


TABLE OF
CONTENTS
             OVERVIEW

             Introduction and Objectives …………………………….             1

             Observations and Conclusions ………………………… 2


             DETAILS OF FINDINGS

             Background ………………………………………………                        3

             Access to the Commerce Export License Database ..    3

             Export Control Guidance ………………………..……… 4

             Implementation of Recommendation …………….……            5

             Revision to Order 142.3 ……......……….……………… 5


             RECOMMENDATIONS ………………………………...                      6


             MANAGEMENT COMMENTS …………………………                       6


             INSPECTOR COMMENTS …………………………….. 6


             APPENDICES

             A. Scope and Methodology ….………………………… 7

             B. Prior Export Control Related Reports ………….….      8

             C. Status of Recommendations from Prior
                National Defense Authorization Act Reports .…….   9

             D. Management Comments ……………………………                   14
Overview

INTRODUCTION     The National Defense Authorization Act (NDAA) for Fiscal Year
AND OBJECTIVES   2000 provided that beginning in the year 2000 and ending in the
                 year 2007, the President shall annually submit to Congress a report
                 by the Inspectors General of, at a minimum, the Departments of
                 Energy (Energy), Commerce (Commerce), Defense (Defense), and
                 State (State) of the policies and procedures of the United States
                 Government with respect to the export of technologies and
                 technical information with potential military application to
                 countries and entities of concern. To date, the Energy Office of
                 Inspector General (OIG) has issued 7 reports under this
                 requirement and has made 17 recommendations to Energy,
                 including the National Nuclear Security Administration (NNSA),
                 towards improving Energy’s export control efforts. A listing of
                 these and other export related reports is contained in Appendix B.

                 The objective of this inspection was to determine the status of all
                 17 prior export control recommendations. Details on the
                 recommendations and managements’ responses are provided in
                 Appendix C.




Page 1                                           Review of Status of Prior Export
                                                 Control Recommendations at
                                                 the Department of Energy
OBSERVATIONS AND   We concluded that the actions taken by Energy regarding the 14
CONCLUSIONS        closed recommendations appeared to be responsive and that these
                   recommendations should remain closed. We also concluded that
                   two of the three remaining open recommendations should be
                   closed. Finally, we made two additional recommendations based
                   upon this review. Regarding the three open recommendations, we
                   determined that:

                   •   The two recommendations pertaining to NNSA and
                       Commerce’s Export Control Automated Support System
                       should be closed because NNSA has found alternate ways to
                       access the necessary data; and

                   •   The one recommendation to ensure that export control
                       guidance is disseminated and implemented throughout the
                       complex should remain open because it is incomplete.

                   Regarding the two additional recommendations, we determined
                   that:

                   •   NNSA management should expedite action, such as issuing a
                       directive or modifying the Department of Energy Acquisition
                       Regulation (DEAR), to fully implement the open
                       recommendation; and

                   •   Energy Order 142.3, “Unclassified Foreign Visits and
                       Assignments,” should be revised to reflect the current Energy
                       process for reviewing foreign national visitors and assignees
                       from state sponsors of terrorism.

                   Presently, the OIG is conducting an audit of the Department’s
                   unclassified foreign visits and assignments program, which
                   includes issues that were covered in our previous reports and
                   recommendations. The OIG is also conducting an inspection of
                   foreign national access to computers, which also relates to foreign
                   visits and assignment activities. Although our office has
                   conducted several reviews on foreign visitor-related topics, the
                   reviews above may identify additional areas for improvement.




Page 2                                              Observations and Conclusions
Details of Findings

BACKGROUND                           The principal legislative authorities governing the export control of
                                     nuclear-related, dual-use1 items are the Export Administration Act
                                     of 1979 and the Nuclear Non-Proliferation Act of 1978. The
                                     provisions of the Export Administration Act have been updated by
                                     Executive Order, most recently by Executive Order 12981, which
                                     grants the Secretary of Commerce the authority to refer export
                                     license applications to other agencies for review and gives
                                     agencies such as Energy the authority to look at any export license
                                     application submitted to Commerce.

                                     Energy’s export control efforts, as coordinated by NNSA’s Office
                                     of International Regimes and Agreements (OIRA), includes the
                                     review of export license applications for nuclear, chemical,
                                     biological, and missile-related commodities. In addition to
                                     reviewing licenses, OIRA participates in working level groups
                                     with other Federal agencies for licensing and nonproliferation
                                     activities. Also, Energy’s Office of Foreign Visits and
                                     Assignments establishes Energy policies for the review and
                                     processing of visits and assignments by foreign nationals to Energy
                                     and NNSA facilities. Reviews of foreign visits and assignments
                                     are relevant to Energy’s export control efforts because any release
                                     of technology or software subject to U.S. Export Administration
                                     Regulations to a foreign national is “deemed to be an export” to the
                                     foreign national’s home country.

ACCESS TO THE                        We determined that the two recommendations pertaining to NNSA
COMMERCE EXPORT                      and Commerce’s Export Control Automated Support System
LICENSE DATABASE                     should be closed because NNSA has found alternate ways to
                                     access the necessary data.

                                     During March 2005, we issued a report entitled “The Department of
                                     Energy’s Review of Chemical and Biological Export License
                                     Applications,” DOE/IG-0682, which had two recommendations
                                     regarding access to and training on Commerce’s Export Control
                                     Automated Support System (ECASS). We had determined that
                                     although information from ECASS was obtained by officials at the
                                     Los Alamos National Laboratory for Energy’s export license
                                     reviews, only one OIRA Headquarters official had access to ECASS
                                     and no OIRA Headquarters officials were trained in ECASS. We
                                     were advised by OIRA officials during 2005 that a lack of direct
                                     access to and training in ECASS was a problem for the timely and

1
    Some controlled commodities are designated as “dual-use,” that is, goods and technologies that have both civilian
    and military uses. The U.S. Government designates some dual-use commodities as “nuclear dual-use” items,
    which are controlled for nuclear nonproliferation purposes.



Page 3                                                                                      Details of Findings
                 efficient review of export licenses by OIRA Headquarters officials.
                 Accordingly, we made the ECASS recommendations. Both
                 recommendations remained open when we initiated this review.

                 Since these two recommendations were made, OIRA Headquarters
                 officials have made continual efforts to receive access to and
                 training on ECASS. Although Commerce has provided access to
                 ECASS, access has not been effective because of recurring
                 problems in maintaining connectivity with ECASS by OIRA
                 Headquarters. We were advised by OIRA officials that these
                 connectivity problems resulted from computer system changes at
                 Commerce. OIRA officials further advised that they have not
                 received ECASS training; however, due to the lack of connectivity,
                 the training was not currently a concern. Because of these
                 connectivity problems, OIRA Headquarters officials employed
                 other means to obtain the information needed to conduct timely
                 and effective export license reviews. Specifically, OIRA
                 Headquarters officials obtained initial export license application
                 information through the link to ECASS at the Los Alamos National
                 Laboratory and obtained any further export license information on
                 specific cases through formal and informal means, such as through
                 its participation in various interagency groups and periodic contact
                 with Commerce officials.

                 Accordingly, OIRA Headquarters officials have been able to
                 obtain the information necessary for them to conduct their required
                 reviews in a timely and effective manner without having access to
                 and training on ECASS. OIRA officials advised us that they will
                 continue to pursue ECASS connectivity and training. However, as
                 discussed above, the recommendations requiring access to and
                 training on ECASS have become of limited additional value to
                 OIRA’s export license review process. Based upon our current
                 review, we closed these two open recommendations.

EXPORT CONTROL   We determined that the one recommendation to ensure that export
GUIDANCE         control guidance is disseminated and implemented throughout the
                 complex should remain open because it is incomplete.

                 During April 2004, we issued a report entitled “Contractor
                 Compliance with Deemed Export Controls,” DOE/IG-0645, which
                 recommended that NNSA ensured that export control guidance,
                 including deemed export guidance, was disseminated and
                 consistently implemented throughout Energy. Although NNSA
                 management had taken some action regarding this



Page 4                                                         Details of Findings
                    recommendation, it had not been fully implemented when we
                    initiated this review.

IMPLEMENTATION OF   We determined that NNSA management should expedite action,
RECOMMENDATION      such as issuing a directive or modifying the DEAR, to fully
                    implement the open recommendation to ensure that export control
                    guidance is disseminated and consistently implemented throughout
                    the Energy complex.

                    Based upon our prior recommendation, OIRA initiated several
                    export control site reviews and determined that some contractors
                    lacked funds and staff to consistently implement the existing
                    informal guidance that had been prepared by OIRA in 1999. Also
                    based upon this recommendation, OIRA revised existing informal
                    export control guidance for dissemination throughout the Energy
                    complex. However, Energy and NNSA General Counsel officials
                    informed OIRA that issuing revised informal guidance would not be
                    the most effective way to ensure consistent export control
                    compliance across the Energy complex. OIRA was informed that a
                    formal order or possible modification to the DEAR would be more
                    effective ways to ensure compliance with export control
                    requirements by all Energy and NNSA contractors.

                    OIRA prepared a justification for issuing a formal order on export
                    controls, which is currently under NNSA management review.
                    NNSA is also considering a modification to the DEAR as an
                    alternative to issuing an order. We believe that a directive or
                    modification to the DEAR would be effective ways to implement
                    our recommendation. We, therefore, recommend that NNSA
                    management expedite action, such as issuing a directive or
                    modifying the DEAR, to implement our prior recommendation.

REVISION TO         We determined that Energy Order 142.3, “Unclassified Foreign
ORDER 142.3         Visits and Assignments,” should be revised to reflect the current
                    Energy process for reviewing foreign national visitors and assignees
                    from state sponsors of terrorism. Our prior recommendations
                    concerning Energy policy for unclassified foreign visits and
                    assignments were closed as a result of the issuance of Order 142.3 and
                    will remain closed. However, the process listed in Order 142.3 states
                    that all access requests for nationals of countries designated as state
                    sponsors of terrorism to unclassified Energy programs, information
                    and technology be reviewed by a Headquarters Management Panel.
                    The Panel consisted of the Directors of the Energy Offices of Security,
                    Counterintelligence, and Intelligence, and representatives designated



Page 5                                                            Details of Findings
                  by the Under Secretary of Energy, Science and Environment and the
                  Under Secretary for Nuclear Security/Administrator for the NNSA.
                  Since the issuance of this order, Energy reorganized and has a
                  structure with three Under Secretaries: the Under Secretary for
                  Energy; the Under Secretary for Science; and the Under Secretary for
                  Nuclear Security/Administrator for the NNSA. Additionally, the
                  Offices of Intelligence and Counterintelligence were consolidated into
                  a single Office of Intelligence and Counterintelligence. Consolidation
                  of these offices has not substantively affected the review process;
                  however, based upon an administrative change to existing Order 142.3,
                  representatives of all three Under Secretaries are now part of the panel.

                  An Office of Foreign Visits and Assignments official advised that
                  the parties involved in the review process determined that it was of
                  little value for representatives of all three Under Secretaries to
                  participate in every panel review. The official advised that, instead,
                  the current practice is to have access requests reviewed by the Office
                  of Security, the Office of Intelligence and Counterintelligence, and
                  the Under Secretary with cognizance over the program requesting
                  access. The official advised that Order 142.3 should be revised to
                  reflect the current practice of involving only the cognizant Under
                  Secretary in a panel review. Based on the above, we recommend
                  that Order 142.3 be revised to reflect Energy’s actual practice.

RECOMMENDATIONS   We recommend that the Deputy Administrator, Defense Nuclear
                  Nonproliferation:

                  1. Expedite actions, such as issuing a directive or modifying the
                     DEAR, to ensure compliance with export control requirements
                     throughout the Energy complex.

                  We recommend that the Chief Health, Safety and Security Officer:

                  2. Revise Order 142.3 to reflect the actual process for reviewing
                     access requests for nationals of state sponsors of terrorism.

MANAGEMENT        In comments on our draft report, management agreed with our
COMMENTS          recommendations and identified timelines for completing
                  corrective actions. The comments from both organizations are
                  included in their entirety at Appendix D.

INSPECTOR         We found management’s comments to be responsive to our report
COMMENTS          recommendations.



Page 6                                                        Recommendations,
                                                              Management and
                                                              Inspector Comments
Appendix A

SCOPE AND     We conducted fieldwork for this review in January and
METHODOLOGY   February 2007. We interviewed Federal and contractor Energy
              officials, including NNSA employees and contractors. We also
              reviewed relevant export control regulations and Energy policies
              relevant to export controls. As part of our review, we evaluated
              Energy’s implementation of the “Government Performance Results
              Act of 1993.”

              This inspection was conducted in accordance with the “Quality
              Standards for Inspections” issued by the President’s Council on
              Integrity and Efficiency.




Page 7                                               Scope and Methodology
Appendix B

                  PRIOR EXPORT CONTROL RELATED REPORTS

•    “The Department of Energy’s Review of Export License Applications for China,”
     DOE/IG-0723, April 2006;

•    “The Department of Energy’s Review of Chemical and Biological Export License
     Applications,” DOE/IG-0682, March 2005;

•    “Contractor Compliance with Deemed Export Controls,” DOE/IG-0645, April 2004;

•    “Safeguards Over Sensitive Technology,” DOE/IG-0635, January 2004;

•    “Inspection of Status of Recommendations from the Office of Inspector General’s March
     2000 and December 2001 Export Control Reviews,” INS-L-03-07, May 2003;

•    “The Department’s Unclassified Foreign Visits and Assignments Program,”
     DOE/IG-0579, December 2002;

•    “Follow-up Inspection of the Department of Energy’s Export Licensing Process for
     Foreign National Visits and Assignments,” INS-L-02-06, June 2002;

•    “Inspection of the Department of Energy’s Automated Export Control System,”
     DOE/IG-0533, December 2001;

•    “Inspection of the Department of Energy’s Role in the Commerce Control List and the
     U.S. Munitions List,” INS-O-01-03, March 2001;

•    “Inspection of the Department of Energy’s Export License Process for Foreign National
     Visits and Assignments,” DOE/IG-0465, March 2000;

•    “The Department of Energy’s Export Licensing Process for Dual-Use and Munitions
     Commodities,” DOE/IG-0445, May 1999; and

•    “Report on Inspection of the Department’s Export Licensing Process for Dual-Use and
     Munitions Commodities,” DOE/IG-0331, August 1993.




Page 8                                              Prior Export Control Related Reports
Appendix C


                   STATUS OF RECOMMENDATIONS FROM PRIOR
                 NATIONAL DEFENSE AUTHORIZATION ACT REPORTS

Section 1204 of the National Defense Authorization Act (NDAA) for Fiscal Year 2001 amended
Section 1402(b) of the NDAA for Fiscal Year 2000 to require the specified Office of Inspectors
General (OIGs) to include in each annual report the status of the implementation or other
disposition of recommendations that have been set forth in previous annual reports under Section
1402(b). To date, seven reports have been completed by the Energy OIG under this requirement.
Two reports: “Inspection of Status of Recommendations from the Office of Inspector General’s
March 2000 and December 2001 Export Control Reviews,” INS-L-03-07, May 2003, and
“Inspection of the Department of Energy’s Role in the Commerce Control List and the U.S.
Munitions List,” INS-O-01-03, March 2001, did not contain recommendations. The following is
the status of the recommendations from the other five reports. Of 17 total recommendations, 14
have already been closed and the remaining 3 are to be closed as a result of this current report.

“The Department of Energy’s Review of Export License Applications for China,” DOE/IG-
0723, April 2006

Recommendation 1. We recommended that the Deputy Administrator, Defense Nuclear
Nonproliferation expedite the development and implementation of the new Lawrence Livermore
National Laboratory database for processing end-user reviews.

Energy management stated that the end-user database at the Lawrence Livermore National
Laboratory is up and running to support all new incoming export license applications received
from Commerce. This database is being enhanced to help ensure a complete search capability
for entities by incorporating standard names for the facilities names. The Energy OIG agreed to
close this recommendation.

Recommendation 2. We recommended that the Deputy Administrator, Defense Nuclear
Nonproliferation coordinate with the Director, Office of Intelligence and Counterintelligence
ensure personnel affiliated with the Office of Defense Nuclear Nonproliferation who conduct
export license reviews have continual access to Sensitive Compartmented Information computers
and be able to hand carry Sensitive Compartmented Information documents.

Energy management stated that both offices have met and coordinated regarding this
recommendation. Access has subsequently been granted to contractor staff affiliated with the
Office of Defense Nuclear Nonproliferation to use Sensitive Compartmented Information
computers and hand carry Sensitive Compartmented Information. The Energy OIG agreed to
close this recommendation.




Page 9                                                     Status of Recommendations from
                                                           Prior National Defense
                                                           Authorization Act Reports
“The Department of Energy’s Review of Chemical and Biological Export License
Applications,” DOE/IG-0682, March 2005

Recommendation 1. We recommended that the Deputy Administrator, Defense Nuclear
Nonproliferation take appropriate action to ensure that Energy licensing officers have access to
the Department of Commerce’s Export Control Automated Support System (ECASS).

As discussed in the findings section of this report, we are closing this recommendation.

Recommendation 2. We recommended that the Deputy Administrator, Defense Nuclear
Nonproliferation take appropriate action to ensure that Energy licensing officers are properly
trained in the use of this system.

As discussed in the findings section of this report, we are closing this recommendation.

“Contractor Compliance with Deemed Export Controls,” DOE/IG-0645, April 2004

Recommendation 1. We recommended that the Director, Office of Security and Safety
Performance Assurance expedite issuance of a draft unclassified foreign visits and assignments
Order 142.X that addresses training requirements and responsibilities for hosts of foreign
nationals.

Energy management reported that Energy Order 142.3 was approved on June 18, 2004. The
Energy OIG determined that Energy Order 142.3 included training requirements and
responsibilities for hosts of foreign nationals and agreed to close this recommendation.

Recommendation 2. We recommended that the Deputy Administrator, Defense Nuclear
Nonproliferation ensure that export control guidance, including deemed export guidance, is
disseminated and is being consistently implemented throughout the Energy complex.

As discussed in the findings section of this report, this recommendation will remain open.

“Inspection of the Department of Energy’s Automated Export Control System,”
DOE/IG-0533, December 2001

Recommendation 1. We recommended that the Assistant Deputy Administrator for Arms
Control and Nonproliferation coordinate with the Departments of Commerce and Treasury to
ensure access by Energy to information within the Automated Export System regarding the
purchase and/or shipment of commodities under an approved export license, and develop
guidelines for Energy’s access to the information.

Energy management reported that the National Nuclear Security Administration (NNSA) has
taken actions as far as its cognizant authority allows. All remaining actions are contingent on


Page 10                                                     Status of Recommendations from
                                                            Prior National Defense
                                                            Authorization Act Reports
other Government agencies. NNSA recommended that the interagency OIG group involved with
export controls make specific recommendations to individual agencies in order to effect change.
While actions are not completed, NNSA can no longer report meaningful status. The Energy
OIG agreed to close this recommendation.

Recommendation 2a. We recommended that the Assistant Deputy Administrator for Arms
Control and Nonproliferation coordinate with State to improve communications regarding review
of export license applications for munitions commodities.

Energy management reported that NNSA has taken actions as far as its cognizant authority
allows. All remaining actions are contingent on other Government agencies. NNSA
recommended that the interagency OIG group involved with export controls make specific
recommendations to individual agencies in order to effect change. While actions are not
completed, NNSA can no longer report meaningful status. The Energy OIG agreed to close this
recommendation.

Recommendation 2b. We recommended that the Assistant Deputy Administrator for Arms
Control and Nonproliferation coordinate with State to ensure access by Energy to information
maintained by State regarding final disposition (i.e., approval/denial of license applications and
the purchase and/or shipment of commodities) of export license applications and develop
guidelines for Energy’s access to the information.

Energy management reported that NNSA has taken actions as far as its cognizant authority
allows. All remaining actions are contingent on other Government agencies. NNSA
recommended that the interagency OIG group involved with export controls make specific
recommendations to individual agencies in order to effect change. While actions are not
completed, NNSA can no longer report meaningful status. The Energy OIG agreed to close this
recommendation.

“Inspection of the Department of Energy’s Export License Process for Foreign National
Visits and Assignments,” DOE/IG-0465, March 2000

Recommendation 1. We recommended that the Acting Deputy Administrator for Defense
Nuclear Nonproliferation ensure that senior Energy officials work with senior Commerce
officials to assure clear, concise, and reliable guidance is obtained in a timely manner from
Commerce regarding the circumstances under which a foreign national’s visit or assignment to
an Energy site would require an export license.

Energy management was advised by the Commerce Assistant Secretary for Export
Administration that extensive guidance regarding compliance with the deemed export rule was
available on the Commerce Web site and that Commerce would continue to strengthen its
outreach training programs for Energy’s National Laboratories. The Energy OIG agreed to close
this recommendation.


Page 11                                                      Status of Recommendations from
                                                             Prior National Defense
                                                             Authorization Act Reports
Recommendation 2. We recommended that the Director, Office of Security and Emergency
Operations ensure that a proposed revision of the Energy Notice concerning unclassified foreign
visits and assignments includes the principal roles and responsibilities for hosts of foreign
national visitors and assignees.

Energy management reported that Energy Order 142.3 was approved on June 18, 2004. The
Energy OIG determined that Energy Order 142.3 included the principal roles and responsibilities
for hosts of foreign national visitors and assignees and agreed to close this recommendation.

Recommendation 3. We recommended that the Director, Office of Security and Emergency
Operations, include a requirement for Energy and Energy contractor officials to enter required
foreign national visit and assignment information in the Foreign Access Records Management
System, or a designated central database, in a complete and timely manner.

Energy management reported that a new Energy-wide information system, the Foreign Access
Centralized Tracking System (FACTS), was developed and implemented. Energy management
further advised that draft Order 142.X includes a requirement for Energy sites to enter required
foreign national visit and assignment information into FACTS in a complete and timely manner.

Because Energy management’s corrective action addressed usage of FACTS by all Energy
Federal and contractor employees, the Energy OIG agreed to close this recommendation and
track this issue under recommendation 8.

Recommendation 4. We recommended that the Manager of Energy’s Oak Ridge Operations
Office ensure that requests for foreign national visits and assignments at the Oak Ridge site are
reviewed by the Y-12 National Security Program Office to assist in identifying those foreign
nationals who may require an export license in conjunction with the visit or assignment.

Energy management reported that, to ensure requests for foreign national visits and assignments
at the Oak Ridge National Laboratory receive appropriate export license consideration, Oak
Ridge National Laboratory initiated a system of reviews. Under the system, requests are
reviewed by five separate disciplines (Cyber Security, Export Control, Classification,
Counterintelligence, and Security). In addition, requests associated with concerns are referred
for resolution to the Non-citizen Access Review Committee. Energy management further
reported that while each of the reviews can involve the National Security Program Office, the
Oak Ridge National Laboratory Export Control Officer is responsible for referring requests to
the National Security Program Office as necessary. The Energy OIG agreed to close this
recommendation.

Recommendation 5. We recommended that the Director, Office of Security and Emergency
Operations ensure that the requirements in the revised Energy Notice for unclassified foreign
national visits and assignments are clearly identified and assigned to responsible officials or
organizations.


Page 12                                                      Status of Recommendations from
                                                             Prior National Defense
                                                             Authorization Act Reports
Energy management reported that Energy Order 142.3 was approved on June 18, 2004. The
Energy OIG determined that Energy Order 142.3 included clear identification of requirements
for foreign national visits and assignments, and identifies responsible officials and organizations
and agreed to close this recommendation.

Recommendation 6. We recommended that the Acting Deputy Administrator for Defense
Nuclear Nonproliferation ensure that guidance issued by the Office of Nuclear Transfer and
Supplier Policy to advise hosts of their responsibilities regarding foreign nationals includes the
appropriate level of oversight to be provided by the host during the period of the visit or
assignment.

Energy management reported that DOE Order 142.3 was approved on June 18, 2004. The
Energy OIG determined that Energy Order 142.3 included the principal roles and responsibilities
for hosts of foreign national visitors and assignees and agreed to close this recommendation.

Recommendation 7. We recommended that the Director, Office of Security and Emergency
Operations revise the Energy policy regarding foreign national visits and assignments to ensure
that Energy sites are maintaining consistent information about foreign nationals visiting or
assigned to work at the site.

Energy management reported that DOE Order 142.3 was approved on June 18, 2004. The
Energy OIG determined that Energy Order 142.3 included the requirement for documentation in
FACTS for all visit and assignment requests in a timely manner and agreed to close this
recommendation.

Recommendation 8. We recommended that the Director, Office of Security and Emergency
Operations require that all Energy sites with foreign national visitors or assignees enter
information regarding the visits or assignments into Foreign Access Records Management
System, or a designated central Energy database.

Energy management reported that DOE Order 142.3 was approved on June 18, 2004. The
Energy OIG determined that Energy Order 142.3 included the requirement that all sites having
foreign national visitors or assignees are required to enter information regarding the visits and
assignments into FACTS and agreed to close this recommendation.




Page 13                                                       Status of Recommendations from
                                                              Prior National Defense
                                                              Authorization Act Reports
Appendix D




Page 14      Management Comments
Appendix D




Page 15      Management Comments
                                                                    IG Report No. INS-O-07-01

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith at (202) 586-7828.
This page intentionally left blank.
      Appendix E. Department of State Report




Important Notice

Text Box: This report is intended solely for the official use of the
Department of State or the Broadcasting Board of Governors, or any
agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or
in part, outside the Department of State or the Broadcasting Board of
Governors, by them or by other agencies or organizations, without prior
authorization by the Inspector General. Public availability of the
document will be determined by the Inspector General under the U.S. Code
5 U.S.C. 552. Improper disclosure of this report may result in
criminal, civil, or administrative penalties.




                                  E-1
                                         UNCLASSIFIED




                         United States Department of State
                      and the Broadcasting Board of Governors


                                   Office of Inspector General

                                        Office of Audits


                              Compliance Follow-Up Review
                                  on Export Controls


                         Report Number AUD/IP–07-44, August 2007




This report is intended solely for the official use of the Department of State or any agency receiving the report
directly from the Office of Inspector General. No secondary distribution may be made outside the Department of
State or by other agencies or organizations in whole or in part, without prior authorization by the Inspector
General. Public availability of the document will be determined by the Inspector General under the U.S. Code 5
U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                                         UNCLASSIFIED
                                    UNCLASSIFIED


                                       Summary
        The Department of State Office of Inspector General (OIG) found, based on its
review, that the Bureau of Political-Military Affairs, Directorate of Defense Trade
Controls (PM/DDTC), had implemented 28 of the 29 recommendations contained in OIG
reports on export controls issued from 2000 to 2006. OIG’s recommendation from its
2006 report that PM/DDTC should establish performance measures that detail
benchmarks and timeframes for reducing and eliminating the number of unfavorable
post-license end-use checks remains unresolved. Nevertheless, PM/DDTC stated that
over the next year it would consider whether such measures, along with time-lines and
benchmarks, would be of value in its compliance and licensing functions. As a result,
this recommendation will remain unresolved until PM/DDTC makes its final
determination.
                                     Background
        In response to requirements of Section 1402 of the National Defense
Authorization Act (NDAA) for FY 2000, 1 the Inspectors General of the Departments of
Commerce, Defense, Energy, Homeland Security, and State, in consultation with the
Director of Central Intelligence and the Director of the Federal Bureau of Investigation,
are required to conduct an annual review through 2007 to assess the adequacy of current
export controls and counterintelligence measures to prevent the acquisition of sensitive
U.S. technology and technical information by countries and entities of concern. The
Offices of Inspector General of these agencies conduct both agency-specific and
interagency reviews.

        Sound export controls and licensing operations are essential to preventing the
spread of weapons of mass destruction technologies and to provide conventional
technologies only to those entities that will use them responsibly. The Department
registers U.S. companies and universities and issues licenses for the export of defense
articles and defense services, including sensitive technical information, on the U.S.
Munitions List (USML). PM/DDTC is responsible for controlling the export and
temporary import of defense articles and defense services covered by the USML. A
primary responsibility is to take final action on license applications for defense trade
exports and for addressing matters related to defense trade compliance, enforcement, and
reporting.

        The Arms Export Control Act (AECA), as amended in 1996, 2 requires the
President to establish a program for end-use monitoring of defense articles and services
sold or exported under the provisions of the AECA and the Foreign Assistance Act. 3 The
requirement states that, to the extent practicable, end-use monitoring programs should
provide reasonable assurance that recipients comply with the requirements imposed by
the U.S. government on the use, transfer, and security of defense articles and services. In


1
  Public Law 106-65.
2
  22 U.S.C. 2785.
3
  22 U.S.C. 2151.


                                    UNCLASSIFIED
                                     UNCLASSIFIED

addition, monitoring programs, to the extent practicable, are to provide assurances that
defense articles and services are used for the purposes for which they are provided.

        To comply with the AECA, PM/DDTC conducts end-use monitoring of the
commercial export of defense articles, services, and related technical data. End-use
monitoring refers to the procedures used to verify that foreign recipients of controlled
U.S. exports use such items according to U.S. terms and conditions of transfer.
PM/DDTC’s end-use monitoring is conducted through the “Blue Lantern” Program and
entails an in-depth review either before (prelicense) or after (postlicense) the license is
issued. U.S. embassy or, in some cases, PM/DDTC personnel conduct end-use checks
abroad to verify the specific use and recipient of commercial defense exports and
transfers controlled under the AECA.


                       Objective, Scope, and Methodology

        To comply with the requirements of the NDAA for FY 2007, the overall objective
of the Inspectors General, as defined in the Interagency Implementation Agreement, was
to determine whether management had effectively addressed recommendations contained
in export control reports required by the NDAA and that were issued between 1999 and
2007. The 2007 report will contain the results of reviews performed by the Inspectors
General of the Departments of Commerce, Defense, Energy, Homeland Security, State,
Treasury, United States Postal Service, and the Central Intelligence Agency. The
Department of State’s objective was to follow up on prior recommendations that
remained open and determine the actions needed to implement the recommendations.

        To achieve its objective, OIG reviewed the status of each recommendation
contained in its export control reports issued from 2000 to 2006. (The reports and the
status of each recommendation are detailed in the Results of Audit section of this report.)
Additionally, OIG obtained and reviewed current PM/DDTC licensing policies and
procedures, conducted interviews with appropriate staff, and reviewed applicable
documentation and system checks. OIG also evaluated the Bureau Performance Plans for
FYs 2006 and 2008. Finally, OIG discussed the status of each report recommendation
with PM/DDTC officials.

        To guide OIG’s determination for the resolution of audit findings and
recommendations, OIG examined guidance from the Government Accountability Office
(GAO) concerning the definition of “Open Recommendation” and the standard in regard
to the length of time that a recommendation should remain open. Additionally, OIG’s
Office of Audits (AUD) Manual, July 2006, Chapter 19, “Audit Resolution,” defines
AUD’s policies and procedures for the resolution of audit findings and recommendations.

       OIG’s Office of Audits, International Programs Division, conducted this review
from November 2006 through July 2007 in the Washington, DC, area. OIG performed
this work in accordance with government auditing standards and included such tests and
auditing procedures that were considered necessary under the circumstances.


                                   UNCLASSIFIED                                               2
                                          UNCLASSIFIED


                                             Results of Audit
       Based on its review of the audit reports it had issued from 2000 to 2006 on export
controls, OIG determined that 28 of the 29 recommendations contained in six reports
(one report did not have any recommendations) 4 had been implemented. The one
remaining recommendation is unresolved because PM/DDTC officials stated that they
would consider, over the next year, whether to implement the recommendation.

Reports With All Recommendations Closed
    All of the recommendations contained in the reports below are considered closed as
follows:

      x    “Department of State Controls Over the Transfer of Military Sensitive
           Technologies to Foreign Nationals From Countries and Entities of Concern” (00-
           CI-008), issued in March 2000, contained three recommendations relating to the
           transfer of military sensitive technologies to foreign nationals. OIG found that all
           of the recommendations had been implemented.

      x    “U.S. Munitions List and the Commodity Jurisdiction Process” (01-FP-M-027),
           issued in March 2001, contained seven recommendations relating to the USML
           and the commodity jurisdiction process. OIG found that all of the
           recommendations had been implemented.

      x    “Streamlined Processes and Better Automation Can Improve Munitions License
           Reviews” (IT-A-02-02), issued in March 2002, contained four recommendations
           relating to improving the munitions license reviews. OIG found that all of the
           recommendations had been implemented.

      x    “Review of End-Use Monitoring of Munitions Exports” (AUD/PR-03-31), issued
           in March 2003, contained nine recommendations relating to end-use monitoring
           of munitions exports. OIG found that all of the recommendations had been
           implemented.

      x    “Review of Export Controls for Foreign Persons Employed at Companies and
           Universities” (AUD/PR-04-24), issued in April 2004, contained four
           recommendations relating to export controls for foreigners employed at
           companies and universities. OIG found that all of the recommendations had been
           implemented.

Report With Unresolved Recommendation
       OIG’s report “Review of Export Controls” (AUD/IP-07-01), issued in October
2006, found that although PM/DDTC had followed its policies and procedures before

4
    “Export Licensing of Chemical and Biological Commodities” (AUD/PR-05-29), issued in April 2005.


                                        UNCLASSIFIED                                                  3
                                    UNCLASSIFIED

issuing a license, there were instances in which its end-use check, conducted either before
or after a license was issued, resulted in “unfavorable determinations.” Unfavorable
means that PM/DDTC had found derogatory, incomplete, or inaccurate information in the
license application or there was a violation of export control policies and procedures.
OIG discussed its report findings and proposed recommendations with PM/DDTC
officials before it issued its draft report. OIG then provided a copy of the draft report to
PM/DDTC officials, who reviewed the draft but did not provide comments on it.
Subsequently, in an October 6, 2006, memorandum to OIG, PM/DDTC officials stated
that they were “fully consider[ing]” the report’s two recommendations. As a result, both
recommendations were considered unresolved, which required OIG to follow up on the
recommendations to determine their statuses.

       Recommendation Closed

         OIG recommended (Recommendation 1) that PM/DDTC reassess its licensing
policies and procedures and report to OIG within 60 days of report issuance the changes
it will make to reduce and eliminate unfavorable post-license end-use checks.

       PM/DDTC, in a May 14, 2007, e-mail to OIG, said that it was “always willing to
consider any recommendation that would improve [its] licensing and compliance
functions.” Its response provided a summary of “new and continuing” initiatives “to
improve upon [its] work product” as follows:

   x   Education and Training

        - PM/DDTC said that management from all of its divisions provide periodic
training to incoming and current licensing staff “to help understand end-use monitoring
and identify potential cases” and that in 2006 it had issued an updated Blue Lantern
Guidebook.

        - PM/DDTC also said that U.S. government staff and management participated in
educational outreach efforts with federal law enforcement and intelligence communities
that had “led to the establishment of better working relationships among staff and
organizations.”

        - PM/DDTC said that staff from the Research and Analysis Division (RAD), the
division that implements the Blue Lantern end-use program, had visited over 20 countries
in Europe, Asia, Latin America, and the Middle East to educate these governments on
U.S. end-use monitoring and to improve their support to U.S. embassy officials. Also,
PM/DTCC staff and management participate in forums on public training and education,
including the Blue Lantern Program.




                                  UNCLASSIFIED                                            4
                                   UNCLASSIFIED


   x   Personnel

       - PM/DTCC said that each licensing division has a compliance specialist from
RAD who performs compliance duties and that RAD has added another contractor to its
staff.

   x   Information Technology (IT)

       - PM/ DTCC said that its personnel and IT staff had developed and implemented
new Watchlist software that results in a “more user-friendly format and a more efficient
and effective search tool.” It also said that it would begin to develop software that
supports the Blue Lantern Program “in the winter of 2008” that will be “interoperable
with existing IT products” and that it plans to implement the software before FY 2009.
According to PM/DTCC, the software will improve its ability to “research and analyze
Blue Lantern data to help identify trends and high-risk transactions.”

   x   Coordination and Staff Visits

       - PM/DTCC said that there would be better coordination among its three divisions
and that it had made 23 compliance staff visits to U.S. defense companies in FY 2006.

       OIG Analysis

       OIG recognizes the significant enhancements PM/DDTC has both made and
formulated to its licensing and compliance program and therefore to implement
Recommendation 1. As a result, OIG considers Recommendation 1 closed.

       Recommendation Unresolved

       In its October 2006 report, OIG recommended (Recommendation 2) that
PM/DDTC establish performance measures that detail benchmarks and timeframes for
reducing and eliminating the number of unfavorable post-license end-use checks.

        In its October 6, 2006, response, PM/DDTC said that it would “examine whether
to incorporate the measures already used by DDTC in managing the Blue Lantern
Program into the Bureau’s performance metrics.” It also said, in its May 14, 2007, e-mail
to OIG, that it would “over the next year . . . agree to consider whether such measures,
along with time-lines and benchmarks, would be of value in . . . overall compliance and
licensing functions.”

       OIG Analysis

       OIG believes that the recommendation should be implemented. Performance
measures for end-use checks could demonstrate progress in reducing and eliminating
unfavorable determinations. Additionally, PM/DDTC could use the measures to track
performance, identify areas for improvements, and make decisions about resource


                                 UNCLASSIFIED                                              5
                                UNCLASSIFIED

allocations. Therefore, the recommendation remains unresolved until PM/DDTC makes
a final determination.




                               UNCLASSIFIED                                         6
Appendix F. Department of the Treasury Report




                     F-1
Audit Report




OIG-07-040
EXPORT CONTROLS: CFIUS and OFAC Implemented Prior OIG
Recommendations
June 12, 2007




Office of
Inspector General
Department of the Treasury
Contents

Audit Report.................................................................................................. 3

    Results in Brief............................................................................................. 4

    Background ................................................................................................. 5

    Findings and Recommendations ..................................................................... 8

        CFIUS Established and Implemented Procedures to Help Identify Nonfilers ...... 8

        OFAC Has Taken Steps to Track Referrals to Other Agencies but Lacks
        Written Policy ......................................................................................... 9

        Recommendations................................................................................... 10


Appendices

    Appendix     1:      Objective, Scope, and Methodology…………………………..........                                 12
    Appendix     2:      Management Comments........................................................           13
    Appendix     3:      Major Contributors To This Report ..........................................          15
    Appendix     4:      Report Distribution................................................................   16


Abbreviations

    CFIUS                Committee on Foreign Investments in the United States
    ICE                  United States Immigration and Customs Enforcement
    NDAA                 National Defense Authorization Act
    OFAC                 Office of Foreign Assets Control
    OIG                  Office of Inspector General
    Treasury             Department of the Treasury




                         EXPORT CONTROLS: CFIUS and OFAC Implemented Prior                                  Page 1
                         OIG Recommendations (OIG-07-040)
        This page intentionally left blank.




EXPORT CONTROLS: CFIUS and OFAC Implemented Prior   Page 2
OIG Recommendations (OIG-07-040)
OIG
The Department of the Treasury
                                                                                  Audit
                                                                                  Report
Office of Inspector General




                      June 12, 2007

                      Clay Lowery
                      Acting Under Secretary for International Affairs

                      Adam J. Szubin
                      Director, Office of Foreign Assets Control

                      This report presents the results of an audit we conducted to follow
                      up on recommendations from two prior Office of Inspector General
                      (OIG) reports on the Department of the Treasury’s enforcement of
                      controls for the export of militarily sensitive technology to
                      countries and entities of concern. We conducted this follow-up
                      audit under the auspices of an interagency working group of OIGs
                      that focused on federal agencies’ implementation of such controls.1
                      The working group was established to help carry out certain
                      reporting requirements of the National Defense Authorization Act
                      (NDAA) for Fiscal Year 2000,2 as amended by the NDAA for Fiscal
                      Year 2001.3

                      The objective of this audit was to determine whether Treasury had
                      effectively implemented recommendations in audit reports issued
                      during fiscal years 2000 and 2003.4 The fiscal year 2000 report
                      contained one recommendation, addressed to the Chair of the
                      Committee on Foreign Investment in the United States (CFIUS).
                      The fiscal year 2003 report contained two recommendations,
1
  The participating agencies for the fiscal year 2007 working group consists of the OIGs of the
Departments of Commerce, Defense, Energy, Homeland Security, State, Treasury, the United States
Postal Service, and the Central Intelligence Agency.
2
  Pub. L. 106-65, § 1402, 113 Stat. 798 (Oct. 5, 1999).
3
  Pub. L. 106-398, § 1204, 114 Stat. 1654A-325 (Oct. 30, 2000).
4
  Department of the Treasury Efforts to Prevent Illicit Transfers of U.S. Military Technologies,
OIG-00-072 (Mar. 23, 2000); Export Enforcement: Numerous Factors Impaired Treasury's Ability to
Effectively Enforce Export Controls, OIG-03-069 (Mar. 25. 2003).

                      EXPORT CONTROLS: CFIUS and OFAC Implemented Prior                       Page 3
                      OIG Recommendations (OIG-07-040)
               addressed to the Director of the Office of Foreign Assets Control
               (OFAC). The responding Treasury officials concurred with the
               recommendations and outlined actions planned in response to the
               recommendations.

               We conducted our audit fieldwork from December 2006 through
               March 2007. We met with officials of the Office of Investment
               Security, which is part of the Office of International Affairs, and
               OFAC. We also reviewed relevant CFIUS and OFAC
               documentation. Appendix 1 contains a more detailed description of
               our objective, scope, and methodology.


Results in Brief
               In our 2000 report, we recommended that the CFIUS Chair
               coordinate efforts with other committee members to identify and
               evaluate all sources of available data that could help identify Exon-
               Florio non-filers. After identifying data sources, CFIUS was to
               develop a methodology and establish procedures for using these
               data sources effectively. We found the procedure that CFIUS
               implemented in response to our recommendation was effective.

               In our 2003 report, we recommended that the Director of OFAC
               coordinate with State Department officials to implement an
               automated process to allow both agencies to track the status of
               license determination referrals. We also recommended that the
               Director of OFAC coordinate with Customs officials to ensure that
               OFAC investigative referrals can be linked to Customs’ cases. We
               found that OFAC had implemented procedures that fulfilled the
               intent of these two recommendations but had not formalized the
               procedures as written policy. We recommend OFAC develop
               written policy to formalize the procedures. OFAC agreed to
               implement the recommendations in its response to our report.

               We obtained written comments to a draft of this report from the
               Assistant Secretary of International Affairs and the Director of
               OFAC. The comments are provided in appendix 2.




               EXPORT CONTROLS: CFIUS and OFAC Implemented Prior               Page 4
               OIG Recommendations (OIG-07-040)
Background
                     Reporting Under NDAA

                     The NDAA for Fiscal Year 2000 requires the President to submit
                     annual reports to Congress through fiscal year 2007 on transfers of
                     militarily sensitive technology to countries and entities of concern.
                     The reports’ contents are to include audits by the Inspectors
                     General of the Departments of Commerce, Defense, Energy, and
                     State of policies and procedures related to the export of
                     technologies and technical information to countries and entities of
                     concern.5 The reporting requirement was amended in fiscal year
                     2001 to require that the annual interagency report include OIG
                     follow-up on the status or disposition of recommendations made in
                     earlier reports.6

                     Although Treasury enforces export controls, Treasury OIG was not
                     required to participate in the audits mandated by the 2000 and
                     2001 laws. Nevertheless, we chose to participate when the
                     interagency working group addressed topics specifically relevant to
                     the Department’s enforcement efforts. The topics scheduled for
                     review were decided by the interagency working group in 2000.
                     For fiscal year 2007, the interagency working group decided that
                     the report would include a review of how effectively agencies had
                     addressed recommendations made in previously issued reports. The
                     findings in this report represent our contribution to that effort.

                     Treasury OIG issued three audit reports in support of the NDAA.
                     The reports contained a total of 16 recommendations, but only 3
                     remain applicable to Treasury. The other 13 recommendations were
                     addressed to management of entities that are no longer part of
                     Treasury – the legacy U.S. Customs Service and Bureau




5
 Pub. L. 106-65, § 1402(b)(3), 113 Stat. 798 (Oct. 5, 1999).
6
 Pub. L. 106-65, § 1402, was amended by Pub. L. 106-398, § 1204, 114 Stat. 1654A-325 (Oct. 30,
2000).

                     EXPORT CONTROLS: CFIUS and OFAC Implemented Prior                   Page 5
                     OIG Recommendations (OIG-07-040)
                      of Alcohol, Tobacco and Firearms.7 Of the 3 remaining
                      recommendations, 1 was directed to CFIUS and the other 2 to
                      OFAC.

                      CFIUS

                      CFIUS was established in 1975 mainly to monitor and evaluate the
                      effect of foreign investment in the United States. The Secretary of
                      the Treasury was designated the Chair of CFIUS.8 In 1988,
                      Congress passed the Exon-Florio amendment to the Defense
                      Production Act of 1950.9 The amendment authorized the President
                      or his designee to (1) receive voluntary notices from companies
                      engaged in transactions subject to Exon-Florio; (2) to determine
                      whether a particular acquisition has national security issues; and
                      (3) as appropriate, to undertake investigations. The President
                      delegated these authorities to CFIUS. Exon-Florio also gave the
                      President authority to prohibit or suspend a transaction if necessary
                      to protect national security, and the President retained this
                      authority.

                      In our 2000 report,10 we found that although CFIUS did deter some
                      foreign acquisitions that may have had national security
                      implications, it needed to do more to identify nonfilers engaged in
                      activities subject to Exon-Florio. Our specific recommendation was
                      as follows:

                      We recommend that the CFIUS Chair coordinate efforts with other
                      Committee members to identify and evaluate all sources of
                      available data that can assist in identifying Exon-Florio non-filers.
                      Once data sources are identified, CFIUS needs to develop a
7
  The border security and inspection arm of the U.S. Customs Service is now part of the Bureau of
Customs and Border Protection; the enforcement and investigation arms of the U.S. Customs Service
and the law enforcement arm of the Immigration and Naturalization Service is now part of U.S.
Immigration and Customs Enforcement (ICE). Both Customs and Border Protection and ICE are within
the Department of Homeland Security. The Bureau of Alcohol, Tobacco and Firearms is now within the
Department of Justice and is known as the Bureau of Alcohol, Tobacco, Firearms and Explosives.
8
  The other CFIUS member agencies are the Departments of State, Defense, Justice, Commerce, and
Homeland Security; the Office of Management and Budget; the Council of Economic Advisers; the
National Economic Council; the Office of the United States Trade Representative; the Office of Science
and Technology Policy; and the National Security Council.
9
  50 U.S.C. App. § 2170.
10
   OIG-00-072.

                      EXPORT CONTROLS: CFIUS and OFAC Implemented Prior                          Page 6
                      OIG Recommendations (OIG-07-040)
                   methodology and establish procedures as to how these data
                   sources can be effectively used to meet its responsibilities.

                   CFIUS concurred with our recommendation.

                   OFAC

                   OFAC, located within Treasury’s Office of Terrorism and Financial
                   Intelligence, administers and enforces economic and trade
                   sanctions against targeted foreign countries, organizations that
                   sponsor terrorism, and international narcotics traffickers, based on
                   U.S. foreign policy and national security goals. OFAC regulations
                   require exporters, importers, and others under U.S. jurisdiction to
                   obtain OFAC licenses before engaging in any type of commercial
                   transactions with targeted countries or nationals.

                   During our 2003 audit,11 we found that OFAC sent referrals to the
                   State Department for license determinations when OFAC was
                   unsure whether to grant licenses to exporters. The State
                   Department, however, did not routinely process these referrals
                   promptly, resulting in delays in OFAC license approvals. Both State
                   Department and OFAC officials attributed the State Department’s
                   processing delays to (1) mandatory rotation cycles that required
                   employees within the Bureau of Economic and Business Affairs,
                   Office of Economic Sanctions Policy, to rotate every two years and
                   (2) the State Department’s lack of an automated system to track
                   OFAC referrals.

                   We also found during our 2003 audit that OFAC referred
                   approximately 30 cases to Customs each year for criminal
                   investigation and that Customs initiated its own investigations of
                   OFAC export violations. We determined that Customs did not
                   always inform OFAC when Customs closed an OFAC investigative
                   referral, decided not to take action on an OFAC referral, or initiated
                   its own investigation of export violations. In addition, Customs and
                   OFAC used different numbers to identify referrals; as a result,
                   OFAC officials said they found it difficult to link their referrals to a
                   Customs’ investigative case number. The failure of Customs to
                   notify OFAC officials about closed referrals and investigations

11
     OIG-03-069.

                   EXPORT CONTROLS: CFIUS and OFAC Implemented Prior                  Page 7
                   OIG Recommendations (OIG-07-040)
            hampered OFAC’s ability to assess civil penalties when it was
            determined that criminal prosecution was not warranted.

            As a result of these findings, we made the following two
            recommendations:

            1. The Director of OFAC should coordinate with State Department
               officials to implement an automated process to allow both
               agencies to track the status of license determination referrals.

            2. The Director of OFAC should coordinate with Customs officials
               to ensure OFAC investigative referrals can be linked to
               Customs’ cases.

            OFAC concurred with these recommendations.


Findings and Recommendations

            CFIUS Established and Implemented Procedures to Help
            Identify Nonfilers

            In response to our recommendation, the CFIUS Chair established
            procedures for coordinating with other Committee members to
            identify and evaluate data sources to help identify Exon-Florio
            nonfilers. Specifically, CFIUS members met in May 2000 to identify
            available sources of data and developed a procedure for reporting
            non-notified transactions. The procedure requires CFIUS members
            to provide the Committee Chair with information on transactions
            they believe may be appropriate for review by the Committee under
            Exon-Florio. Upon receipt of the information, the Committee Chair
            is to add public information and develop a list of non-notified
            transactions. This list is then to be circulated to member agencies
            for review. If a CFIUS member believes that the parties in the
            transaction should file, CFIUS is to take appropriate action. This
            procedure has been used by members to identify non-notified
            transactions since 2000.




            EXPORT CONTROLS: CFIUS and OFAC Implemented Prior               Page 8
            OIG Recommendations (OIG-07-040)
OFAC Has Taken Steps to Track Referrals to Other
Agencies but Lacks Written Policy

We found that, in response to our recommendations, OFAC took
steps to coordinate with the State Department on license referrals
and with ICE on investigative referrals.

OFAC Coordination with the State Department

OFAC established regular meetings with the State Department to
review license determination referrals and, since 2003, monthly
meetings have been held and attended by Licensing Officers and
office Directors. These meetings are used to elevate licensing
policy issues between OFAC and the State Department. However,
OFAC did not implement an automated process that allows both
agencies to access each other’s system to track the status of
licensing determination referrals because it said that the cost was
prohibitive. According to OFAC personnel, institution of the
monthly meetings has resolved most of the timeliness issues that
the recommendation was intended to address.

OFAC Coordination with ICE

OFAC has coordinated with ICE and held regular meetings to
review the status of ICE-initiated investigations and OFAC referrals.
During these meetings, ICE has provided its active embargo case
reports to OFAC for review. These reports detail the status of both
ICE-initiated investigations and OFAC referrals. To link OFAC
referrals to ICE cases, OFAC assigns case names to their referrals
and ICE utilizes these OFAC case names in their active embargo
reports.

The steps OFAC took to coordinate with the State Department on
license referrals and with ICE on investigative referrals fulfilled the
intent of our recommendations. However, OFAC does not have
written policy in place that formalizes these procedures. The
meetings with the State Department and ICE represent an
important internal control, defined in the Government
Accountability Office’s Standards for Internal Control in the Federal
Government as the plans, methods, and procedures used to meet


EXPORT CONTROLS: CFIUS and OFAC Implemented Prior                 Page 9
OIG Recommendations (OIG-07-040)
                      missions, goals, and objectives. Further, internal control should be
                      clearly documented and the documentation should be readily
                      available for examination.12 Without a written policy requiring
                      continued coordination with the State Department and ICE, lapses
                      in coordination could occur in the future.

                      Recommendations

                      To help ensure continuity of coordination between OFAC and the
                      State Department and OFAC and ICE, we recommend the Director
                      of OFAC do the following:

                      1. Ensure OFAC develops written policy to formalize the procedure
                         of having monthly meetings with the State Department to
                         review the status of license determination referrals.

                      2. Ensure OFAC develops written policy to formalize the procedure
                         of having regular meetings with ICE to review the status of ICE-
                         initiated investigations and OFAC referrals.

                      Management Response

                      OFAC concurred with the two recommendations. OFAC has drafted
                      a policy memo to ensure continued implementation of their current
                      practice of conducting monthly meetings with the Department of
                      State to resolve issues relating to license applications submitted to
                      OFAC that involve foreign policy issues. OFAC has also drafted a
                      policy memo to ensure continued implementation of their current
                      practice of coordinating with criminal law enforcement agencies,
                      including ICE, concerning violations of OFAC regulations. OFAC
                      was to distribute both policy memos no later than May 30, 2007.

                      OIG Comment

                      Management’s planned actions are responsive to the intent of our
                      recommendations.



12
 Government Accountability Office, Standards for Internal Control in the Federal Government,
GAO/AIMD-00-21.3.1 (November 1999).

                      EXPORT CONTROLS: CFIUS and OFAC Implemented Prior                        Page 10
                      OIG Recommendations (OIG-07-040)
                           * * * * *

We appreciate the courtesies and cooperation provided to our staff
during the audit. If you wish to discuss the report, you may
contact me at (202) 927-5400 or Alain Dubois, Director of Banking
Audits, at (202) 927-0382. Major contributors to this report are
listed in appendix 3.




Marla A. Freedman
Assistant Inspector General for Audit




EXPORT CONTROLS: CFIUS and OFAC Implemented Prior           Page 11
OIG Recommendations (OIG-07-040)
Appendix 1
Objective, Scope, and Methodology




Our objective was to determine whether certain prior OIG
recommendations directed to the Chair of the Committee on
Foreign Investments in the United States (CFIUS) and to the
Director of the Office of Foreign Assets Control (OFAC) had been
implemented. These recommendations are restated on pages 6
and 8.

To accomplish this objective, we performed the following activities:

   x   Conducted interviews with Office of Investment Security
       personnel
   x   Reviewed CFIUS guidance on non-notified transactions
   x   Conducted interviews with current OFAC managers and one
       former OFAC manager
   x   Reviewed and analyzed an OFAC report on all outstanding
       referrals to the State Department
   x   Reviewed OFAC documentation related to monthly meetings
       with the State Department
   x   Reviewed a U.S. Immigration and Customs Enforcement
       report on Active Embargo Cases

We performed our audit from December 2006 through March 2007
in accordance with generally accepted government auditing
standards.




EXPORT CONTROLS: CFIUS and OFAC Implemented Prior            Page 12
OIG Recommendations (OIG-07-040)
Appendix 2
Management Comments




EXPORT CONTROLS: CFIUS and OFAC Implemented Prior   Page 13
OIG Recommendations (OIG-07-040)
Appendix 2
Management Comments




EXPORT CONTROLS: CFIUS and OFAC Implemented Prior   Page 14
OIG Recommendations (OIG-07-040)
Appendix 3
Major Contributors To This Report




Alain Dubois, Director, Banking Audits
Jeffrey Dye, Audit Manager
Amnoiphorn Bannavong, Program Analyst
Bobbie Gambrill, Auditor
Esther Tepper, Communications Analyst
Horace Bryan, Referencer




EXPORT CONTROLS: CFIUS and OFAC Implemented Prior   Page 15
OIG Recommendations (OIG-07-040)
Appendix 4
Report Distribution




The Department of the Treasury

   Office of Strategic Planning and Performance Management
   Office of Accounting and Internal Control

Office of International Affairs

   Office of International Affairs
   Liaison Officer

Office of Foreign Assets Control

   Office of Foreign Assets Control
   Liaison Officer

Department of Defense

   Department of Defense Office of Inspector General

Office of Management and Budget

   OIG Budget Examiner




EXPORT CONTROLS: CFIUS and OFAC Implemented Prior        Page 16
OIG Recommendations (OIG-07-040)
Appendix G. United States Postal Service Report




                      G-1
March 29, 2007

PAUL E. VOGEL
MANAGING DIRECTOR, GLOBAL BUSINESS AND SENIOR VICE PRESIDENT

SUBJECT: Management Advisory – Follow-up of the Postal Service’s
         Enforcement of Export Controls (Report Number SA-MA-07-001)

This report presents the results of our follow-up review of the U.S. Postal Service’s
enforcement of export controls (Project Number 07YV001SA000). We conducted this
review as part of an interagency group of Inspectors General1 to determine whether
each agency’s management had effectively addressed recommendations in prior
reports on enforcing export controls.

                                                Background
Each year companies in the U.S. export billions of dollars worth of dual-use items2 with
both commercial and military applications. For example, dual-use items can be
incorporated into golf clubs but can also help missiles evade radar detection.3 To
protect U.S. interests and limit illegal exports, Congress authorized the President to
prohibit or curtail the export of any goods or technology subject to the jurisdiction of the
U.S. or exported by any person of the U.S under the Export Administration Act.4 The
Secretary of Commerce exercises this authority in consultation with other departments
and agencies, as the Secretary considers appropriate, and issues Export Administration
Regulations (EAR)5 to carry out this law.

The EAR requires exporters to obtain a license or determine that government
authorization is not needed before exporting controlled items. In a 1999 export
licensing review, the Department of Commerce Office of Inspector General (OIG) raised
the concern that individuals could circumvent export control laws by sending, through


1
  The Inspectors General from the Departments of Commerce, Defense, Energy, Homeland Security, State,
Treasury, the U.S. Postal Service, and the Central Intelligence Agency comprise this year’s interagency review team.
2
  Dual-use items include commodities, software, and technology.
3
  U.S. Government Accountability Office, Export Controls: Improvements to Commerce’s Dual-Use System Needed
to Ensure Protection of U.S. Interests in the Post-9/11 Environment, June 2006.
4
  50 U.S.C. App. §§ 2401 et seq. The EAA is not permanent legislation. Authority granted under the act lapsed in
August 2001 but was extended under Executive Order Number 13,222 (Aug. 17, 2001) and Continuation of
Emergency Regarding Export Control Regulations, 71 Fed. Reg. 44,551 (Aug. 7, 2006).
5
  15 C.F.R. Parts 730-774.
Follow-up of the Postal Service’s Enforcement                                                        SA-MA-07-001
 of Export Controls


the U.S. mail, controlled commodities to countries or entities of concern without seeking
an export license.

The Department of Commerce, Bureau of Industry and Security’s Office of Export
Enforcement (OEE) and the Department of Homeland Security, Bureau of Customs and
Border Protection (Customs) are both responsible for export enforcement activities
related to dual-use items;6 however, Customs is the primary inspector of items to be
exported.

Since Customs has a major role in enforcing export controls and coordinates
enforcement activities concerning outbound mail with the Postal Service, the Inspectors
General for both agencies participated in a 2002 interagency review of federal export
enforcement efforts government-wide. The objective of the Postal Service OIG’s review
was to determine the role of the Postal Service in enforcing export controls. We
participated in this 2006 interagency follow-up effort to determine whether management
effectively addressed recommendations made in our previous report, discussed below
in the Prior Audit Coverage section.

The Postal Service processes international mail at five International Service Centers
(ISC). The ISCs are located in New York, Miami, Chicago, Los Angeles, and San
Francisco. Customs employees are co-located at each ISC and focus on inspecting
inbound international mail. 7

                           Objectives, Scope, and Methodology
Our objectives were to determine whether the Postal Service implemented
recommendations made in the prior report and whether corrective actions are working
as intended. We reviewed applicable criteria, including the Postal Service’s
International Mail Manual, Administrative Support Manual (ASM), and Domestic-
Originating International Mail Standard Operating Procedures; the Trade Act of 2002;8
the Export Administration Act; and EAR. We also interviewed officials from the Postal
Service, Postal Inspection Service, Customs, and Department of Commerce, OEE.

We conducted this review from December 2006 through March 2007 in accordance with
the President’s Council on Integrity and Efficiency, Quality Standards for Inspections.
We discussed our observations and conclusions with management officials on March 1,
2007 and included their comments where appropriate. We made no recommendations
in this report and Postal Service management was not required to provide written
comments.


6
  Other entities responsible for enforcement activities include the Department of Homeland Security, Immigration and
Customs Enforcement Division; Department of Justice, Federal Bureau of Investigation; and the U.S. Attorney’s
Office.
7
  Customs personnel are also co-located at seven other postal facilities nationwide that process international mail.
8
  Pub. L. No. 107-210, § 344 (2002).



                                                         2
                                              Restricted Information
Follow-up of the Postal Service’s Enforcement                                 SA-MA-07-001
 of Export Controls



                                     Prior Audit Coverage
The OIG report titled, Review of the Postal Service’s Enforcement of Export Controls
(Report Number AO-MA-03-001 (R), April 17, 2003), stated that the Postal Service’s
enforcement of export controls could be strengthened. The report recommended that
the Postal Service finalize and implement an agreement allowing Customs to expand
and make permanent the outbound mail inspection program; ensure that any outbound
mail inspection program provides for inspection of items declared for export, according
to the EAR; and establish a working group to coordinate with the Department of
Commerce, OEE on export enforcement issues for mail. Postal Service management
neither agreed nor disagreed with our recommendations; however, their comments
were responsive and their actions taken and planned should have corrected the issues
we identified.

                                                Results
The Postal Service has taken actions to address OIG recommendations made in 2003.
Specifically, the Postal Service worked with Customs to develop procedures for an
outbound mail inspection program. The Postal Service also revised its policy to assist
Customs in complying with its export enforcement responsibilities, and is currently
working with Customs on an Outbound Mail Manifest Pilot for inspection of outbound
international mail. Additionally, the Postal Inspection Service has recently reestablished
contact with the Department of Commerce, OEE to exchange information on export
enforcement issues.

Although the Postal Service and Customs have worked to address compliance with
export regulations, a nationwide outbound mail inspection program does not exist.
Because of recent terrorist acts, continuous threats, and a related focus on preventing
the proliferation of weapons of mass destruction, both agencies must continue to work
together to expand and implement a program to search outbound international mail and
ensure compliance with the EAR.

Finalize Outbound Mail Inspection Program

The Postal Service worked with Customs to establish and finalize an outbound mail
inspection program. In February 2003, Customs issued a memorandum to its field
offices allowing ports to conduct searches of outbound mail shipments as part of
enforcement operations. The memorandum, which was prepared in coordination with
the Postal Service, provided guidance on working with Postal Service officials and
examining outbound mail. It also discussed the criteria Customs should use when
inspecting different types of outbound mail.

According to a Customs official, the memorandum permitted each Customs port director
to establish an outbound mail inspection program based on that port’s resources and



                                                     3
                                          Restricted Information
Follow-up of the Postal Service’s Enforcement                                                         SA-MA-07-001
 of Export Controls


threat assessment priorities. However, because of resource constraints, no programs
were implemented at that time. Customs did not attempt to establish a national
program in collaboration with the Postal Service until 2006.

Revision to Postal Service Policy. The Postal Service also revised ASM 13 to allow
Customs to execute its export enforcement responsibilities and implement an outbound
mail inspection program. Specifically, ASM 13, Sections 274.912-913, provide
guidance on Customs’ authority to open and inspect outbound international mail to
ensure compliance with federal laws and regulations. In accordance with the law,9 the
policy states that Customs can inspect outbound mail weighing more than 16 ounces. It
also provides guidance on Customs’ authority to screen international transit mail that is
handled by the Postal Service and mail that is handled by airlines or other carriers
without the direct intervention of the Postal Service.

Outbound Mail Manifest Pilot. The Postal Service is currently working with Customs to
establish a nationwide outbound mail inspection program. In June 2006, the Postal
Service and Customs implemented an Outbound Mail Manifest Pilot at the Chicago ISC
to facilitate Customs inspections of outbound mail.10 The pilot, which consists of three
phases,11 allows the Postal Service to electronically provide Customs with advance
manifest information on outbound mail shipments of Air Parcel Post and Global Express
Mail®12 submitted on-line through the Postal Service’s Click-N-Ship® function at the
Internet site, www.usps.com. Customs uses a risk management approach to target
selected shipments for further examination. This system allows Customs to perform
fewer manual inspections and instead use a more selective and systematic method for
screening outbound mail. However, according to a Postal Service official, mail
submitted through the Internet site represents only about 5 percent of all outbound
international mail, and the majority of this mail is sent through Postal Service retail
windows. Postal Service and Customs officials are working together to implement a
nationwide outbound mail inspection program that will comply with export laws and
regulations.

Ensure Outbound Mail Inspection Program Is in Accordance with Export
Administration Regulations

The Postal Service does not have the authority to execute an outbound mail inspection
program in accordance with the EAR. Although the EAR grants Postal Service officials
the authority to inspect items declared for export,13 the Postal Service is prohibited by

9
  19 U.S.C. § 1583(c).
10
   The pilot began in June 2006; however, it was suspended in September 2006 at Customs’ request. The pilot
entered the final phase in February 2007.
11
   Phase 1 was for data collection only and tested the flow of electronic information between the Postal Service and
Customs. Phase 2 tested the physical process of holding mail items for Customs. Phase 3 will complete the process
and allow the pilot operation to run full course.
12
   Effective May 6, 2007, Air Parcel Post will be Priority Mail International and Global Express Mail will be Express
Mail International®.
13
   15 C.F.R. § 758.7(a).



                                                         4
                                              Restricted Information
Follow-up of the Postal Service’s Enforcement                                                         SA-MA-07-001
 of Export Controls


law from opening mail that is sealed against inspection without a warrant, unless
exigent circumstances exist (for example, where the screening of the mail has disclosed
the presence of materials that pose a physical threat to persons or property).14 This
statute applies to both mail delivered inside the U.S. and its territories, as well as
domestic mail being exported.15 As a result, Postal Service policy does not allow its
officials to randomly open and examine the contents of mail declared for export.

Customs is the entity authorized to open and inspect outbound mail. A Customs officer
may, without a search warrant, search outbound international mail that weighs more
than 16 ounces and is sealed against inspection if there is reasonable cause to suspect
that the mail contains items such as monetary instruments, weapons of mass
destruction, narcotics, or merchandise mailed in violation of the Export Administration
Act.16 Outbound international mail that weighs less than 16 ounces and is sealed
against inspection may not be searched by Customs without a search warrant.17

Establish Liaison with Department of Commerce

The Postal Inspection Service recently reestablished contact with the Department of
Commerce, OEE in response to our 2003 recommendation. During our follow-up
review, Postal Inspection Service officials informed us that the original liaison had been
transferred and a new point of contact had not been established. However, in January
2007, the Inspector In Charge of Dangerous Mail Investigations and Homeland Security
sent a letter to the Director, Department of Commerce, OEE to introduce himself and
provide a point of contact for coordination on export enforcement issues.

Conclusion

The Postal Service has a cooperative relationship with Customs and has taken
appropriate actions to assist Customs with its responsibility to search outbound
international mail and ensure compliance with the EAR. Although both agencies have
taken measures to strengthen the enforcement of export controls concerning the mail, a
national outbound mail inspection program has not been implemented. The outbound
mail manifest program is currently a pilot at only one of the five ISCs. Additionally, the
pilot is limited to Air Parcel Post and Global Express Mail submitted on-line through the
Postal Service’s Click-N-Ship function at www.usps.com, which, according to a postal
official, is only 5 percent of all outbound international mail.

We strongly encourage the Postal Service to continue to work with Customs to expand
the pilot program nationwide and include other classes of mail as well as mail that is
presented at retail windows. Not examining more outbound mail on a national or
14
   39 U.S.C. § 3623(d).
15
   39 U.S.C. § 3623(d) authorizes the Postal Service to open mail without a search warrant for the sole purpose of
determining an address at which the letter can be delivered, or pursuant to the authorization of the addressee.
However, this authority does not extend to conducting random searches of domestic mail that will be exported.
16
   19 U.S.C. §1583(c)(1).
17
     Id. § 1583(d).



                                                         5
                                              Restricted Information
Follow-up of the Postal Service’s Enforcement                                 SA-MA-07-001
 of Export Controls


systematic basis, could allow illegally exported items to be shipped using the Postal
Service. Such items could jeopardize security in the U.S. and abroad.

We appreciate the cooperation and courtesies provided by your staff during the review.
If you have any questions or need additional information, please contact Andrea
Deadwyler, Director, Inspection Service and Facilities, or me at (703) 248-2100.




Tammy L. Whitcomb
Deputy Assistant Inspector General
 for Support Operations

cc: Alexander E. Lazaroff
    Lawrence Katz
    Mary Anne Gibbons
    Deborah A. Kendall




                                                     6
                                          Restricted Information
